<html>
<title> - DARFUR: A ``PLAN B'' TO STOP GENOCIDE?</title>
<body><pre>[Senate Hearing 110-229]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-229
 
                 DARFUR: A ``PLAN B'' TO STOP GENOCIDE? 

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                             APRIL 11, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

39-936 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)

  























                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     1
Morrison, Dr. J. Stephen, director, Africa Program, Center for 
  Strategic and International Studies, Washington, DC............    62
    Prepared statement...........................................    64
Natsios, Hon. Andrew S., President's Special Envoy to Sudan, 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     9
Rice, Hon. Susan E., senior fellow, Foreign Policy Studies and 
  Global Economy and Development Programs, the Brookings 
  Institution, Washington, DC....................................    43
    Prepared statement...........................................    47
Rossin, Hon. Lawrence G., senior international coordinator, Save 
  Darfur Coalition, Washington, DC...............................    54
    Prepared statement...........................................    57
Sununu, Hon. John E., U.S. Senator from New Hampshire............     3

                                 (iii)

  


                 DARFUR: A ``PLAN B'' TO STOP GENOCIDE?

                              ----------                              


                       WEDNESDAY, APRIL 11, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Feingold, Menendez, Cardin, Casey, 
Webb, Lugar, Coleman, Corker, Sununu, and Voinovich.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. This is just a brief interlude here. The 
Ambassador is caught in traffic. He's going to be about 5 
minutes late. I wanted to explain why we're going to wait 
another 5 minutes or so, because we should start off with the 
administration witness first. So, we're going to just recess 
until the Ambassador arrives.
    Thank you.
    [Recess.]
    The Chairman. The hearing will come to order. I beg your 
pardon.
    Thank you for being here. Mr. Ambassador, welcome. And 
welcome, to our outside witnesses, as well: Susan Rice, a 
former Assistant Secretary of State for Africa, now at 
Brookings; Stephen Morrison, one of the leading think-tank 
experts on Africa, from CSIS; and Larry Rossin, the leader of 
the Save Darfur Coalition.
    Folks, it's been 4 years now since the crisis in Darfur 
erupted, 4 years since the genocide began. And it's been 3 
years and 9 months since Congress formally recognized this as 
genocide. The resolution in both the House and Senate passed, 3 
years and 9 months ago, and it passed unanimously. Not a single 
member denied the horror that was underway. It's been 3 years 
and 7 months since the administration added its own 
recognition. On September 9, 2004, in testimony before the 
committee, then-Secretary of State Colin Powell said clearly 
that the killings in Darfur were genocide; shortly thereafter, 
so did President Bush.
    So, now, all these years later, the question still remains: 
What are we going to do about it? What are we going to do to 
stop the slaughter, to return the survivors to their homes, to 
bring those responsible for the murder, rape, and terror to 
justice, and to build a lasting peace? What are we going to do 
about Darfur? That's the question I've asked the Ambassador. 
And he's the administration's point person for Darfur. And, 
like his predecessor, Deputy Secretary Zoellick, I have no 
doubt about his dedication and determination to do the right 
thing.
    In December, the Ambassador told a group of Senators that 
Khartoum had until the end of the month to agree to the 
deployment of U.N. peacekeepers. That deadline has long since 
passed, with no agreement by Khartoum to accept the 
peacekeepers, and no reaction, from the United States or the 
international community, to its refusal.
    Today, this committee expects to hear from the Ambassador a 
concrete plan of action. I hope that he'll flesh out the 
administration's plan B, as was referred to earlier, and tell 
us how and when the administration will act on that plan.
    What should we do about Darfur? Well, that's the question 
I've asked our outside witnesses, because there are almost 
certainly steps the administration is not planning to take that 
this committee should consider from these outside witnesses.
    I have my own strongly held view on what we should do. Most 
importantly, we need a comprehensive approach to what is a 
complex problem. We have to work all six sides of what John 
Prendergast, one of the leading experts on Darfur, rightly 
calls ``The Policy Rubik's Cube.'' That will require the kind 
of resources, coordination, and sustained engagement at the 
highest levels that, in my view, we have not yet seen or we 
have not--not only from this administration, but also we have 
not seen from our partners around the world.
    Let me quickly suggest some of the pieces of the complex 
approach that need to be taken.
    First, pursuing Khartoum is necessary, but not sufficient. 
We need to work on the major rebel groups, as well. Three years 
ago, after visiting a refugee camp on the Chad-Darfur border, I 
met with the leaders of two of the major rebel groups. I urged 
them to come up with a common program. I offered to host them 
in Congress if they did. I warned them that if they did not, 
Khartoum would use their division as an excuse to do nothing. 
We need a major sustained diplomatic initiative to bring these 
rebels together.
    Second, peacekeepers are essential, but they're not enough. 
We need a peace process. If we end the violence, but fail to 
achieve a sustained political settlement in Darfur, the 
violence will return. That puts a premium on a single peace 
process, supported by the international community, including 
the African Union and the United Nations, and managed by an 
oversight group of concerned countries.
    Third, unilateral sanctions may be necessary, but will not 
suffice. We need a coordinated action from many other 
countries. The United States has had significant sanctions on 
Khartoum since 1990. We're almost sanctioned out, to use a 
phrase the President used in another context.
    For pressure to be meaningful, it must be multilateral. The 
Chinese, the Arab world, the Europeans, the African Union, 
everyone should be joining together in this campaign. Without 
American leadership, I see absolutely no prospect of that 
happening.
    Fourth, limiting our focus to Darfur is too narrow. We have 
to include the neighbors, especially Chad and the Central 
African Republic. I saw firsthand the spillover effects of 
Darfur--of the Darfur crisis on Chad, and it has gotten much 
worse over the past 3 years. The crisis is putting an 
incredible strain on the neighbors. And, at the same time, they 
have tremendous influence with some of the key players. Our 
Darfur diplomacy and initiatives must include the neighbors.
    Finally, and most urgently, convincing Khartoum to accept a 
meaningful peacekeeping force should be our goal, but if it 
refuses, imposing such a force must be our mission. I wish that 
the African Union had the mandate, the manpower, and the 
material to do the job, but it does not. We must set a hard 
deadline now on Khartoum to accept the hybrid African Union-
United Nations force, and we must start planning to impose that 
force if Khartoum refuses, and to take other concrete steps 
that can start saving lives now.
    I've long advocated a NATO-led no-fly zone to stop the air 
support Khartoum provides to the Janjaweed. Recently, Khartoum 
stepped up its slaughter from the skies. It is within our power 
to clip their wings. Yes; a no-fly zone could make it more 
difficult for humanitarian groups to operate, so we should do 
everything possible to design it with their concerns in mind. 
And I expect to ask the witnesses about that.
    I hope that we could come out of this morning with a clear 
plan for action. For too long, all of us have expressed our 
outrage at the destruction of Darfur, without doing anything 
meaningful to stop it. I think it's long past time we must act, 
even if that action is in the face of the refusal of Khartoum 
to accommodate anything. I realize that sounds reminiscent of 
what I said 12 years ago about Bosnia, but I think this is 
incredible. Our grandkids are going to be seeing their own 
version of Hotel Rwanda that may look even worse.
    So, I thank you very much. I also want to point out that 
Senator Lugar will be here, but he is testifying before the 
Armed Services Committee on Nunn-Lugar, and he's introducing a 
judge, before the Judiciary Committee, from Indiana. But he 
will be here.
    I thank you, again, Mr. Ambassador. And I indicated to the 
Senator from New Hampshire, if he had an opening comment on the 
Republican side, he's welcome to it.

    STATEMENT OF HON. JOHN E. SUNUNU, U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Sununu. If I might just offer a couple of brief 
comments. First----
    The Chairman. Please.
    Senator Sununu. I want to mention that Senator Feingold 
isn't here, but he chairs the Africa Subcommittee, I'm the 
ranking member, and I know he has a great interest in both 
testimony from Mr. Natsios and in the situation.
    There's no greater manmade humanitarian crisis that I can 
think of in the world today. And, Mr. Chairman, I think you've 
outlined, very effectively, the moral obligation that we have 
to pursue a--really, a just outcome here. The slow pace that 
we've seen is absolutely unacceptable, and we need not just a 
proper response and an effective plan, but we need to 
understand what the reasons are for such a slow pace.
    I was in the room with you when Secretary Powell testified 
before our committee and talked about the genocide that was 
occurring. That was 2\1/2\ years ago. And, to be sure, at that 
time the expectations were much, much higher.
    So, we need to understand exactly what the reasons are for 
the slow pace of progress, and I think we need to be very 
frank. If there were disagreements within the State Department 
or within the administration about the path we should be 
pursuing, we need to know about that, we need to understand 
that, so that we can, you know, best decide, as legislators, 
what might be done to either help build consensus or pursue a 
particular path that might reinforce the goals and objectives 
of Mr. Natsios and those that have spent the most time in the 
region.
    So, I hope this hearing might put out some of those, sort 
of, frank assessments of what can be done better, what can be 
done differently, and where there might be alternatives and 
options in order to deal with this incredible humanitarian 
crisis.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Ambassador, again, welcome. Thank you. You've got a 
difficult job. We're anxious to hear what you have to say.

STATEMENT OF HON. ANDREW S. NATSIOS, PRESIDENT'S SPECIAL ENVOY 
         TO SUDAN, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Natsios. Thank you, Mr. Chairman. Thank you for 
inviting me before the committee.
    President Bush appointed me to this position in September 
of last year, about 7 months ago. I--actually, my first trip to 
Darfur was in 1990, 17 years ago, during the first Darfur war. 
This is the third war in 20 years, and by far the most 
destructive.
    I do have written testimony. I'm not going to read that; 
it's very long. But, for the record, I'd like to submit that, 
Mr. Chairman.
    The Chairman. The entire statement will be included in the 
record.
    Ambassador Natsios. Thank you.
    I went then as a USAID official. My job then was to make 
sure people didn't die in what was a drought and a war at the 
same time, and I wasn't focused on the politics of it. It was a 
tribal war between the Fur people, an African tribe, and the 
Arabs. And so--and then, there's another war, in the 1990s, 
between the Masalit tribe--which are Africans--and the Arabs. 
And now, this is a third war between the Masalit, the Fur, and 
the Zagawas and the Arabs. And it's mostly the northern Arabs, 
not the southern Arabs. The southern Arabs--the southern 
Rizegat, actually have been neutral in the war and the Nazir of 
the southern Rizegat have actually helped protect some of the 
African tribes from attacks from the Janjaweed. So, I think 
it's a very bad idea to assume this is all Africans versus all 
Arabs. That is simply not true, and it may make peace harder if 
people think the bad guys are all the Arabs and the good guys 
are all of the African tribes. That's simply not the case.
    The war has been dangerously regionalized, at this point. 
It's destabilized Chad, it's poured, now, into the Central 
African Republic, and we are very worried about the regional 
consequences of this, not just from a political standpoint, but 
from a humanitarian standpoint. There were 400 people killed, 
or who died from exposure, in attacks in Chad in the last week, 
which is very disturbing, according to reports coming in from 
the field.
    We believe the only way to deal with this is, ultimately, a 
negotiated settlement, and--because over the long term we have 
to have some kind of an agreement between the people who live 
there, who have been at war with each other, with--one side, 
with support of the Government of Sudan--for the economy and 
the social structure and the social fabric of the province to 
be put back together again.
    We think coercive measures will be necessary; in fact, are 
necessary. When you said, Senator, ``I gave them a deadline, at 
the end of December,'' actually they met the deadline for that 
phase. In December, I met with President Bashir, and I told him 
that he had said: Under no circumstances would there ever be a 
``blue helmet'' ever in Darfur, under phase 1, phase 2, phase 3 
of the Kofi Annan plan, which we negotiated on November 16, 
with 30 countries and 3 international organizations at the 
meeting. And he said, ``I've still--that's still my position.'' 
I said, ``That's completely untenable.'' And I said, ``We're 
going to have to impose these new coercive measures if you 
refuse to do that.'' He agreed, at that point, to allow blue 
helmets. And blue helmets are in Darfur now--not a large number 
of them, but he has agreed to all of the provisions of the 
first phase, which is about 190 people.
    And so, there was, in fact, some action, but it's very 
slow. And there's a reason it's slow. The Sudanese Government 
sees the peacekeeping force as regime-threatening. And the 
reason they see that is, they believe that if a U.N. force 
enters Darfur, they will begin to arrest people for war-crimes 
trials in Europe, under the ICC. And there is a fear that--I've 
told them that is not in the resolution, that's not what 
they're there for. They said, ``Well, it may not be, now; but, 
once the troops arrive, you can change the resolution, later 
on.''
    In any case, that's the fear. And it's a real fear, 
because, of course, they committed crimes, and they're going to 
be held accountable. And we know that the ICC has already 
announced they're investigating people and will be, shortly, 
making some indictments of some major figures in the regime.
    We believe, finally, that a negotiated settlement is the 
only way. But we must deal with the property, livelihoods, and 
security issues for the people in the province, in a peace 
agreement that has to be implemented. I mean, there's a lot of 
broken agreements that have been signed over the years. I've 
watched them for 17 years, between the north and the south. 
They sign agreements--they sign agreements and then they don't 
implement any of them. So, it's not a function of simply 
signing things; it's a function of doing them.
    Once the blue helmets arrived in Darfur under phase 1, I 
complimented them publicly for agreeing to what they did agree 
to. But, before that, I didn't talk about it, because I wasn't 
sure they were going to actually physically let them in.
    Where are our diplomatic efforts and our policy? Our focus 
is on human rights and on humanitarian issues. We have no 
military or economic interest in Darfur. I repeat that, because 
this is a refrain that is being used to, sort of, exaggerate 
among the Arab tribes, what the purpose of the United States 
and other countries' interests in Darfur are. They're for oil, 
they're for building a military base--other ridiculous 
arguments are being made to fuel tensions--ethnic tensions 
within the country in a very unhelpful way.
    We believe that we need to energize, although this is not 
the purpose of this hearing, the implementation of the 
Comprehensive Peace Agreement between the north and the south. 
We think there's a direct relationship between peace in the 
south and peace in Darfur. We have asked the southerners, who 
are actually the most influential with the rebel groups, to get 
involved in this. I asked them last December, I asked them 
again in March, and they have done that--Salva Kiir is getting 
involved, who is the President of the south; and the First Vice 
President of the northern government. At first, the northern 
government said, ``Absolutely not, you will not do this.'' Over 
time, we've, I think, convinced the Sudanese Government that it 
was in their interest to have them involved. And they are 
involved now.
    The rebels I met with in January in Chad told me the most 
influential group for them were the southerners, because 
together the south and Darfur make up half the country, and the 
model for the DPA, the Darfur Peace Agreement that was signed 
last May, is the Comprehensive Peace Agreement between the 
north and the south. They see their brothers in the south as a 
model for what they want to do in Darfur.
    We have encouraged--I have personally encouraged--I spent a 
week in Chad, in January, working with the rebels and working 
with Jan Eliasson and Salim Salim, to unify the rebels. They're 
broken down into 14 or 15 different groups, depending on the 
week. It is a very chaotic situation. One of the problems with 
the security situation at this point, is not two sides fighting 
against each other; it's anarchy. The government has lost 
control of large parts of the province now; and some of the 
rapes, by the way, that are going on, are by rebels raping 
women in their own tribes. We know, in one of the refugee camps 
that's now controlled by the rebels formally, there have been 
terrible atrocities committed by the rebels against the people 
in the camps.
    We also believe that there needs to be one negotiating 
process. When I started, last year, there were six different 
tracks for negotiations between the rebels and the Sudanese 
Government. We said, ``That is not going to work.'' There has 
to be one route. And we've actually moved toward that, and that 
is what part of the Addis agreement was, to have just the 
United Nations and the African Union track. Our job was to 
support them, not to set up separate independent negotiations, 
which will be used as a mechanism for forum shopping by the 
rebels or even the government. We don't want that to happen. 
The only way this is going to be solved is a comprehensive 
settlement that is between two sides, with one negotiating 
position on each side, which we're encouraging the rebels to 
have.
    I might add, the southern agreement would never have taken 
place if there were 12 John Garangs. There was one John Garang 
leading the southern negotiations, and one northern government 
official, the Vice President, Ali Osman Taha, who negotiated 
the agreement. It would never have happened if there were 
multiple parties on each side, with different agendas and 
different positions.
    The current situation is very troubling to us, because of 
the government's loss of control, because of rebel attacks on 
aid agencies which are now increasing, of the 120 vehicles that 
were stolen by--from aid agencies--and, by the way, the U.S. 
Government has spent $2.4 billion keeping people alive over 
just the last 2 years. We are, by far, the largest 
international donor. I think 65 percent of all the food comes 
from the United States to feed people; 2\1/2\ million people 
are in over 200 displaced camps all over Darfur, and there are 
hundreds of NGOs and eight U.N. agencies that are at work, and 
they all have heavy funding from the United States--but 120 aid 
trucks were looted last year. The great bulk of those, 
actually, were from the rebels, and a few from the Janjaweed 
militias.
    We now have Arab-on-Arab violence. The principal people 
getting killed right now are one Arab tribe fighting with other 
Arab tribes. Since February 11, there has actually been no 
aerial bombardments, according to very credible sources on the 
ground. So, there's been 2 months of no aerial bombardments. 
Second, the principal deaths since the beginning of the year 
actually have been Arabs being killed by this Arab-on-Arab 
violence.
    There have been about 80,000 new IDPs, in January and 
February. That's slowed down in February and March. And right 
now we're seeing a relative lull in the fighting in Darfur. The 
fighting, however, has intensified to a dangerous degree in 
Chad, and that's where the bulk of the people getting killed 
are, at this point.
    I'd just like to make a quick point on the CPA, and that--
the Comprehensive Peace Agreement--it is not the case that the 
CPA is not being implemented. It is being implemented, parts of 
it. A billion dollars in oil revenues have been transferred 
from the north to the south. That's a significant change. There 
is no war in the south. There is no famine in the south. The 
economy's picking up. Roads are being built--a lot with U.S. 
Government support, I might add--and health clinics built and 
schools being built, teachers being trained. The economy is 
moving. However, the transformational provisions of the CPA, 
which John Garang insisted on being in there--elections, the 
sharing of revenue, not just with the south, but all of the 
provinces in the north, because many of the rural provinces in 
the north are getting no money from the oil revenues at all--
that is in the CPA. It's not just a transformation of the 
south. Those difficult provisions of transformation are not 
being implemented. They're the most dangerous, in terms of the 
stability of the central government in its own interests, and 
it seems those interests are under attack right now, because of 
the instability in Darfur. And so, they have been unwilling to 
implement those provisions. It is critically important that the 
CPA be implemented if we're going to have a model for a 
successful implementation of a peace agreement in Darfur.
    There is little progress on border demarcation. There's an 
impasse in Abyei. I've raised all these issues repeatedly with 
President Bashir, and told him if he wants to stabilize Darfur, 
he needs to implement the CPA with the south, because if the 
rebels see that the CPA is being implemented, I believe there's 
a greater likelihood they will return to the negotiating table.
    Our policy is in three areas. That is, to stabilize the 
humanitarian situation. While the death rates in the camps are 
well below emergency levels, we are nervous, because access by 
the NGOs has deteriorated because of the anarchy in the 
province now and the attacks on aid agencies which has led to a 
couple of them leaving. A very dangerous situation.
    Two, we are very nervous about the rainy season that's 
coming up. We have a lot of food--more than enough food in the 
capital cities--but the problem is getting it, without attacks 
on the convoys, into the camps before the rainy season starts, 
in 9 weeks.
    Second, our political solution is simply to get the rebels 
back to the negotiating table with the government. The 
government has not put preconditions, other than one--they want 
to use the DPA as a basis for further negotiations--with 
additional amendments, and they've told me they will be 
flexible on that. I talk to Jan Eliasson quite often; he's an 
old friend of mine. He's leading the negotiating teams. He has 
a plan in place for how we can proceed, in the next month, to 
move toward that.
    And, finally, we want the full three phases of the Bashir--
I'm sorry--the Kofi Annan and Ban Ki-moon plan that was agreed 
to and Addis implemented. As of today, the United Nations has 
announced, with the African Union, that the Sudanese Government 
has agreed, it appears, to the--what is called the ``heavy 
support package,'' phase 2, which they trashed in a letter to 
Ban Ki-moon, a month ago, when I was--they signed it when I was 
there--literally, when I was in the city, they signed it and 
sent it, but did not give us a copy.
    They appear to have reversed themselves on this. Now, I 
have to say ``appeared,'' because there's a long history of 
them signing things, announcing things in communiques, and then 
not doing them. So, what will be the proof of this is whether 
or not we're allowed to go ahead with the work we're going to 
do in building more camps to house more soldiers. The big 
impediment to phase 1 has been the absence of barracks, which 
are now constructing for the 190 troops who will be arriving. 
And then, there will be assistance that will be given by the 
international community for the construction for the additional 
3,000 people under phase 2.
    They have not agreed to phase 3, and there are two 
remaining issues on phase 3, called the ``hybrid force.'' One 
is U.N. command and control. I put U.N. command and control in 
the text of the Addis agreement. I insisted on it. I said, 
``That is the bottom line for the United States. If there's no 
United Nations in command and control, we do not support the 
agreement.''
    Two--and the Sudanese Government is resisting that; they 
don't want orders coming from--to these troops from New York 
directly--two, they do not want any troops from outside Africa. 
We believe--and I believe there are people in the United 
Nations who can confirm this--that there are not enough 
sufficiently trained peacekeeping troops in Africa to handle 
this, that we need troops from other peacekeeping countries 
outside Africa, which the Sudanese have been very resistant on.
    And there are a number of other smaller issues, but those 
are the two central issues, at this point.
    And let me just conclude by saying, we were about to impose 
plan B, at least this phase of it, and we did not want to 
announce them, frankly, when a congressional delegation was in 
Khartoum; we didn't think that was particularly good timing. 
And then, there's been a request made by Ban Ki-moon, the 
Secretary General of the United Nations to our Secretary of 
State, and to me. I met with him last Monday, and he repeated, 
``I need 2 weeks to 4 weeks to try to see if the current round 
of negotiations is going to work to get the paralysis that 
we're facing moving.'' As a courtesy to the Secretary General, 
we've agreed to that delay, but there is a finite limit to it, 
and if we continue to see stonewalling, then those measures are 
going to be implemented.
    It's up to the President. It's his decision to make. But I 
know where he is on this; he's as angry as all of us are on 
this, and wants action. But the Secretary General requested it. 
He did it publicly; it's not a secret. And we've agreed to wait 
a short time while we let the negotiations that he's 
undertaking now take their course.
    I'd be glad to answer questions, Mr. Chairman.
    [The prepared statement of Ambassador Natsios follows:]

Prepared Statement of Hon. Andrew S. Natsios, President's Special Envoy 
             to Sudan, Department of State, Washington, DC

    Thank you, Mr. Chairman and members of the committee. I appreciate 
the opportunity to be here with you today to discuss how the United 
States (U.S.), together with the United Nations (U.N.) and our 
international partners, is addressing the crisis in Darfur.
    A great deal has happened since I last gave testimony--some of it 
frustrating, some of it hopeful--but what has not changed is the 
administration's firm commitment to ending the violence and responding 
to the immeasurable suffering of the people of Darfur. The only U.S. 
interest in Darfur is a peaceful end to the crisis. Our goals are to 
provide life-saving humanitarian assistance to the millions of people 
who have been affected by violence; to promote a negotiated, political 
settlement to the conflict within the framework of the Darfur Peace 
Agreement; to support the deployment of a robust African Union (AU)/
U.N. hybrid international peacekeeping force; and to ensure the 
successful implementation of the Comprehensive Peace Agreement (CPA). 
We have no military or economic interests in Darfur and we oppose any 
effort by any group to separate Darfur from Sudan. While we have a 
relationship with the Sudanese Government on counterterrorism issues, 
this relationship has not prevented us from elevating humanitarian and 
human rights concerns to a preeminent position in our policy toward 
Sudan. As a country and as a government we are appalled by the 
atrocities that have occurred in Darfur including those in 2003 and 
2004 when some of the worst violence occurred, and the United States 
has made solving conflict in this region a priority.
    This is the third war in Darfur in just over 20 years, but it is by 
far the most destructive in terms of lives lost and people displaced. 
The current war is not a ``simple'' conflict between Arab and African 
tribes, but a much more complex dispute fueled by drought and 
desertification, disputes over land rights, competition between nomadic 
herders and farmers, and longstanding marginalization of Darfur by the 
Government in Khartoum. The Sudanese Government's disastrous decision 
to arm, direct, and pay Northern Arab tribes, now called the Janjaweed, 
as their proxies in the war against Darfur's rebels led to genocide and 
resulted in the deaths of hundreds of thousands of innocent civilians 
and the destruction of their villages and livelihoods.
    Since then, the security situation on the ground has continued to 
evolve and has become increasingly chaotic. The Government of Sudan 
(GOS) is using the same strategies against Darfur that Sadiq al-Mahdi 
first developed and used against the south in the 1980s. By 
manipulating preexisting tribal divisions, creating militias drawn from 
the youngest and most disenfranchised members of Arab tribes, forcing 
people from their homes, and separating them from their traditional 
leaders, the government has created a lawless environment where 
banditry and violence are on the increase as rebel groups and tribal 
structures fragment and begin to fight amongst themselves. We are now 
seeing more examples of Arab on Arab violence in Darfur, localized 
tribal conflicts, and looting, extortion, and hijacking by rebel 
groups. In January and February of this year, 80,000 people have been 
forced from their homes and into camps because of violence. In 
addition, regional political agendas are being played out in Darfur and 
violence and refugees are spilling across borders into Chad and the 
Central African Republic.
    Against this backdrop, however, there are some small signs of hope 
and progress. Credible reports from Darfur indicate that there has been 
a slow, steady decrease in civilian casualties since January 2007 and 
direct fighting between the Sudan Armed Forces (SAF) and nonsignatory 
rebel groups has virtually ceased in the past months. When I visited 
Sudan in October and again in December 2006, a broad range of GOS 
officials appeared to believe that they could solve their ``Darfur 
problem'' through military means. This policy has proven to be a 
disaster as government troops have taken a beating at the hands of 
rebels and as they have lost weapons and equipment to rebel forces. I 
have stressed to Khartoum and the rebels that a military solution is 
not possible, as have our allies. Several regional powers have also 
begun to play a positive role. Most notably, in late February 2007 
Libya brokered an agreement between Chad and Sudan to reduce hostility 
along their common border. Unfortunately, this appears to have 
unraveled in recent days and we note with great concern the recent 
attacks inside Chad against civilians in the villages of Tiero and 
Morena and escalating violence along the border. However, these types 
of constructive efforts are welcome and we encourage Libya and other 
regional powers to work closely with the United Nations and African 
Union on these initiatives.
    Perhaps most heartening, groups inside Darfur are beginning to push 
back against the terrible violence they have seen over the past 4 
years. The Nazir of the southern Rizegat, the leader of an Arab tribe 
in south Darfur, has remained neutral over the course of the conflict 
despite attempts to draw him in. In other parts of Darfur, there are 
indications that Arab and African tribes are trying to rebuild 
cooperation, with a few scattered reports of groups returning looted 
livestock to the original owners and beginning to meet and trade in 
traditional markets.
    We will continue to watch the security situation very closely. If 
the government and rebel groups continue to exercise restraint between 
now and the end of the rainy season, there will have been a full 20 
weeks of relative quiet, enough time to restart political negotiations. 
If, however, either side breaks the fragile calm that appears to be 
holding between government and rebel forces inside Darfur--directly or 
through their proxies--we will take this as a clear signal that the 
parties to the conflict are not serious about the peace process and 
will respond in the strongest possible terms.
    The current security environment has had an extremely negative 
impact on humanitarian operations in Darfur and eastern Chad. The U.S. 
Government's (USG) first and most urgent priority is to ensure the 
continued delivery of life-saving humanitarian assistance to the 2\1/2\ 
million internally displaced persons (IDPs) and refugees living in 
camps in Darfur and eastern Chad. While civilian deaths may have 
declined in recent months, people are still being forced from their 
homes and nearly 80,000 new IDPs have flowed into camps in January and 
February of this year. The United States has called upon all actors in 
Darfur--including the government, the Arab militias, the rebel 
signatories and the nonsignatories--to cease all interference in the 
delivery of humanitarian aid. Representatives from NGOs have told me 
that there are now so many rebel groups in Darfur, it has become 
virtually impossible to negotiate deals for safe passage of workers and 
supplies. The number of security incidents against humanitarian 
agencies has increased, with more than a dozen local Sudanese staff 
killed, one expatriate woman sexually assaulted, and approximately 120 
vehicles hijacked over the course of 2006. Much of this violence, 
particularly the theft of vehicles and supplies, has been perpetrated 
by rebels who seem more intent on stealing and looting than 
representing the people of Darfur. In my trips to the region I have met 
repeatedly with rebel leaders and have insisted that this type of 
activity cease immediately. While none of the rebels took 
responsibility for incidents, this message was clearly heard and we 
have seen a slight decrease in vehicle hijackings over the past few 
months, although the number remains unacceptably high.
    Relief efforts are also being slowed by bureaucratic obstacles and 
continual harassment by the Government of Sudan. Visas and travel 
permits are routinely delayed or denied and humanitarian goods languish 
in customs for months. This seriously undermines the ability of aid 
workers to deliver needed supplies and services to civilians in the 
camps. We have pressed the government continually on this point, 
stressing that they should facilitate--not block--the delivery of 
humanitarian relief. During my recent trip to Sudan in March, I met 
with President Bashir and insisted that his government lift burdensome 
bureaucratic restrictions on relief workers. He gave his verbal 
assurance that this would happen and U.S. pressure, together with that 
of other donors, led to a breakthrough agreement signed March 28 
between the Government of Sudan and United Nations that should 
significantly improve humanitarian access. If the agreement is 
implemented as written, it will signal the Sudanese Government's 
intention to improve the humanitarian environment for aid agencies.
    I should mention that despite difficult and dangerous conditions, 
humanitarian workers have done a remarkable job of providing life-
saving assistance to 2\1/2\ million IDPs and refugees in Darfur and 
eastern Chad. This is currently the largest humanitarian relief 
operation in the world and the United States is the single largest 
donor of humanitarian assistance. We have contributed more than $2.6 
billion in assistance to Sudan and eastern Chad in FY 2005 and FY 2006 
and have provided more than 72 percent of all humanitarian assistance 
to Sudan. USAID is sending 40,000 metric tons of food aid to Darfur 
every month and the United States provided 50 percent of the appeal by 
the U.N. World Food Program in 2006. In addition to food, the United 
States is providing shelter, water, sanitation, health, and hygiene 
programs for those in need. We are also working to protect vulnerable 
populations such as women and children by improving physical safety and 
providing immediate services to victims of violence. Given the 
extremely rugged conditions in Darfur, this assistance is saving lives 
every day and we need to recognize the tremendous work the humanitarian 
community is doing.
    The only way to achieve long-term progress in Darfur is to promote 
a political settlement among all the parties to the conflict within the 
framework of the Darfur Peace Agreement, and this is where we are now 
focusing our attention. We strongly support a leadership role for the 
United Nations and African Union and stand ready to support the 
important work of Special Envoys Jan Eliasson and Dr. Salim Ahmed 
Salim. We believe that the United Nations and the African Union can 
play a critical role in keeping the attention of the international 
community focused on a negotiated settlement and can help channel 
disparate initiatives into a coordinated peace process. This will help 
minimize duplication and confusion and will guard against ``forum 
shopping'' by parties to the conflict. Again, these are issues that I 
raised in my most recent visit to Sudan in March and I received 
expressions of support for negotiations--without preconditions--from 
the Government of Sudan, including President Bashir. It remains to be 
seen whether the GOS will make good on these statements, but there 
appears to be a growing consensus among key members of the ruling 
coalition that a peace agreement with nonsignatory rebel groups may be 
the only way out of the current crisis.
    As the central basis for negotiations, the United States supports 
the Darfur Peace Agreement (DPA) signed by the GOS and the faction of 
the Sudan Liberation Movement headed by Minni Minawi (SLM/MM) on May 5, 
2006. Despite some limitations, the DPA is a good agreement that 
outlines ways to address the root causes of the conflict, creates space 
for the delivery of humanitarian aid, and gives international forces a 
robust mandate to protect civilians and humanitarian workers. In 
further negotiations among nonsignatories and the GOS, we support 
adding amendments, annexes, or clarifications to the DPA. What we do 
not support is starting from scratch and spending another year 
negotiating a new agreement that will likely be worse for the rebel 
movements and the people of Darfur. We have made this point to all 
parties involved.
    We recognize, however, that implementation of the DPA has been slow 
and this has made rebel groups reluctant to join the political process. 
We have called repeatedly on the government to implement key portions 
of the agreement, including disarmament of Arab militias and 
empowerment of the Transitional Darfur Regional Authority. One of our 
most important tasks is to bolster the position of Minni Minawi, the 
sole rebel signatory to the DPA, in order to show that embracing peace 
yields dividends. He has been marginalized by the government on key 
decisions related to Darfur and the package of reintegration assistance 
promised to his troops under the DPA has materialized very slowly, if 
at all. Most recently, a violent and deadly March 24 attack by the GOS 
on a house run by SLM/MM in Khartoum and the fatal ambush of a senior 
commander in Darfur, only serves to raise questions about the 
seriousness of the GOS commitment to a negotiated peace. Nonsignatory 
factions might ask why they should sign the Darfur Peace Agreement if 
the GOS continues to brutalize parties to the agreement.
    The number of rebel groups now operating in Darfur also complicates 
a negotiated settlement. As I mentioned earlier, the GOS has played a 
major role in splintering opposition movements into factions and has 
attempted to buy off one group at a time rather than pursuing a broader 
peace through transparent negotiation with all parties. This tactic of 
divide and conquer creates inequality, dissatisfaction and mistrust 
among rebel factions, delaying or preventing the creation of a unified 
political position. Surrounding countries have also exacerbated 
divisions by providing support for rebel groups in pursuit of their own 
geopolitical agendas. As a result, we now confront a confusing array of 
rebel factions, the number of which fluctuates up to as many as 15 at 
any given time. Rebel leaders frequently appear more focused on their 
own ambitions than on the well-being of people in Darfur. No peace 
agreement would have been possible in southern Sudan had there been 
multiple rebel factions each with a different political agenda.
    In January I met with rebel leaders to gain their perspective and 
to deliver a strong message from the U.S. Government that they need to 
unify politically and support humanitarian operations. I stressed that 
while the people of the United States are appalled by the atrocities 
committed against the people of Darfur, the rebels should not translate 
that into support for their political movements, many of which are 
personality based and the goals of which are obscure. I have urged them 
to renounce the violent overthrow of the Government of Sudan, which 
some have been publicly advocating, and which is an impediment to peace 
negotiations. I urged them to be flexible and practical about their 
demands in any upcoming negotiations; they will not get everything they 
ask for.
    We have begun to see a number of good, new initiatives that feed 
into broader U.N. and AU efforts to negotiate a political settlement. 
One particularly promising initiative that the United States strongly 
supports is the process being led by First Vice President Salva Kiir, 
who is also the President of southern Sudan. With the blessing of 
Khartoum, Vice President Kiir has consulted with Darfur's tribal 
leaders, community groups, and nonsignatory rebel leaders in order to 
find a workable solution to the Darfur crisis. The Sudan People's 
Liberation Movement (SPLM) can play an important role in advising the 
Darfur nonsignatory groups since they have the experience and 
credibility that comes from successfully negotiating the Comprehensive 
Peace Agreement with Khartoum.
    Recently, international attention has focused on the need for an 
enhanced peacekeeping capacity in Darfur. The African Union 
peacekeepers have done, and continue to do, an admirable job under 
extremely difficult conditions, but a more robust force is needed. 
African Union troops have come under increasing attack, with the most 
recent incident resulting in the death of five Senegalese peacekeepers 
in Northern Darfur. Two Nigerian peacekeepers were killed earlier in 
March. Missions that were once carried out as a matter of course, for 
example, protection details for women leaving IDP and refugee camps in 
search of firewood, have now been halted and the threat of increased 
rapes and attacks is very real. The USG has provided over $350 million 
in support to the approximately 7,700 strong AMIS force since FY04. 
This includes construction and operation of 34 base camps, maintenance 
of vehicles and communications equipment, predeployment equipment and 
training, and strategic airlift. However, the AU has reached the limit 
of its capabilities, and a robust force with the command and control of 
the United Nations is desperately needed in order to function 
effectively and minimize the risk of atrocities in the future. The AU 
itself has called for a transition of the African Union Mission in 
Sudan (AMIS) to a United Nations operation.
    Transition of the current African Union Mission in Sudan to a more 
robust hybrid AU/UN peacekeeping operation remains a policy priority 
for the United States. U.N. Security Council Resolution (UNSCR) 1706 of 
31 August 2006 has a robust mandate, including the protection of 
civilians, and remains the touchstone for the U.S. position on 
peacekeeping in Darfur. In November 2006, the United Nations and 
African Union convened a high level meeting in Addis Ababa where key 
players, including the Government of Sudan and the five permanent 
members of the U.N. Security Council, agreed to a three-phase plan that 
would culminate in a hybrid AU/UN peacekeeping force of 20,000 troops 
and police under U.N. command and control.
    This plan was reconfirmed at an AU Peace and Security Council 
meeting in Abuja and by a U.N. Security Council Presidential Statement 
(PRST). Sudan has repeatedly told us over the past months that they 
agree to the Addis framework; and the PRST was done at their specific 
behest. However, in a March 6 letter that President Bashir sent to U.N. 
Secretary General Ban Ki-Moon, he essentially rejected the Addis 
Agreement's Phase II Heavy Support Package, effectively also scuttling 
the third phase or hybrid force. Furthermore, he stated: ``Command and 
control after provision of the support packages is the responsibility 
of the African Union, with the necessary support from the United 
Nations.'' U.N. command and control of the hybrid operation was agreed 
to by all parties in Addis, including Sudan, as an essential component 
of any force. This is not negotiable.
    We are very concerned with President Bashir's letter rejecting 
major portions of the heavy-support package. We are hopeful that an 
April 9 meeting in Addis Ababa signals that the GOS is willing to 
reconsider its position. We trust that the GOS will honor its 
commitments and move swiftly to implement all remaining phases of this 
agreement, including a vigorous joint AU/UN peacekeeping force under 
U.N. command and control. The U.S. Government strongly opposes any 
efforts by the Sudanese Government or others to renegotiate, once 
again, the agreement reached in Addis Ababa on November 16, 2006. The 
failure to implement the Addis framework is not acceptable and will 
soon be met, as we have long stated, with a more confrontational 
approach.
    I would like to add a word about international pressure on 
Khartoum. In January, I made a visit to China where I had positive 
meetings with several key officials, including State Councilor Tang 
Jiaxuan and Assistant Foreign Ministers Cui Tiankai and Zhai Jun. The 
Chinese have been largely supportive of our efforts to resolve the 
Darfur situation through peaceful means and have been publicly 
encouraging Khartoum to allow the AU/UN hybrid force as agreed to in 
Addis. We confirmed with them our position that our interests in Darfur 
are solely humanitarian and we have no economic or military interests 
behind our policies. We also made it clear that we are not pursuing 
regime change in Sudan unless the people vote for a new government in 
free and fair elections agreed to under the Comprehensive Peace 
Agreement framework. China's Ambassador to the U.N. Wang Guangya played 
a vital and constructive role in helping to broker the Addis 
compromise. During his recent visit to Khartoum, Chinese President Hu 
Jintao encouraged Bashir to show flexibility and allow the AU/UN hybrid 
force to be deployed. While we welcome and encourage China's efforts to 
apply diplomatic pressure on the Government of Sudan, we look to 
Beijing to join with the international community in applying more 
forceful measures, should Khartoum remain intransigent. China's 
substantial economic investment in Sudan gives it considerable 
potential leverage, and we have made clear to Beijing that the 
international community will expect China to be part of the solution.
    Similarly we are pleased with the emergence of broad international 
support for the humanitarian needs of people in Darfur. Many countries 
in Africa and around the world have echoed UNSCR 1706 and called 
publicly for Khartoum to admit U.N. peacekeepers and abandon its futile 
effort to impose a solution by force. During my October trip, I also 
made a stop in Egypt where I met with the Egyptian Foreign Minister 
Abul Gheit and Secretary General of the Arab League, Amr Moussa. Mr. 
Moussa and the Arab league have recently played a much more active role 
in urging the Sudanese Government to take a more constructive approach 
to the Darfur crisis.
    Despite all this, the regime in Khartoum continues to find the 
weapons it needs for conflict, to find markets for its products, and to 
find investors. So while I have conveyed a real appreciation here today 
for many international efforts to push Sudan in the right direction, I 
also want to be quite clear: The world needs to do more. Congress, 
individual activists, and the huge array of committed nongovernmental 
organizations can and should continue to shine a spotlight on 
Khartoum's enablers.
    While our primary topic today is Darfur, the crisis there must be 
seen in the context of our overall policy goals in Sudan; ensuring the 
implementation of the Comprehensive Peace Agreement and supporting the 
democratic transformation of Sudan through free and fair elections in 
2009. Unless there is progress on these two broader goals, there is 
little chance that we will be able to find a lasting solution to the 
crisis in Darfur. The international community needs to recognize the 
fact that southern Sudan is at a crossroads. The CPA has created a 
fragile peace between the north and the south after two decades of 
conflict during which more than 2.4 million people died and 4 million 
were displaced. However, over the next year, several important steps 
must be taken to ensure that the CPA succeeds. Armed militias still 
threaten the security of southern Sudan. These groups must be 
demobilized or integrated into the SAF or the SPLA, and the withdrawal 
of the Sudanese Armed Forces from all areas of the south must stay on 
schedule. The southern economy is finally growing, but north-south 
boundary disputes, including the lack of implementation of the Abyei 
Border Commission's decision, and a lack of transparency in oil 
contracts keep the south from getting its full share of oil revenues. 
The pilot census must proceed in order to lay the foundation for 
elections in 2009, and legislative reforms--including the election 
law--must be passed. Without international action to energize 
implementation of the CPA, the most likely outcome will be two Sudans, 
not John Garang's vision of a united ``New Sudan.''
    Should the CPA collapse it is likely that security issues will be 
the cause. At ceremonies to celebrate the CPA's second anniversary on 
January 9, Salva Kiir, the first Vice President of the Government of 
National Unity and the President of the Government of southern Sudan, 
accused the Sudan Armed Forces (SAF) of deliberately violating the 
security provisions in the CPA. South of Juba and along the border 
between northern and southern Sudan, other armed groups associated with 
the central government remain a serious and destabilizing problem in 
the south. In Malakal, a state capital on the Nile, such tension led to 
combat in early December 2006; only the aggressive and timely 
intervention of United Nations Mission in Sudan (UNMIS) troops 
prevented the violence from spreading. I visited Malakal just after the 
incident to show the support of the U.S. Government for the U.N.'s 
efforts to stabilize the situation.
    It is my belief that one of the most important efforts we are 
undertaking in southern Sudan is to support the transformation of the 
Sudan People's Liberation Army (SPLA) into a smaller, more professional 
military force. This will offset outside efforts to destabilize the 
GOSS through militias or other armed groups. The discipline and 
competence afforded by modern, professionally trained troops and 
officers will prove a stabilizing factor in southern Sudan. At the same 
time, the U.N., U.S., and other partners need to press forward with 
reform of the police and criminal justice sector so that local conflict 
does not escalate, thus requiring an SPLA response. Reform of the 
security sector in Sudan is proceeding, although more slowly than we 
would like. According to UNMIS, the U.N. Mission in southern Sudan, SAF 
redeployment from southern Sudan is verified at 68 percent but further 
progress is hindered by delays in other security-related requirements, 
such as the formation of units composed equally of SAF and SPLA troops 
known as Joint Integrated Units (JIUs). SPLA redeployment from the 
transitional areas along the north/south border is mostly complete but 
is being held up due to a delay in the formation of the Joint 
Integrated Units. CPA security provisions need to be implemented now or 
conflict is likely to erupt in several areas around oil-rich Abyei and 
near Juba. Joint Integrated Units have been assigned locations in the 
main towns but are without proper training or support. Contrary to the 
provisions of the CPA, companies in these battalions remain in separate 
units for both housing and training. The SPLA is gradually downsizing 
into a professional army, but still needs proper training, facilities 
and administration for the downsized force. The United States plans to 
financially and materially support this important process of providing 
strategic training and mentoring to the SPLA at key levels. This 
assistance will not include any weapons or weapons systems and is 
specifically provided for under the CPA.
    Economic issues divide the north and south. The Sudanese economy is 
growing at a rate of 12 percent per year. Their Gross Domestic Product 
will double in the next 6 years if current growth rates are maintained, 
after having already doubled over the last 5 years through a 
combination of growth and currency appreciation. Wealth is concentrated 
in greater Khartoum (in the Arab triangle between Dongola, El Obeid, 
and Kasala) while other regions of the country remain impoverished and 
neglected. Under the CPA, the Government of National Unity is required 
to begin making sizeable increases in the budgets and revenues in 2007 
to impoverished provinces throughout the country. These provinces have 
yet to see the benefits of oil revenues. The Parliament has approved 
these expanded provincial budgets, however the money has not yet been 
sent to the provinces by the Ministry of Finance.
    The United States is a major partner for aid, but not for trade. 
Unilateral economic sanctions are a central element in the U.S. 
economic policy toward Sudan. As a result, the United States has 
negligible trade with Sudan and minimal investment in the country. At 
the same time, Sudan has built stronger economic ties with China, India 
Malaysia, and Gulf Arab States and substantial trade continues with 
Japan and Europe. The Darfur Peace and Accountability Act (DPAA) and 
the President's Executive Order 13412 modified the U.S. comprehensive 
sanctions regime against Sudan under Executive Order 13067 by easing 
many restrictions with respect to the Government of southern Sudan, and 
certain other geographic areas, though Sudan, and specifically the 
Government of Sudan, is still subject to significant sanctions under 
U.S. law.
    On the surface, Sudan's political reform has moved forward. The 
National Congress Party (NCP) and the Sudan People's Liberation 
Movement (SPLM) formed the Government of National Unity (GNU), 
organized the Parliament and distributed positions at senior levels of 
government as they had agreed in the CPA (though civil service reform 
is still outstanding). The SPLM established the Government of southern 
Sudan in Juba, with a limited number of positions for its NCP partners, 
and likewise set up the 10 state governments in the south. The new 
government in Juba is still a weak institution in its infancy, 
especially in such areas as service delivery, financial management, and 
human resource development. In recent months, however, I am happy to 
note that President Salva Kiir has taken steps to confront the issue of 
corruption in his government. In the past weeks he took decisive action 
to counter corruption among GOSS officials with alleged involvement in 
mismanagement of resources, which we believe was a needed step in 
improving the management of the GOSS.
    Below the surface, there has been little political transformation. 
Whether in Khartoum or in Juba, military officers are in charge. The 
NCP uses the instruments of state power, particularly the security 
services, to limit the scope for opposition parties and to manipulate 
the public agenda. It would be seriously challenged in a genuinely free 
and fair election. The SPLM, which has broad popular support in 
southern Sudan, has made impressive first steps to establish itself in 
the north but has never faced elections itself.
    There remains a major risk that elections will not be held on time. 
The CPA specifies that before elections, a census will be conducted 
throughout Sudan, but arrangements for the census are falling behind 
schedule. If the elections are to be held as scheduled, the census must 
be expedited.
    Despite these serious shortcomings, there has been some progress 
under the CPA. Peace is holding in the south for the first time in 24 
years. The GOS has transferred over $1 billion in oil revenues to the 
new GOSS. Designed by both the north and the south, the new Sudanese 
pound has been introduced as the new common currency. A new government 
has been created in the south, commerce is thriving, the economy is 
growing, displaced people are returning to their ancestral homes and 
farms, and 75 percent of the 40,000 militias (most created by the GOS 
during the war) have been demobilized or merged into either the 
northern or southern armies. There is no famine in southern Sudan. We 
should not underestimate these achievements or the benefits of peace 
and increased economic growth for the average southern family. These 
are not insignificant achievements, but these achievements are fragile 
and at risk because of a failure to carry out all of the provisions of 
the CPA.
    Overall, the situation has more cause for alarm than for 
reassurance. U.S. policy intended the CPA to be a turning point for 
Sudan's transformation from an authoritarian state to a more just and 
democratic state that can be a partner for stability and security in a 
dangerous part of the world. Sudan is now at the halfway mark between 
signature of the peace accord and its first major turning point, 
national elections. The Assessment and Evaluation Commission (AEC), set 
up to monitor CPA implementation, has only a muffled voice because both 
the NCP and SPLM must agree to any of its decisions. The ruling 
National Congress Party, which has been alarmed by this trend, has done 
little to create the atmosphere for southerners to want to remain in 
Sudan: The continuing conflict in Darfur and the tactics used by the 
central government there only confirm southern fears that nothing has 
really changed in Khartoum. The CPA needs renewed, high-level 
international political attention. Along these lines, the United States 
strongly supports the proposal being considered for an East African 
summit through the regional Inter-Governmental Authority on Development 
(IGAD) to reassemble the heads of state in the region involved in 
supporting the initial CPA agreement, to review progress to date and 
define steps needed to accelerate implementation.
    These are our objectives: To provide life-saving humanitarian 
assistance to the millions of people who have been displaced from their 
homes and affected by violence in Darfur; to promote a negotiated, 
political settlement to the conflict that is agreed to by all parties 
within the framework of the Darfur Peace Agreement; to support the 
deployment of an AU/UN hybrid international peacekeeping force to 
protect civilians and ensure continued humanitarian access; and to 
ensure the successful implementation of the CPA. However, if we find 
the Sudanese Government is obstructing progress on these objectives, 
the United States Government will change its policy and will pursue 
more coercive measures. The burden is on the Sudanese Government to 
show the world that it can meet and implement the commitments it has 
already made.

    The Chairman. Thank you, Mr. Ambassador.
    I now understand why you have not begun to implement plan 
B. But what are some of the specific coercive steps in plan B?
    Ambassador Natsios. There are three--and, I might add, plan 
B is a series of things that will be phased, over time, 
depending on how things go. If we see a deterioration of the 
Sudanese Government's attitude and cooperation on phase 1 and 
phase 2, which they've clearly agreed to, then there are going 
to be other measures. But the measures now that are before the 
President are, No. 1, personal sanctions against one rebel 
leader who's an obstructionist. I mean, the perception is: All 
the rebel leaders are John Adams and Abraham Lincoln and George 
Washington. They are not. Some of them are very able people. 
I've known them for many years. But some of them are dangerous 
extremists. And one of them has been obstructing any peace 
deal, and he is on the list. Two war criminals, people who we 
think have committed terrible atrocities, are on that list. And 
there will be travel bans, there will be bans on--or the 
confiscation of bank accounts and other measures against 
individuals. Is it going to have a big effect? You know, are 
they traveling widely in the United States? No; they're not. 
But it--they do not like being on this list, I have to tell 
you. People are very worried in Khartoum as to who the other 
two people are in the Sudanese Government. Everybody keeps 
asking us, which, of course, we're not telling anyone. That's 
the President's decision--the announcement.
    The second provision of this round of sanctions, should the 
President decide to go ahead with this, is--are 29 companies 
that are, in fact, owned by the Sudanese Government, that are 
very large companies, very powerful companies, through which a 
lot of money moves, particularly oil revenues. And many of them 
do their transactions in dollars, and we believe that, under 
the new enforcement mechanisms, which is part 3 of this, these 
sanctioned companies, in fact, will have some of their 
operations paralyzed.
    Under the third part of this are new enforcement mechanisms 
to implement the sanctions that the President put in place 2 
years ago, and then new sanctions he put in place under the 
Darfur Peace and Accountability Act that the Congress passed, 
that were put in place--I remember, distinctly, the date, 
because it was in October, because the executive order was 
signed the day I arrived in Khartoum, which is one reason the 
Sudanese--because they were so furious, they would not let me 
see President Bashir.
    And so, we have new mechanisms that we've developed since
9/11 that were not available in the 1990s, or even in the 
earlier period. This is just in the last 2 years, these new 
mechanisms have been put in place. They are the mechanisms, 
Senator, that are being used in Iran and North Korea, and we're 
going to employ those mechanisms to do a much more aggressive 
enforcement mechanism for existing sanctions plus the 29 new 
companies that we would add, should the President decide to go 
ahead with this.
    The Chairman. Give us some sense of what the impact of 
sanctioning these 29 companies would have on the overall 
economy.
    Ambassador Natsios. Well, it is the 29 plus the existing 
130 that are already on the list. We're just adding--we're 
going to keep adding more and more companies, is what we're 
going to do. And this phase--we have 29--you have to go through 
a long, apparently, legal process. It's the Treasury Department 
that does this. The head of OFAC, I meet with constantly; 
we're--he spends a huge amount of time on this to make sure 
that all of the legal hurdles required under Federal statute 
are followed, so we don't have lawsuits on our hands and that 
we effectively can enforce these.
    We believe it will have an effect on the economy, a 
substantial effect, be--and the reason we know is because it's 
having an effect on the Iranian and North Korean economy. I 
would not be as enthusiastic about this--these measures, having 
had experience with sanctions before, except for the fact that 
we know what it's doing in these two other countries; it's 
having a real impact.
    Finally, I would add that all oil transactions--and there 
are a number of oil companies that are state-owned by the 
Sudanese Government, and state-run--all those transactions are 
in dollars, even though we don't buy the oil and the oil has 
nothing to do with American companies. The current practice is: 
All international oil transactions, regardless of which country 
or which company, are in dollars. And so, they have to go 
through American banks in order to take place. And so, that's 
one of the mechanisms that will be put in place that does not 
exist, at this point.
    The Chairman. What impact would that have on the oil trade 
that the Sudanese engage in, for example, with the Chinese?
    Ambassador Natsios. I don't want to go in, in a public 
session, to the details of which companies are on that list, or 
which one. One, it's the President's--I don't want to get into 
White House prerogatives on announcing which companies are on 
the list and which companies are not.
    I think, Senator, the largest, most powerful effect here is 
not on individual companies, it's on the enforcement 
mechanisms, which are new; because we didn't have these 
enforcement mechanisms in place. In fact, we're the only 
country in the world that has such a powerful enforcement 
mechanism, through the Federal Reserve Bank, to actually 
enforce these sanctions. And that is something that's, as I 
said before, relatively new.
    The Chairman. The Secretary General has asked you to hold 
off, but do you support a new Darfur Security Council 
resolution?
    Ambassador Natsios. He asked the British, who were the 
primary sponsors of that resolution, to hold off, as well, for 
2 to 4 weeks, for the same reason.
    The Chairman. My question----
    Ambassador Natsios. And we have been working with them on 
it, yes. We support a resolution. I don't know the current 
state--I'd have to ask Kristen Silverberg--about the drafting 
of a resolution. But they asked also for that. That's been 
public comment by Ban Ki-moon, to ask the British to hold off 
on that temporarily.
    The Chairman. What is the administration's assessment of 
the utility, the efficacy, of imposing a no-fly zone?
    Ambassador Natsios. Senator, I recognize there's been a lot 
of discussion about this. I have made an offer to the committee 
to come brief you in a classified session. All military options 
are on the table for discussion within the executive branch. 
And I'm happy to tell you the state of that, in a classified 
session, and let me tell you why.
    There are 2\1/2\ million people in those camps, in 13---the 
displaced camps in Darfur--and there are 13,000 relief workers, 
working for U.N. agencies and NGOs. They are extremely 
vulnerable. Every comment I make--literally every comment--is 
in the Darfur newspapers, not just the Khartoum newspapers--in 
Darfur. They have TV stations. They broadcast everything we 
say. It's one thing for someone from the legislative branch to 
make comments. When I make comments specifically about any kind 
of military activity, it has a profound effect. And I have to 
be very careful that it does not cause a reaction that could 
put people's lives in danger on the ground. When other people 
make the comments, that's a different matter, but when someone 
from the executive branch does it, it causes very severe 
reactions in the field. So, I have been asked repeatedly in the 
field by my friends in the international community to be very 
careful what I say. I'm happy to brief you and your committee 
privately on this----
    The Chairman. Well, we'll set a----
    Ambassador Natsios [continuing]. In a classified session.
    The Chairman. We'll set a time up for that.
    My time is up. Is the Senator coming back? I guess not.
    Governor, you're up.
    Senator Voinovich. About a month ago, I had an opportunity 
to meet with United Nations Secretary General Ban Ki-moon and 
talk with him at length about Darfur. He claims that the 
situation there is on his mind early in the morning and late at 
night. I would like your assessment of his commitment to taking 
action to resolve the problems in Darfur and his determination 
to implement Resolution 1706. You have mentioned that he has 
discouraged adopting a new U.N. Security Council resolution on 
Darfur. I would like your honest appraisal of his commitment to 
action and how much support he may or may not be getting from 
other members of the United Nations.
    Ambassador Natsios. Let me first say that I spent an hour 
with him last Monday, and I was very impressed by his 
commitment. And the evidence is, from, just, people I know in 
the U.N. system, that he is seized with this issue. And he told 
me this is his No. 1 priority. He has spent a lot of time on 
it. His staff is spending a lot of time on it. I met all of the 
Under Secretaries General who are dealing with this, at length 
last Monday, separately, and it was clear that he had given 
them very, very aggressive instructions as to what was to 
happen. I think we need to give him a chance.
    I should tell you----
    Senator Voinovich. May I ask you, What does that mean----
    Ambassador Natsios. That means that----
    Senator Voinovich [continuing]. ``A chance''?
    Ambassador Natsios [continuing]. If he asked for a 2- to 4-
week delay, that we need to respect that. That's what he asked 
for, specifically, publicly.
    Second, let me just say that there's been a lot of 
speculation of the role of other countries in the negotiations 
on Darfur. I believe that the Chinese have already played--I 
know the Chinese have already played a constructive role. 
Ambassador Wong, who's become a friend, who is the Perm Rep for 
the Chinese Government in New York, in fact, came, at Kofi 
Annan's request, to the Addis Conference, in November--November 
16. And we worked together on the language. And the Chinese are 
committed to what we agreed to November 16. And they now are 
saying something they seldom do. The Chinese do not conduct 
diplomacy the way we do; they do it very quietly. But they're 
now making public statements, telling the Sudanese they must 
be, No. 1, flexible, and, No. 2, they must accept and implement 
the agreement that was reached, as it was reached November 16. 
In fact, their special envoy for Darfur just returned to 
Beijing, and he repeated this. We have indications, at this 
point, that the Chinese are now taking even a more aggressive 
role than they have in the past. So, I actually think we need 
to encourage Chinese involvement in this. I think they may be 
the crucial actors. I think there's been a lot of China-bashing 
in the West, and I'm not sure, to be very frank with you, right 
now it's very helpful. I think the Chinese actually may be the 
critical factor that led to the Sudanese reversing their 
position in Addis, 2 days ago, on the second phase of the 
``heavy support package'' of the Kofi Annan plan. We have 
evidence that they put very heavy pressure on them.
    So, I don't want to violate confidences, Senator, publicly, 
but I believe, actually, other members of the Security Council 
are working on this. We talk constantly, every week, with the 
Chinese--at the Presidential level, at the--Deputy Secretary 
Negroponte just spoke to the Deputy Secretary of the Chinese 
Foreign Ministry, I think yesterday or day before yesterday. I 
met with Ambassador Wong last week in New York. I've met with 
the Chinese Ambassador to the United States, and I think we've 
had very good conversations of that. So, I think Ban Ki-moon 
has the support of member states. I even think, now, many of 
the Arab States are fed up with the way in which the Sudanese 
Government is conducting itself, and they are beginning to put 
pressure on--in their own way, quietly, on the Sudanese 
Government to resolve this.
    Senator Voinovich. Well, it's comforting to know that U.N. 
members are substantively working on progress in Darfur, 
because there are so many of us that have wondered just how 
conscientious the United Nations really was about this issue. 
And it's comforting to know that the Chinese, who have always 
been held out as the obstructionists, now seem to be onboard to 
use their influence to be successful there.
    When you met with the Secretary General, did he raise the 
issue about the peacekeeping funds in the budget? We're asking 
the United Nations to do all kinds of things in the area of 
peacekeeping, but the fact of the matter is that the budget 
that we have provided, Mr. Chairman, is inadequate. We are not 
providing the money that we need for peacekeeping, our dues and 
our arrears. And this organization, which is really carrying a 
lot of water for the United States in so many areas, needs the 
support of this administration and of Congress. And I wonder if 
he raised that issue with you.
    Ambassador Natsios. He did not raise it with me, Senator, 
but, let me just mention, in the supplemental budget that is 
before you--I know other issues are sort of clouding this, or 
are pushing this aside, but in that budget that you have 
before--there's quite a lot of money for Sudan. And there's 
$150 million in that budget request, the supplemental, for the 
AMIS force, supporting the AMIS force in Darfur. And there's 
$99.8 million for the international peacekeeping activities for 
the United Nations under that. So, there's about $250 million--
I'm sorry--the $100 million--the $99 million is in the 2008 
request.
    We have a lot more money in the account for peacekeeping 
operations, but we have to get agreement, first, to transfer 
the cost of this operation in Darfur, which is one of the 
critical issues--we do not want to come--keep coming back to 
Congress for special appropriations; it doesn't work, and it's 
not working for the European Union either--we want the United 
Nations to fund this under the regular appropriation so we can 
go through a normalized process to do this. In order to do 
that, we have to have U.N. command and control.
    So, U.N. command and control is not just a matter of 
military operations, it's a matter of--the member states are 
not going to agree to have the United Nations fund this unless 
they have control over the operation. I've told that repeatedly 
to President Bashir and to his ministers. It's not just a 
function of United States wanting the United Nations to be in 
control, it's a function of member states not willing to vote 
for a resolution that would allow this to be funded by the 
United Nations.
    Right now, phase 1 and phase 2 of the ``light support 
package'' and the ``heavy support package'' under the Addis 
agreement of November 16 can be funded out of existing funds 
and the funds we have in the supplemental appropriations. So, 
we're taking care of it, in terms of that.
    We will have discussions with the Congress, later on, 
should there be a transfer of this funding from the episodic 
funding to regular U.N. appropriations. Right now, we've put in 
the current state of affairs--what's in the budget will support 
the current state of affairs, and what we believe--the startup 
money needed to fund the U.N. operation.
    The Chairman. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Sir, I want to thank you for your testimony and, obviously, 
for your service.
    I wanted to ask you, in particular, about legislation which 
you may have already spoken to this morning, and I apologize 
for coming in when I did. But we have--among many things that 
are being proposed here on Capitol Hill and in the Senate, 
there's legislation, introduced by Senator Durbin, Senate bill 
S. 831, the Sudan Disinvestment Authorization Act of this year; 
of 2007. I wanted to get your perspective on that, and also to 
ask you, in particular, about the administration, whether or 
not the administration has taken a formal position on that 
legislation.
    Ambassador Natsios. Senator, I'm aware of many different 
pieces of legislation on this issue, and I--prior to my taking 
this job, when I was a--I'm still a professor at Georgetown; 
this is--I have another job; I have my students--I stated my 
position on this issue. But I am a member of the 
administration, I suppose the administration's position--I 
don't know if it's been made public--but there is a great deal 
of concern about this legislation in the administration. I do 
not think the administration supports the notion of 
divestiture, and there are several reasons for it.
    My concern about it, personally, is, from our past 
experience with divestiture legislation it would take a couple 
of years before it had an effect, and we don't have a couple of 
years. Divestiture legislation is not going to have an affect 
on the Sudanese economy in the next year, even if it passed 
immediately, was immediately enforced. It will take a while. We 
don't have a while.
    No. 2, I remember, when I was a State legislator in 
Massachusetts, 22 years ago, I voted for sanctions on South 
Africa to purge the State pension fund of any investments of 
companies in South Africa. And I remember that. What people 
don't realize is, many States still have statutes on the books 
from 20 years ago; they never rescinded them. So, there is a 
reluctance in the administration to support legislation that 
would have the States--and there's been, by the way, a Supreme 
Court ruling that actually had my name on it, at one point, 
because I was the chief operating officer for State government; 
I was being sued by the Board of Trade. And, when I was the 
secretary of administration in Boston, I had a staff in Boston 
on this issue, so I'm very familiar with it, in the legal 
sense, since I was being sued as a representative of the 
Commonwealth of Massachusetts.
    There is now a Supreme Court ruling that has three 
conditions for any State or municipality to do divestiture. And 
it's a harsh standard. And I think one statute in Illinois has 
already been ruled unconstitutional. There is a reluctance to 
support this, because the fear is to have each State and 
municipality conducting their own foreign policy could create 
chaotic conditions. And once the legislation--or the crisis is 
over, and we want to change the sanctions, some States may not 
do it. That's still the case. There are still sanctions against 
South Africa in some State pension funds because of something 
that happened 20 years ago that is no longer the case. That's 
the reason there is concern about the legislation.
    Senator Casey. Well, do you see it as an either/or, or do 
you think there's a middle ground? I mean, I support this 
legislation, but let's talk academically for a second. Don't 
you think we should create some pressure on companies who are 
making investment decisions, or decisions about capital? Isn't 
there a way to balance that against the concerns that you 
raise?
    Ambassador Natsios. There is already a lot of pressure. In 
fact, many companies in Europe, where there are no sanctions, 
have announced they're not going to do any more investments in 
Darfur--or in Sudan, because of what's happened. And I, 
frankly, think that's because of political realities, people 
are getting so upset over what's happening. So, there already 
is that kind of pressure.
    The sanctions regimes that we are considering now, and the 
President has before him, in fact, I think, would have a much 
more immediate impact than divestiture legislation, because 
there's a way of enforcing them very quickly. The problem with 
this--it has a symbolic value, the divestiture legislation, but 
it is actually not going to have a real effect on the Sudanese. 
It would take 2 to 3 years, in my view, based on past 
experience, for it to have any kind of real experience.
    Senator Casey. The last question I have is in connection 
with the approach we take. There are obviously a lot of 
proposals about a multipronged deployment of peacekeeping 
troops and using all kinds of other pressure, in addition to 
any kind of use of force, but what's your sense of the right 
balance of that, in terms of a hybrid approach? And how do you 
think the administration views this? Because when you talk to 
people--and I think this is a sentiment we all feel; it's not 
just people who are outside of Washington, it's all of us--all 
of us want to do something, and people are getting----
    Ambassador Natsios. Frustrated.
    Senator Casey [continuing]. Frustrated, because they don't 
get a sense that there's any movement, that there's any 
progress, that there's any consensus. And I guess it's also a 
frustration because we feel--and I think--I don't think it's 
any one party or institution to blame, but there's a sense that 
there's--we try--we talk about things--this Government talks 
about strategies, we talk about approaches, and they receive 
attention for a couple of days--and I'm really honored to be 
part of this hearing that Senator Biden called--but that 
there's no sustained effort to do something that has real 
impact. Just from your own experience----
    Ambassador Natsios. Well, Senator, I think a lot of things 
we do, we're not going to put in the newspaper. In fact, I 
actually had a ban on talking to the press. I haven't taken any 
reporters with me on my trips. When I went to Chad, I had a 
press conference for a Chadian newspaper. I went to Libya, a 
month ago--I didn't have any conversations publicly about what 
those discussions were, because, frankly, I would not be--
people won't talk to me if they think I'm going to talk to the 
press. So, a lot of the things we do, we cannot discuss 
publicly, or my ability, as a diplomat, to influence other 
countries is going to be diminished. The Chinese were not happy 
that I had a press conference in Beijing before I left China, 
in January. I told them I had to say something. I didn't talk 
about what they said. I just discussed what our position was.
    And so, I'm balancing the need for some confidentiality in 
these conversations with your need to know what we're doing. 
You have a right to know. I'm frustrated. I mean, I have a lot 
of friends in Sudan. I've been going to Sudan for 18 years, 
Senator, and I have to tell you, I've seen an awful lot of 
suffering. I've seen famines go on. I've been in charge of 
trying to save people's lives, not just in the south, but in 
Darfur. Two and a half million people died in the war between 
the north and the south. Two and a half million. Almost all of 
them southerners. I went through famines where there are mass 
graves. So, I know what people are going through. I've seen the 
horror of it. And I know what happened in Darfur. I was in 
Darfur in October 2003, when these atrocities really started in 
earnest, and I think I was one of the first Westerners to have 
a press conference in Nairobi and explain that it appears a new 
civil war is starting. I mean, it's in a couple of books that I 
had this press conference. It wasn't widely reported. So, I am 
deeply concerned about this.
    We do have a comprehensive plan. We're pursuing the plan. 
We've been having meetings with the Europeans on what we are 
doing to enforce these sanctions. Chancellor Merkel said 
something quite remarkable 2 weeks ago, publicly, and so did 
the German Defense Minister. And, of course, the Germans are 
now in the Presidency of the European Union. Both of them said, 
so I don't think it was a mistake or a misunderstanding or 
mistranslation; they both said, ``We may have to impose 
sanctions--European sanctions--against Sudan.'' And Chancellor 
Merkel said something very unusual. And the Europeans are 
always saying we need a Security Council resolution. She said, 
``Even if we have no Security Council resolution, the Europeans 
may impose bilateral sanctions on Sudan.'' That is quite 
significant. We have been in discussion with them. I met Dr. 
Solana, the equivalent of Secretary Rice in the European Union, 
in December; his views on what needed to be done were the same 
as our views. And he has been taking leadership there, quietly. 
We've been meeting regularly with European diplomats. There 
have been working-level meetings in Washington on how sanctions 
work, in the American context, how these enforcement 
mechanisms--how powerful they are. So, we've been doing a lot 
of work very quietly to set the stage for this. And I think 
we've made a lot of progress.
    There is a plan. We're implementing the plan. We can't 
always make all of it public, because it makes it much harder 
to get people to talk to us, then.
    Senator Casey. Thank you for your work.
    Ambassador Natsios. There is something you can do. The 
sanctions that exist in law that allow us to do what is on the 
President's desk have very weak civil penalties for 
corporations that violate them. If we could get legislation 
through Congress to dramatically increase the level of those 
financial penalties, it would be very helpful to the Treasury 
Department, and it would be very powerful, in terms of sending 
a message to countries that were--or companies that were 
considering trying to get around the sanctions. So, if we could 
work with you on that, that is something we would agree, not 
only--enthusiastically agree to.
    Senator Casey. Thank you, sir.
    The Chairman. Mr. Chairman. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I think that Senator Casey expresses, probably, the feeling 
each one of us have as we visit with our constituents, who are 
seized with this issue in the same way that we are, and want to 
know what they can do, as groups, as church groups or civil 
groups in our society. And you've been a very good interpreter, 
for many months, given your own trips. So, I appreciate, 
especially, your testimony, because it's founded, really, upon 
being there.
    Let me just ask you to trace potential solutions. If, 
finally, things began to move, physically what would happen to 
those who are now being persecuted or who are in the camps and 
in danger of being persecuted by the Janjaweed, or whoever else 
might attack them? Would you also try to describe the scene as 
to so-called rebels who are in the territory who have a more 
civil governmental function namely, upsetting the government 
itself--perhaps leaving aside the agriculture people who have 
lost their animals, lost their lands. Can you give some 
scenario or sort of business plan of how life might become, 
potentially, normal for each of these groups? Who would need to 
do what?
    Ambassador Natsios. Let me--actually, I think, Senator, 
that is ``the'' question. We talk a lot in vague, abstract 
terms about this. The reality is, there are 2\1/2\ million 
people in those camps who cannot support themselves. That's why 
we're spending $2.3 billion, along with the Europeans and the 
Canadians and the Japanese, to support those people in those 
camps. They need to go back to their villages. They need to get 
their land back and their animals back.
    I would estimate, myself, that 2 to 3 million animals were 
looted from the farmers. People talk about the farmers versus 
the herders. Most of the farmers had small herds of animals. 
They didn't--they weren't--they were not nomadic. But the 
investment account for these farmers is the animal herds that 
keep them alive during a drought, for example. And we need to 
recreate their livelihoods through a reconstruction program.
    One of the things I've told the Arabs in Darfur, through 
press conferences and meeting--I've met with some of them--is, 
if we do a reconstruction program, it's going to be for 
everybody. It can't be just for the people in the camps, 
because, if it is, we will never have peace. We'll never have 
peace. We can't argue that all of the Arabs are committing all 
of this violence, because that is not true. And we, in some 
ways, have villainized the Arabs in a way that's not very 
helpful. I have told them, if they sign a peace agreement, 
there will be projects for the herders, as well as for the 
farmers, that will restore livelihoods and bring the economy 
back.
    They actually have a symbiotic relationship. When the thing 
was functioning--the economy was functioning--you know, the 
herders don't eat their animals, most of the time; they sell 
their animals and buy grown food from the farmers in the 
markets. And so, the two--that whole symbiotic relationship's 
been destroyed by this war. If we do not deal with the property 
issues in a peace agreement, we're not going to have peace.
    I think the way this would play out, just in terms of 
sequencing, is, hopefully, in the near future, Jan Eliasson and 
Salim Salim will get the rebels to consolidate--not 
completely--behind one leader. We're not going to have a John 
Garang. Don't expect a John Garang. There isn't one for Darfur. 
But if we consolidate those 15 movements into three or four 
movements, and one negotiating position, the government will 
sit down with them, and they will begin to negotiate amendments 
to the Darfur Peace Agreement.
    The rebels have told me they just--they want several issues 
that have to be dealt with. One is compensation for the damage 
done to their livelihoods. The amount in the DPA is $30 
million. They said it was an insult. The Sudanese have told me 
they're willing to substantially increase that. They've used 
very high figures. I think they're serious about that.
    Two, there has to be a disarmament of both the rebels and 
the Janjaweed and all the militias, the border patrol, all of 
the public defense force. There are too many people with heavy 
weapons. The place is awash in weapons. And unless they are 
confiscated, we're not going to have an end to the war.
    I would add, the only institution in the world that has 
significant experience in demobilizing rebel forces and 
government forces in a war is the United Nations. I watched 
them do a lousy job at this, 18 years ago in Somalia; they are 
doing excellent jobs now in many countries all over the world. 
They've developed expertise, which is critically important 
here. I told President Bashir, ``The rebels are never going to 
give their heavy weapons to you or your army under any peace 
agreement. I don't care what's written in it. They don't trust 
you. They're not going to give you the weapons.'' They told me, 
``If the United Nations comes in, and the U.N. troops, we will 
surrender our weapons to them if the Janjaweed do.'' So, we 
need the United Nations there, not just for peace and stability 
now; to enforce a peace agreement, or there's not going to be 
an end to this violence, because if those weapons are not 
confiscated, Senator, people are not going to go back to their 
villages. People in the camps have told me, ``We're not going 
back until we feel safe.'' And that means disarmament.
    Once they go back, then we will start the reconstruction 
program, which will involve livelihoods, agriculture programs, 
nomad programs, and, I might add, health and education 
programs. These--I was in Darfur 17 years ago. There's no 
difference in Darfur now, versus 17 years ago, except that one 
of the roads was paved in the capital city, the governor's 
mansion was rebuilt, the governor's offices were rebuilt, and 
the airport was rebuilt. There are no more health clinics, no 
more agriculture programs, no more water projects. And people 
in the rural areas are saying, ``Where is all this oil revenue 
going? It's not going to us.'' And that's a legitimate 
question.
    Senator Lugar. How will the oil revenue figure into this? 
Is this a part of the agreement, in broad terms, that comes 
with peace, that the government makes a commitment of this 
sort? What sort of commitment would we need to make?
    Ambassador Natsios. There is a commitment in the DPA now. I 
believe--I don't remember the exact sequencing, but in 1 year 
it's $200 million for reconstruction, in the next year it's 
$300 million, that would go to Darfur from oil revenues from 
the central government.
    Now, there's another interesting provision of the CPA, the 
Comprehensive--between the north and the south--it says in it--
and it's being--hopefully, going to be in force this year; 
we're waiting to see if the actual action is taken by the 
Sudanese Government--to take oil revenues and increase the 
provincial budgets of all the provinces. Most of the oil 
revenues are spent in Khartoum now. They never see it in the 
provinces. The provinces, there's a--all of them are as 
impoverished in the north as the south.
    Under the CPA, this year, this calendar year, they are 
supposed to dramatically increase the revenues going to the 
provinces. The Parliament has--Sudanese Parliament--has 
approved a new budget with dramatically increased spending. The 
problem is, the Ministry of Finance has not yet disbursed that 
money. We're waiting to have it disbursed. I put it in my 
written testimony. We're watching that. If they disburse it, it 
will be a sign to me that they're serious about sharing oil 
revenues with the periphery of the country that has been 
discriminated against for decades in Sudan.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Webb--we understand you have another 
engagement. They've been kind enough to suggest that I yield to 
you.
    Senator Webb. Thank you very much, Mr. Chairman. I 
appreciate that. And I also appreciate the fact that my 
colleagues would allow me to speak, at this time.
    Mr. Ambassador, first I would like to thank you for the 
years that you've put into this issue. I have done a few of 
these in East Asia, pretty much in the same way, and I know how 
vital it is to really give it a comprehensive look at what's 
going on. I first started going back to Vietnam in 1991, when 
it was pretty much still a Stalinist state, and it's really 
valuable, when you're looking at issues of the moment, to, sort 
of, understand how this thing has played out on the ground. And 
I would, again, express my appreciation to you for having spent 
so much of your life on this particular issue.
    I also would like to say that I would agree with you on 
your comment about sanctions. We can look pretty clearly, I 
think, at Iran right now, the evidence that has come out, even 
with the limited sanctions that were put on Iran the first time 
around, to see that they're having to make some very hard 
decisions about whether they want to be isolated from their own 
people, on the one hand, and also from the international 
community. And there are areas where sanctions are valuable and 
can work.
    I wanted to get your--a little bit more of your thoughts on 
the situation with China. You may know, I have written and 
spoken for more than 20 years about what I saw, even back in 
the late 1980s, as China's conscious strategic axis with the 
Muslim world. And we can see it particularly in South Asia, to 
a certain extent in the Middle East, and you can see it, to an 
extent, also in Africa. Chinese investment in Africa, just over 
the past 5 years, has quadrupled. And a big part of that is in 
Sudan. On the one hand, we have--from your testimony, you were 
saying that we look to Beijing to join with the international 
community in applying more forceful measures, should Khartoum 
become intransigent, and then, on the other, your comments 
orally today, which I think have a validity, that the Chinese 
are playing a constructive role--I'd like to see more of that--
and that they are a critical factor.
    There's a Reuters article from today talking about the 
Chinese Assistant Foreign Minister just returning from a 3-day 
trip to Sudan. And, in that, he is saying that basically the 
international community should pay more attention to the way 
that China has been conducting its diplomacy in Sudan, you 
know, saying that Beijing was using its influence in its own 
way, rejected suggestions that there should be further threats, 
that the international community should pay attention to the 
way that the Chinese have been doing this, in order to get 
better results.
    So, basically, my question is: Should we be more aligned 
with the way that China is doing this, or is this a tandem 
approach?
    Ambassador Natsios. I----
    Senator Webb. Or is it something else, by the way?
    Ambassador Natsios. Yes, Senator. I am aware, Senator, of 
your work in Vietnam. I ran USAID for 5 years, and there's an 
AID office there, and it has substantial programs. So, I'm 
aware of the progress the country has made, and your interest 
in that, and your interest in China, as well.
    I've learned, over the years doing this sort of work on the 
development side, that different countries act differently. I 
mean, United States--Americans are more confrontational, more 
direct, more blunt, more black-and-white than even our European 
friends are. I actually think that our leadership is critically 
important around the world, not just in Sudan, but in many 
other countries. If every country behaved the way we did, I'm 
not sure we could always get done what we need to get done. 
Sometimes, more subtle approaches need to supplement what we're 
doing. And my sense from the Chinese, from 3 days of meetings 
in Beijing, is the Chinese are taking a more subtle approach 
that is really affecting the behavior of the Sudanese 
Government.
    As I said before, I believe the reversal of phase 2, the 
``heavy support package,'' where the Sudanese Government 
basically trashed the whole thing in a 14-page letter President 
Bashir sent to Ban Ki-moon a month ago. And I was with him in 
his office. He said, ``I--Mr. Natsios, I just signed the 
letter.'' He didn't give us a copy of it. If I had known it was 
14 pages long, I would have been a little distraught, because 
long letters mean bad things, usually, under these 
circumstances.
    They reversed their positions 2 days ago in Addis. They've 
endorsed--they said, ``With the exception of the attack 
tactical--attack tactical helicopters, they've accepted 
everything else.'' Now, it remains to be seen whether they 
actually cooperate with us in bringing those 3,000 troops in. 
That's a different matter. We have to test this. But I think 
the Chinese played a role in that. I don't want to discuss, 
publicly, what that is, but there's a shift going on, and I 
don't want to start making statements that are going to 
discourage the Chinese from using their own influence to help 
us in this, because I think they can be critically important. 
And I think they are being helpful.
    Senator Webb. Good. Thank you very much.
    The Chairman. No, you're up, Senator. He's already gone. 
Thank you.
    Senator Coleman. Thank you. Thank you, Mr. Chairman.
    I apologize. I've been on the floor with another debate, 
Mr. Natsios, but I'm--I want to--I'm glad that you're here.
    And this is an issue that is--been very, very frustrating. 
We continually hear the reaction that, ``Our commitment is 
firm,'' that, ``We're going to do everything we can,'' and then 
we continue to receive reports of violence, and it--almost as 
if the international community appears to be unable to do the 
things that have to be done. I know, your testimony, you say 
that we continue to monitor the security situation very, very 
closely.
    Is it--can you that--we've talked about Darfur--in the 
past, used the word ``genocide''--is it fair to say that the 
genocide has stopped?
    Ambassador Natsios. There is a lull in fighting since the 
11th of February--in Darfur, not in Chad; there is increased 
violence in Chad. We are trying to find out what exactly caused 
the incident in eastern Chad that resulted in 400 people dying 
in the last week. There was an incident, where the Chadian Army 
was chasing some Chadian rebels into Sudan, who then were 
intermingled with Sudanese troops, and the Chadian military 
killed 17 Sudanese troops 2 days ago. And that was extremely 
disturbing, because the cease-fire between Chad and Sudan is 
one of the reasons why the United Nations and the NGOs and 
diplomats and our embassies believe there's been a substantial 
reduction in civilian casualties in the last 2 months. There 
was a negotiated truce by the Libyans between Chad and the 
United--and Sudan--which have been at virtual war the last 2 
years. That has exacerbated the violence against civilians. 
Whenever you have two countries fighting, civilians get caught 
in the crossfire. So, it is very, very disturbing to me that 
this happened.
    Now, the report we have, from reliable field people who 
said they investigated it, is that this was a mistake on the 
part of the--the Chadians did not know they were firing at 
Sudanese troops, the 17 they killed; they thought they were 
just firing at Chadian rebels who were trying to unseat 
President Deby.
    I'm hoping--and I want to say this today, because the 
Sudanese will listen to what I'm saying--please act with 
restraint in responding to this incident. If we have a renewal 
of the Chad-Sudan war, more civilians are going to get killed, 
and we don't want that to happen.
    Two, the rebel leaders have been meeting in northern 
Darfur, for the last month and a half, to try to come together 
to unify. The fact that they're not leading their troops means 
they're not fighting as much.
    Now, this lull may well dissolve, in the next few weeks, 
because, before the rains start, there's typically military 
offenses by both the rebels and the government. I hope and pray 
that, in the next 9 weeks, both sides will restrain themselves 
sufficiently, and we can minimize civilian casualties. And 
then, the 10 weeks of the rainy season, there's very little 
military activity, it can't move around because the rains are 
so heavy. So, we could have 5 months of relatively stable 
conditions, which would be an excellent platform to begin peace 
negotiations between the rebels and the government.
    Senator Coleman. Let's talk--I'd like to, then, explore 
what our role can be in order to have the structure for a 
successful negotiation. Do the rebels have a unified political 
front? And if they don't, is there a role that we're playing to 
establish the structure that would make a negotiation possibly 
successful?
    Ambassador Natsios. Yes. There is--the lead for this--and 
we have to be very careful we do not create a separate 
mechanism for talking to the rebels, that goes around the 
United Nations or the African Union, because we want one track, 
we don't want multiple tracks where they're playing off against 
each other--on either the rebel side or the government side, 
because that happens, too, all the time. We believe that the 
rebel movements must be consolidated. We can't have 15 
different movements. And that's what we have right now, 
according to our latest analysis of the situation.
    When I met with the rebels in January, I asked the American 
Ambassador Marc Wall, who is a very able career diplomat. I 
said, ``Marc, what can I do to help consolidate this?'' He 
said, ``Your trip helped consolidate it. They've been meeting 
for 6 weeks, because they don't want to be embarrassed in front 
of you. And they're going to prevent--present a unified 
position for a large part of the movement.'' And they did that. 
We spent, like, the entire afternoon. We ate a goat together. 
The U.S. Government paid for a stuffed goat. And we talked--
there were 50 of them there, and we spent a long time--I told 
them, ``You must give up your public statements that you want 
to violently overthrow the government. You can't be advocating 
that and expect to negotiate with them. Two, you have to unify. 
Three, you can't make ridiculous demands. I've read some of 
your demands. No one will agree to that stuff. If you plan to 
give up some of what you're demanding in a negotiation, then 
that's fine, I understand that.'' But some of them think, 
unless they get 95 percent or 99 percent of what they're asking 
for, they're not going to sign the peace agreement. I said, 
``That is not way--the way negotiating works.'' Some of them 
have never negotiated before.
    We have gotten involved, some conflict-prevention 
institutions in Europe--I personally asked them to get 
involved--in helping to prepare the way for these negotiations. 
That is ongoing. We did not want the U.S. Government to do the 
training. We wanted someone else, without connection to the 
U.S. Government, that are competent at doing this. And they are 
engaging in that now.
    The third thing we do is, we have U.S. Government, State 
Department, and AID officers on the ground in Darfur around the 
clock; they live there. And they have been in constant contact, 
meeting with the rebel leaders, urging them, trying to 
negotiate with different ones to consolidate this. So, there is 
an ongoing U.S. Government effort on the ground with career 
Foreign Service officers from the State Department. I met with 
them. I spent several days out in Darfur, in March, and then in 
October of last year; and I think they're very capable, they're 
making those connections. Our Charge has been out there to talk 
to people, as well, Cameron Hume, one of our most senior 
diplomats in the Foreign Service. And I think it's having an 
effect, because the message is clear, ``You can't--we can't 
wait forever to have these negotiations start.''
    Once the negotiations start, it'll be much easier for us to 
get President Bashir to agree to a cease---a formal cease-fire 
that's enforceable, which is what happened in the south. Once 
we got the negotiations going, then there was a--they called--
they didn't call it a ``cease-fire,'' they called it a 
``cessation of hostilities.'' And that allowed them to 
negotiate without fighting going on, on a large scale in the 
south, and I think that was one of the contributing factors to 
success of the north-south peace agreement.
    Senator Coleman. I see my time is expired. If I can just--
one last question.
    In addition to our--are the other Arab nations, the Saudis 
or others, involved? Are we doing this alone, or have we got 
some folks standing by our side?
    Ambassador Natsios. There are other countries involved in 
this. Let me just say--be a diplomat now--there are neighboring 
powers on the periphery of Sudan. Some of them are playing a 
constructive role, and some of them are not. Some of them are 
working at cross-purposes with each other. I don't want to 
start making accusations, because the Ambassadors will be in to 
see me tomorrow, and I don't want to do that. OK?
    It's not helpful for some of these tracks of negotiation to 
go on outside the UN-AU process. The reason it isn't is, the 
rebels simply will say, ``Well, I'm not getting what I want 
from Jan Eliasson,'' and saying, ``So, I'm going to go to the--
this neighboring country.'' We don't want that to happen. And 
so, when I've met with all of the neighboring countries, except 
for one, I've urged them to unify their position, the way we 
did in the north-south agreement, together, to have one 
negotiating track. I think, Senator, that's a very good 
question and a critical issue, actually.
    Senator Coleman. Thank you. Thank you, Ambassador.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman. I'd 
like to begin by thanking you for holding this important 
hearing. Previous Senate Foreign Relations Committee hearings, 
to consider responses to the horrendous violence in the Darfur 
region of Sudan in April 2005 and September 2006, were 
canceled, so I'm glad that this committee is making this crisis 
a priority. However, I am dismayed by how little has changed 
since that first hearing was scheduled, a couple of years ago. 
I'm hoping this will mark the start of a different trend.
    Mr. Natsios, while playing an important role in trying to 
bring peace to Darfur and smooth the relations between Chad and 
Sudan, Libyan President Gaddafi's involvement has seemingly 
been unhelpful of late. Do you believe that Libya's involvement 
so far in Sudan has done more good than harm? And what role do 
you foresee for Libya in facilitating a sustainable political 
settlement in Darfur and the region?
    Ambassador Natsios. I should have left before you started 
asking these----
    Senator Feingold. Well----
    Ambassador Natsios [continuing]. Hard questions, Senator. 
[Laughter.]
    Senator Feingold [continuing]. That's not how it works.
    Ambassador Natsios. I know it. [Laughter.]
    Unfortunately, you're right.
    Let me say, I spent a couple of days in Libya in March. I 
won't go through who I met with and what we discussed, because 
it was--again, it was sensitive information. I think there are 
some things the Libyans have done that have been constructive. 
And I want to compliment President Gaddafi--or the leader, 
General Gaddafi--on the effort to get a cease-fire between 
Sudan and Chad. That effort, which he tried last year, was--the 
next day, they started fighting again. OK? And that was a 
failure. This time, he tried it--and I don't remember the exact 
date of the negotiation, I think it was in February--it's been 
successful, until yesterday, or 2 days ago, when there was an 
incident in which--before you walked in, I mentioned there was 
an incident where Chadian troops, from what our information is, 
by mistake killed 17 Sudanese troops, according to the Sudanese 
Government. We do not want this incident to start up the 
fighting again. And I would ask the good offices, if the 
Libyans are here listening, to use their good offices to 
restrain both sides to prevent this cease-fire from collapsing. 
We do not need another renewal of this conflict, because it is 
making things much worse for civilians, who are getting killed, 
and they get caught in the crossfire, for the stability of the 
region, and for the NGOs and U.N. agencies trying to save 
people's lives, and for peace. For peace. So, that has been 
helpful.
    Those are the helpful things, Senator. If you want me to 
discuss other things, I'd rather do it privately; I don't want 
to go into it in public session.
    Senator Feingold. Well you know, I don't want to force you 
to do that, at this point. We can talk at greater length in 
some other setting. But does Deputy Secretary of State 
Negroponte's upcoming visit to Libya--as the highest ranking 
government official to visit that country since diplomatic 
relations were renewed, last May--does that symbolize an intent 
for greater and more regularized U.S. coordination with the 
Libyans?
    Ambassador Natsios. It is not just Darfur, as I understand 
it, that will be on John's agenda. There are other issues, as 
well. We have raised--Jendayi Frazer visited Mr. Gaddafi last 
year, and had a very long discussion with him. I followed that 
up this year. But our Ambassador, our Charge there, is a very 
experienced diplomat. He's a retired ambassador, and he has 
been raising these issues with the Libyan Government on a 
regular basis. And so, we work through the Embassy there on 
these issues, and he sat through all of the conversations I 
had. I think he knows where we are and what we're trying to 
accomplish.
    Let me just say, the Libyans have invited me back at the 
end of this month, in 2 weeks, just as, actually, school gets 
out at Georgetown. And I intend to accept the invitation and go 
back.
    Senator Feingold. But does it--does the visit of Mr. 
Negroponte to Libya have any significance, vis-a-vis the Darfur 
situation----
    Ambassador Natsios. Yes, it----
    Senator Feingold [continuing]. Or not?
    Ambassador Natsios [continuing]. Does.
    Senator Feingold. OK.
    Ambassador Natsios. Yes.
    Senator Feingold. Last month, I chaired a hearing on the 
regional impact of the conflict in Darfur to highlight the 
destabilizing impact that this crisis is having on the 
neighboring countries of Chad and the Central African Republic. 
And your comments here have already highlighted these spillover 
effects. How have you sought to address the regional dimensions 
of the Darfur conflict? And what contingencies does the United 
States have in place to address this spillover aspect of the 
problem?
    Ambassador Natsios. In December, I met with the leadership 
of the French Government, on Chad and on the Central African 
Republic, and we talked about a coordinated approach to how we 
would stabilize the situation.
    Two, in January I visited Chad, not just to meet with the 
rebels, which I did, but I also met with President Deby, his 
Foreign Minister, and his senior advisors, at length, and we 
talked over the issues. I offered, in December, with President 
Bashir, to send messages. I said, ``Mr. President, I know 
you're having a problem, which is this problem between Chad and 
Sudan. If you wish me to, I will send a message to President 
Deby when I go visit him. Would you like me to do that?'' At 
that point, he did not want me to do it. Since then, there have 
been extra--additional diplomatic moves that have led to this 
cease-fire. And we've encouraged that, and we support that.
    So, the cease-fire that existed until 2 days ago, which we 
hope will continue, in fact is evidence that some of this is 
bearing fruit.
    Senator Feingold. OK. What impact do you think a U.N. 
peacekeeping force for eastern Chad and the northern Central 
African Republic would have for Darfur? And is the United--is 
the administration still actively supporting----
    Ambassador Natsios. Yes.
    Senator Feingold [continuing]. A strong U.S.----
    Ambassador Natsios. Yes.
    Senator Feingold [continuing]. Peacekeeping force? And how 
are you then, if that's the case, going to gain Chadian 
President Deby's consent for the peacekeeping operation?
    Ambassador Natsios. One, we believe that a peacekeeping 
operation of the United Nations will stabilize the situation 
for civilians, who are at risk now. Some of the worst 
atrocities are being committed in Chad now, not in Darfur.
    Senator Feingold. Right.
    Ambassador Natsios. And, two, we believe it will stabilize 
the security situation, in terms of the two sides. It is not 
large enough. There are--I think there are three different 
options that have been presented to the Secretary General on 
how large that force would be. That's a huge border. I mean, 
this is--Darfur is the size of Texas, it's not a tiny little 
area. It's not like Rwanda, you know, where we had the 
genocide; it was a very small area. This is huge area. And I've 
flown over it for years, and it's a vast, vast area.
    And so, patrolling a--making a commitment that we're going 
to patrol the entire border between Chad and Darfur, I think we 
should be careful not to overpromise. But we think that that 
force would have a substantial effect on the security 
situation, would stabilize things. We strongly support it, 
still. And there are efforts being made now to advance it.
    Senator Feingold. Thank you very much, Mr. Chairman.
    Thank you.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Ambassador, I appreciate your work, but I must tell 
you, it seems to me that we are being waltzed by--while people 
die. And the reality is, looking at this latest report, the 
United Nations Refugee Agency said that militiamen had killed 
up to 400 people in the volatile eastern border region near 
Sudan, leaving, ``an apocalyptic scene of mass graves and 
destruction.'' The attacks by the Janjaweed took place in that 
border area. And it goes on to say ``Estimates of the number of 
dead have increased substantially, and now range between 2 and 
400,'' a report by the U.N. High Commissioner for Refugees 
said. The report added that many of the dead were buried in 
common graves, and it says, ``We may never know their exact 
number. The attackers encircled the villages, opened fire, 
pursuing fleeing villagers, robbing women, shooting the men.'' 
The agency said, ``Many who survived the attack died from 
exhaustion and dehydration.''
    You know, I want to ask you a question. Do you still stand 
by what you were quoted in the Georgetown Voice, saying that 
the ongoing crisis in Darfur is no longer a genocide situation?
    Ambassador Natsios. Senator, I actually--there was a 
retraction of that by the newspaper, the following week. I 
actually looked at my statement. Very clearly, I did not say 
that at the--there were three mistakes, and the Georgetown 
Voice, which is an----
    Senator Menendez. So----
    Ambassador Natsios [continuing]. Alternative student news-
paper----
    Senator Menendez. So, would you now tell the committee: 
What is the situation in Darfur? Is it a----
    Ambassador Natsios. Darfur----
    Senator Menendez [continuing]. Genocide?
    Ambassador Natsios. Senator, right now, there is very 
little fighting in Darfur----
    Senator Menendez. That does----
    Ambassador Natsios [continuing]. Itself.
    Senator Menendez [continuing]. Not mean that we do not----
    Ambassador Natsios. Senator, could I----
    Senator Menendez [continuing]. Have an ongoing----
    Ambassador Natsios [continuing]. Finish----
    Senator Menendez [continuing]. Circumstance----
    Ambassador Natsios. Could I----
    Senator Menendez [continuing]. Of genocide. The question 
is: Do you----
    Ambassador Natsios. Senator.
    Senator Menendez [continuing]. Consider----
    Ambassador Natsios. Let me----
    Senator Menendez. Answer my question.
    Ambassador Natsios. I am----
    Senator Menendez. I have a limited----
    Ambassador Natsios [continuing]. Answering you----
    Senator Menendez [continuing]. Amount of time----
    Ambassador Natsios [continuing]. Answering your question.
    Senator Menendez [continuing]. Ambassador.
    Ambassador Natsios. Yes.
    Senator Menendez. So, I ask you to be specific and answer 
my question.
    Ambassador Natsios. I'm answering your question.
    Senator Menendez. You can't answer it if you haven't heard 
it. Do you consider the ongoing situation in Darfur genocide?
    Ambassador Natsios. The----
    Senator Menendez. Yes or no?
    Ambassador Natsios. What you just----
    Senator Menendez. Yes or no?
    Ambassador Natsios. Senator, please. What you just read did 
not take place in Darfur. It----
    Senator Menendez. I didn't----
    Ambassador Natsios [continuing]. Took place in----
    Senator Menendez. I didn't----
    Ambassador Natsios [continuing]. Chad.
    Senator Menendez. I didn't refer to that.
    Ambassador Natsios. There is very little----
    Senator Menendez. I'm asking you----
    Ambassador Natsios. There is----
    Senator Menendez [continuing]. Yes or no----
    Ambassador Natsios [continuing]. Very little violence in--
--
    Senator Menendez. Ambassador----
    Ambassador Natsios [continuing]. Darfur----
    Senator Menendez [continuing]. What is the difficulty----
    Ambassador Natsios [continuing]. Right now.
    Senator Menendez [continuing]. In my question?
    Ambassador Natsios. Senator----
    Senator Menendez. Give me an honest----
    Ambassador Natsios [continuing]. I just answered your----
    Senator Menendez [continuing]. Answer.
    Ambassador Natsios [continuing]. Question.
    Senator Menendez. Is the circumstances in Darfur today a 
continuing genocide; yes or no?
    Ambassador Natsios. Senator, there is very little fighting 
between the rebels and the government, and very few civilian 
casualties going on----
    Senator Menendez. Ambassador----
    Ambassador Natsios [continuing]. In Darfur right now. I 
just told you----
    Senator Menendez. Ambassador----
    Ambassador Natsios [continuing]. The answer.
    Senator Menendez. Ambassador, I'm not asking whether 
diminished fighting, I'm asking whether the situation in Darfur 
today is a genocide; yes or no?
    Ambassador Natsios. Senator, there----
    Senator Menendez. Yes or no?
    Ambassador Natsios. The situation is very volatile.
    Senator Menendez. All right.
    Ambassador Natsios. There are periods of killings, which 
could be construed as genocide, that took place----
    Senator Menendez. You know, in the----
    Ambassador Natsios [continuing]. Last fall and----
    Senator Menendez [continuing]. In the present----
    Ambassador Natsios [continuing]. Earlier this year----
    Senator Menendez [continuing]. In the present convention 
that the United Nations has on the prevention and punishment of 
the crime of genocide, it says ``genocide'' means ``any of the 
following acts committed with the intent to destroy, in whole 
or in part, a national ethnic, racial, or religious group, such 
as killing members of the group, causing seriously bodily or 
mental harm to members of the group; deliberately inflicting on 
the group conditions of life calculated to bring about its 
physical destruction, in whole or in part; imposing measures 
intended to prevent births within the group; and false--and 
forcibly transferring the children of the group to another 
group.'' It seems to me that those clearly are elements of what 
is taking place----
    Ambassador Natsios. That is correct.
    Senator Menendez [continuing]. In Darfur. Let me ask you--
because you don't want to answer the question yes or no, so 
let----
    Ambassador Natsios. I did answer----
    Senator Menendez [continuing]. Go on----
    Ambassador Natsios [continuing]. The question, sir.
    Senator Menendez. Let me go on to the following question. 
What are we willing to accept from the Secretary General? 
Anything less than the agreements that we have had to date that 
we expect to be enforced? Do we expect----
    Ambassador Natsios. Well----
    Senator Menendez [continuing]. Anything less than that?
    Ambassador Natsios. Let me just say, very clearly, sir, I 
follow what's going on, on the ground every day, from cables, 
from reports; and there are acts of barbarity against people. 
Some of them are now being committed by rebels in one of the 
camps. The rebels have begun to rape women. Rebels. OK? There 
are--there is anarchy in much of Darfur now. And there is--300 
Arabs were killed in southern Darfur----
    Senator Menendez. Ambassador, I appreciate your----
    Ambassador Natsios [continuing]. By one Arab----
    Senator Menendez [continuing]. Your lengthy----
    Ambassador Natsios [continuing]. Tribe against another----
    Senator Menendez [continuing]. Anecdotal----
    Ambassador Natsios [continuing]. Arab tribe.
    Senator Menendez [continuing]. Responses, but please just 
answer my question.
    Ambassador Natsios. I am answering the----
    Senator Menendez. The question----
    Ambassador Natsios [continuing]. Question, sir.
    Senator Menendez [continuing]. Is: What are we willing to 
accept from the Secretary General's negotiations? Is it 
anything less than the agreements that we previously thought we 
had?
    Ambassador Natsios. No. We are not willing to----
    Senator Menendez. OK.
    Ambassador Natsios [continuing]. Accept anything less.
    Senator Menendez. Are we ready to implement plan B if the 
Secretary General fails? Yes or no?
    Ambassador Natsios. We were asked--as I said earlier, 
before you arrived, Senator--Secretary General Ban asked Dr. 
Rice, and asked me last week when I met with him, for 2 to 4 
weeks, before we go to plan B. We had actually intended to go 
to it, and there was a congressional delegation going there, 
and we decided not to announce it--or, the President decided 
not to announce it----
    Senator Menendez. I----
    Ambassador Natsios [continuing]. During the visit.
    Senator Menendez. I understand all that. The question is--
--
    Ambassador Natsios. The plan is prepared----
    Senator Menendez [continuing]. If the Secretary General 
fails in his efforts--I hope----
    Ambassador Natsios. Yes.
    Senator Menendez [continuing]. He succeeds----
    Ambassador Natsios. The answer to----
    Senator Menendez [continuing]. Are we ready----
    Ambassador Natsios. Yes----
    Senator Menendez [continuing]. To go to plan B?
    Ambassador Natsios [continuing]. We are.
    Senator Menendez. And then, are we ready to immediately 
move to plan B, and implement it----
    Ambassador Natsios. Well, once----
    Senator Menendez [continuing]. In that case?
    Ambassador Natsios [continuing]. It's signed, it will be 
immediately implemented.
    Senator Menendez. Once it's signed.
    Ambassador Natsios. Well, the President has to sign the 
orders.
    Senator Menendez. Well, my point is: Are we at the point 
where, if the Secretary General fails, the administration is 
ready to move forward?
    Ambassador Natsios. I just said, Senator, if--at the end of 
the 2 to 4 weeks he requested, if we haven't made the progress 
that we believe needs to be made, I believe the President will 
make the decision. I'm not going to presume what the 
President's going to decide and the announcement that he's 
going to make. That's not for my--my place to do that. But I 
know how angry he is, and impatient he is, over this, as I am, 
as Dr. Rice is.
    Senator Menendez. Well, I think part of our problem is, is 
that we are quickly losing credibility in this process with Mr. 
al-Bashir and others. It's like a child when you're 
continuously telling him, ``Don't do that. Don't do that.'' I 
mean, you use your public opportunities to say, ``Don't do 
that. Don't do that.'' And they continue to do it, and they 
continue to do it, and you say, ``Don't do that,'' guess what? 
That child never believes that, in fact, you are going to 
exact----
    Ambassador Natsios. I agree----
    Senator Menendez [continuing]. A punishment.
    Ambassador Natsios [continuing]. With you, Senator.
    Senator Menendez. And so, ultimately it seems to me we're 
at that point. Let me just say--I've got the corrected 
Georgetown version here. And you are quoted, in the corrected 
version, in saying ``the term `genocide' is counter to the 
facts of what is really occurring----
    Ambassador Natsios. No.
    Senator Menendez [continuing]. ``in Darfur.''
    Ambassador Natsios. Senator, I did not say that. But that--
look, that's----
    Senator Menendez. That's the corrected version.
    Ambassador Natsios [continuing]. That's not the point.
    Senator Menendez. Well, I hope that----
    Ambassador Natsios. The fact----
    Senator Menendez [continuing]. This administration----
    Ambassador Natsios. The fact of the matter is----
    Senator Menendez [continuing]. Views what is happening----
    Ambassador Natsios [continuing]. There is terrible----
    Senator Menendez [continuing]. In Darfur as genocide----
    Ambassador Natsios. There is terrible----
    Senator Menendez [continuing]. I hope----
    Ambassador Natsios [continuing]. Violence----
    Senator Menendez [continuing]. The words ``never again'' 
are meaningful, and those words can only be meaningful if we 
act. And I hope that we will not permit this to continue to 
happen on our watch. I hope you take that back to the 
administration. It is time to get past the talk about plan B, 
and it is time to begin to enforce plan B.
    Ambassador Natsios. If we want to get the international 
community to support our efforts under plan B, and other 
countries to implement unilateral sanctions--or bilateral 
sanctions against the Sudanese Government, we have to cooperate 
with them, we have to talk with them. We cannot simply ignore 
what everybody else is doing. As I said before, Senator, before 
you came in, we've had extensive meetings with the Europeans, 
over the last 3 months, over how they might unilaterally, 
without a U.N. resolution, impose their own sanctions, which 
would be similar to ours. They would be much more powerful--
much more powerful--if a new set of sanctions is both--uses the 
dollar and the euro to enforce. We know that from experiences 
in Iraq, Iran, and Northern--and North Korea.
    We are now engaged in diplomacy to get the Europeans 
onboard. Chancellor Merkel, I believe it was 2 weeks--and the 
German Defense Minister--they're in the Presidency of the 
European Union--have now said, even with the absence of a U.N. 
resolution, the European Union may consider, seriously, 
imposing sanctions, which they never do, they always want a 
Security Council resolution. This was a big change of position. 
If we want to affect the behavior of the Sudanese Government, 
we have to have a coordinated international approach. That's 
what we have right now. It takes a little bit more time to do 
that, because you have to talk to other people, as I'm sure 
you're aware, Senator. If we simply do what we want to do, I 
would have done it a long time ago, but Ban Ki-moon--we need 
Ban Ki-moon's support on this. He asked for 2 to 4 weeks; we're 
going to give him 2 to 4 weeks.
    The Europeans asked us to work with them on how this could 
be done in a way that would effectively paralyze the Sudanese 
economy. They've asked us how it is that we're going to do 
this, from an enforcement mechanism. We're working with them. 
We've had a meeting in Washington, 3 weeks ago, on this, on a 
technical level, to go through the steps needed for them to 
impose parallel sanctions to what we're doing.
    So, if we're going to do this, whether it's 2 weeks or 4 
weeks, Senator, what's--the important thing is, it has the 
necessary effect on the behavior of the Sudanese Government. 
That's the purpose of this.
    Senator Menendez. Mr. Chairman, I know my time is over, but 
I just----
    The Chairman. Go ahead. Take your time.
    Senator Menendez. I listened to you carefully. A hundred 
and one days ago, you, on behalf of the administration, 
announced plan B. Now, 2 to 3 weeks more. What does it matter 
if it takes a little time? If I was sitting in those camps, I 
could not stand the counsels of patience and delay. And I hope 
we get to the point that we understand that. I understand about 
multilateral action. But, at some point in time, we must lead.
    Ambassador Natsios. I agree with you.
    Senator Menendez. And it seems to me that we have not 
gotten to the point where we are truly leading. And I hope that 
the administration will do that sooner rather than later, 
because people are dying. That's the reality.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I must say, Mr. Ambassador, it sounds like the 
administration is changing its position. And I thought you said 
to me that the most useful sanctions available to us were 
unilateral sanctions that we could impose that weren't 
available to us in the 1990s, that we're now using in Iraq--I 
mean, excuse me, in Iran, and that----
    Ambassador Natsios. And in North Korea.
    The Chairman [continuing]. And in North Korea. And so, I'm 
confused. What are these--what are these multilateral sanctions 
that are going to be so consequential that you're worried, if 
we acted on our own, we would lose?
    Ambassador Natsios. Well, it's not that we would lose it, 
but obviously our sanctions are going to affect dollarized 
transactions. They're not going to affect euro transactions.
    The Chairman. I got that.
    Ambassador Natsios. And if we can get the Europeans to do 
the same thing we're doing, it would have a much greater 
impact, because they're the two currencies of the world right 
now.
    The Chairman. But in the meantime, a lot of people are 
going to die.
    Ambassador Natsios. Well----
    The Chairman. I--Senator. Sorry.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Ambassador, first let me say that I concur in Senator 
Menendez's questions and frustration and--we've run out of 
patience.
    But I want to, first, thank you for your efforts. You have 
kept us informed. You have relayed, I think, our message to the 
players. And, I think, as a result of your efforts, lives have 
been saved. And that's a record that you can be very proud of. 
You've been very persistent. And I think the administration has 
been strong in regards to our position on Darfur. But it lacks 
a sense of urgency internationally.
    This month, we will commemorate the Day of Remembrance for 
the Holocaust caused by the Nazis. And since I've been in 
Congress, we've seen genocide in the former Yugoslavia 
Republics, in Rwanda, and now in Darfur. And we need to take 
action.
    The open violence may have been reduced in the Darfur 
region or the Sudan, but the circumstances in the villages are 
very vulnerable. The circumstances in the refugee camps are 
very vulnerable. And relief workers are at extreme risk. At any 
day, violence could continue and expand, and there could be 
additional tragedies. And, as you've pointed out, we do have 
genocidal conditions every day with people being killed, 
displaced, and raped.
    So, we need to move forward, at least on two fronts. One is 
the plan B, the sanctions. I understand another delay--I really 
don't understand another delay. I think we originally said that 
we were going to impose sanctions several months ago, and that 
date has passed. We can be very effective in imposing 
sanctions, with or without the support of other countries.
    I heard you mention some of the other--same countries, that 
we are not getting the type of cooperation we need in regards 
to Iran, in imposing sanctions against Iran. These are not new 
issues, and there's a lot of issues on the agendas of these 
countries. But one thing we can do is act, the United States 
can. And we need to do that.
    I want to mention a second front in which we can act, and 
that is in the war crimes tribunal. We have not gotten much 
help internationally on using the International Criminal 
Courts. But for the action of this Congress in standing up to 
Serbia and other countries, I doubt if we would have had the 
type of cooperation in regards to the indictments against those 
involved in the former Yugoslavia.
    I think this Congress is prepared to help in regards to the 
International Criminal Courts. Clearly, two indictments have 
been issued, as I understand. The investigations continue. And 
I don't think you can compromise these issues. I understand the 
nervousness of the Sudanese Government. They should be nervous. 
But this is something that cannot be compromised, because if 
you compromise now, we're just going to have another problem 
down the road.
    So, I would just ask--we haven't had much discussion here 
at this hearing on the war crimes issue. I hope that's not 
being compromised, as far as our position in that regard. Those 
that are culpable should be held accountable. And that we have 
lost--we've run out of time on plan B. It's time to move 
forward with it.
    Ambassador Natsios. Well, with respect to the ICC, I--there 
are people who think we should use the ICC investigation and 
process as a diplomatic tool with respect to the Sudanese 
Government. I don't think we should. I think we need to 
separate the diplomacy of this from justice. The ICC is a 
judicial process to determine whether or not people committed 
acts of genocide or violations--massive violations of human 
rights, and they need to prosecute people as they're going to 
prosecute them.
    Senator Cardin. Let me just point out, the prosecutors, if 
they don't have the support of the State Department, if they 
don't have the support of the diplomatic efforts, they will not 
get access to the material that they need, the witnesses they 
need, the preservation of the evidence that they need, and they 
will not be able to do their work. So, they need your help, or 
it won't happen.
    Ambassador Natsios. There is a report, that was 
commissioned by Colin Powell when he was Secretary of State, 
that I executed for him when I was the Administrator of AID, 
and we sent a team of--through an NGO associated with the 
American Bar Association--of police prosecutors, lawyers, and 
district attorneys, who went to Darfur--I mean, not to Darfur--
to Chad and interviewed 1,300 people who had been the victims 
of these atrocities, and whose family members had been murdered 
in the massive atrocities of 2003 and 2004. That report is on 
the State Department Web site. I'm very--we took a lot of risk 
doing it, because some of the--there are 28 officers from--this 
is done through, again, a associate organization of the Bar 
Association. We did it deliberately to have people with legal 
degrees and prosecutorial backgrounds to do this. That evidence 
is available.
    Senator Cardin. I guess my frustration is that, having gone 
through this in the debates with the State Department on the 
issues of the--in Yugoslavia, unless we are raising these 
issues directly with the Sudanese Government through whatever 
sources we can--unless we let them know that the preservation 
of evidence is going to be required--I understand they're 
nervous about those things, but it will make it extremely 
difficult to follow through on this, giving the impression to 
the Sudanese that this is an issue that can be negotiated away.
    Ambassador Natsios. Well, I'm--what I--that's what I argued 
earlier, is, we should disentangle those war crimes tribunals 
from any diplomacy, because diplomacy is where you compromise. 
You shouldn't be compromising on justice. I don't think we 
should have that in the--as part of the negotiation.
    Senator Cardin. I agree with you on that, but you've got to 
preserve the record, you've got to be--you've got to have 
access in Sudan. I understand it's important to interview, in 
Chad, the victims, but you also have to be on the ground in the 
Sudan----
    Ambassador Natsios. And you obviously have----
    Senator Cardin [continuing]. In order to gather----
    Ambassador Natsios. Right. I am aware of that. I've met 
with people--in fact, when I was in Abeche to meet with the 
rebels in January, some members of the ICC staff were there, 
also searching for evidence. And so, we--I know they're there, 
but, you know, again, I don't want--I don't want to get into a 
position where the United States--and it's not our business, 
anyway, to negotiate with the Sudanese Government over whether 
these war crimes trials should go forward. That's not a 
negotiable issue, as far as I'm concerned.
    Senator Cardin. It is--should be on our agenda, the 
cooperation with the ICC.
    Ambassador Natsios. Different matter.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Ambassador, this hearing, to me, sounds eerily like a 
hearing that took place 14 years ago about Bosnia. And the 
temporizing, the number of times you've pointed out how the--
which is no doubt, it occurs--that the rebels are engaging in 
atrocities themselves. I heard that for 3 years, the last year 
of the Bush administration and the first 2 years of the Clinton 
administration. And yet, there is--and the question I asked 
then, and I'm going to ask you now: Is the--are the atrocities 
that are being carried out sanctioned by, cooperated with, or a 
blind eye being turned by Khartoum, not significantly greater 
than the atrocities that are occurring at the hands of the 
rebels?
    Ambassador Natsios. There is no equivalency whatsoever, 
Senator.
    The Chairman. Well, I wish you'd stop talking about it----
    Ambassador Natsios. Well, I'm talking about it, Senator, 
because the rebels think they can get away with this.
    The Chairman. Well, I'm----
    Ambassador Natsios. And it's----
    The Chairman. Look, I'm----
    Ambassador Natsios [continuing]. Getting worse. And what's 
happening is, no one's saying anything about it, because it's 
politically sensitive. We can't let any civilian----
    The Chairman. No, no; it's not politically sensitive. I 
mean, we went through this exercise a couple of years ago, in 
coaxing out of the administration the word ``genocide.'' Why 
won't you just say? Is ``genocide'' still the operative word?
    Ambassador Natsios. Yes.
    The Chairman. It is. So, genocide is being----
    Ambassador Natsios. Yes.
    The Chairman [continuing]. Committed in Darfur.
    Ambassador Natsios. Yes.
    The Chairman. All right. All right, now----
    Ambassador Natsios. Let me just add something--not a 
qualification, but just the reality of what I'm trying to get 
to here. We want the current lull in fighting--because there 
are peaks and--you can see the casualty rates, from month to 
month; they're higher; they're lower--we want ``no 
casualties.'' And if you don't make a distinction between ``no 
casualties'' and ``a lot of casualties,'' if everything's the 
same all the time, then how do you tell people that they're 
supposed to, you know, extend a period of relative stability? 
We don't want, between now and the beginning of the rainy 
season, any more civilian casualties on either side of the 
border, both for humanitarian and human rights reasons, but 
also because we believe a absence of hostilities could 
facilitate the peace process between the rebels and the 
government. We had that happen in the south. We want it to 
happen again.
    The Chairman. Well, it seems to me that the need for an 
agreement between the rebels and the government gets trumped by 
the attitude of Khartoum, that has virtually nothing to do with 
the rebels, by Khartoum's supporting and engaging in a 
systematic effort to engage in genocide. Notwithstanding the 
fact you may not be able to get an agreement between the rebels 
and the government, there are things we could do now that could 
significantly----
    Ambassador Natsios. Yes.
    The Chairman [continuing]. Reduce the number of casualties 
that are occasioned by the Janjaweed receiving support from 
Khartoum. They are distinguishable. And I am at a loss as to 
why we aren't engaging in everything, including the use of 
military force, to stop it. I met with the NATO commanders in 
Europe. I then spent time with the Supreme Allied Commander of 
Europe, prior to General Jones leaving. I was told that we had 
the physical capability of essentially shutting down the 
Janjaweed now, that it would take somewhere around 2,500 
troops, that if we were to argue strenuously, within the 
confines of NATO, for such a force and the imposition of a no-
fly zone, we could radically change the situation on the 
ground. That does not get you a settlement, but it does have 
the ancillary benefit of stopping thousands upon thousands of 
people of being slaughtered and/or left to be slaughtered.
    So, I find the desire to have a comprehensive settlement--
or, it kind of reminds me, if I can use a terrible metaphor--
it's kind of like someone is on the table, bleeding to death, 
and they have incurable cancer, and the doctors stand there and 
say, ``Now, unless we can come up with a holistic approach to 
this and figure out how to not only stop the bleeding, but cure 
this patient of cancer, we should hang on and wait until we get 
an overall plan here.''
    People are bleeding to death now. There are--the camps that 
I visited, you could see it. When I walked into the camp in 
Chad on the Darfur border of the northernmost camp at the time, 
I stunned, I later learned--I didn't realize I stunned 
anybody--but I stunned the U.N. personnel there by insisting I 
meet with only the women. And the men did not like that at all. 
And I insisted that happen. And once I got a group of, I don't 
know how many, women in one of the tents, it took a while, but 
then they started talking about what was happening to them. 
It's happening as we speak right now. Nothing has fundamentally 
changed.
    And so, you know, it's kind of like--the analogy I'd make 
is, the patient's bleeding on the table, and we talk about 
making sure that everything's going to be OK, not just--let's 
stop the bleeding. Let's stop the bleeding, or do everything in 
our power to stop the bleeding unilaterally.
    And I must tell you--well, I won't tell you. I think it's a 
moral imperative to do that. But I got the same arguments. You 
know, it's interesting, when we acted--finally acted in Bosnia, 
and we finally acted in Kosovo, we did it unilaterally first. 
Everybody talks about how this is--well, that's a bunch of 
malarkey. It was finally unilaterally we did it. We acted 
responsibly and morally, and the rest of the civilized world 
had to respond. I would argue the same thing would happen here. 
I think we could embarrass our European allies into acting more 
responsibly. And I think it's not only time not to take force 
off the table, I think it's time to put force on the table and 
use it, and use it now.
    But--and I acknowledge, that will not solve the situation, 
but it will mean there will be 10, 100, 500, 1,000, 2,000, 
5,000, 15,000 women who will not be raped, children who will 
not die, and people who will not be just murdered, just 
indiscriminately.
    But you don't need to hear that--I think you do need to 
hear that from me, but I don't expect that it will have much 
impact. But I just want to be clear. I think it is genocide, we 
can act now, and we should act now. If the President were 
asking me, if I were Secretary of State, I would use American 
force now. But that's me.
    Anyone have anything they'd like to say before--or would 
you? I'd invite you, if you want to make any--I don't expect 
you to make a closing comment, but you're welcome to, if you'd 
like.
    Ambassador Natsios. Well, I would just comment on what you 
just said, Senator.
    I went through Bosnia, myself, because, at the beginning of 
it, I ran the relief effort there for the U.S. Government, and 
then I worked in the NGO community there.
    The Chairman. Remember the arguments--if I--don't mind me 
interrupting--I remember sitting with Lord Owen, saying, ``You 
know, we can't use force, because--guess what? We may 
jeopardize the British forces on the ground. We may jeopardize 
those forces on the ground.'' We were talking about 
jeopardizing military force by using force. And now, we're 
using an adjunct to that. It is true, the use of force will 
jeopardize the NGOs on the ground. But the NGOs are already 
jeopardized. They're in tough shape right now. And I'm anxious 
to hear the other witnesses, but I don't get as--I won't say 
``rosy,'' that wouldn't be fair--as optimistic a picture of 
what's happening on the ground today, and the last month, and 
hopefully the next month, as you seem to think exists. But--you 
have more access to information than I do, but it's not my 
impression.
    But, anyway, go--I'm sorry to interrupt you, but----
    Ambassador Natsios. The atrocities stopped in Bosnia when 
we had Dayton. We need a Dayton Accord for Darfur and----
    The Chairman. You know how we got Dayton? We got Dayton 
because we used force.
    Ambassador Natsios. Yes.
    The Chairman. That's why we got Dayton. This malarkey of--
this whole notion about how we're rewriting history--we got 
Dayton because we used force and we killed bad guys. That's 
what we did. And we got Kosovo because we were prepared and 
made it clear to Milosevic we were ready to kill him. That's 
how we got it.
    I'm not big on killing people, but, I tell you what, this 
is incredible, what's happening. And I promise you--I promise 
you, we're all going to sit here, 5 and 10 years from now, and 
we're going to be saying, ``Why didn't we do the things that we 
can do?'' There's risk involved, but the risk is relatively low 
compared to the absolute devastation that's taking place, and 
continuing to.
    Anyway, I apologize. I just think we're temporizing 
everything much too much.
    I thank you, Mr. Ambassador. Thank you very much.
    Ambassador Natsios. Thank you.
    The Chairman. Our next witnesses will come, as a panel, 
please. The Honorable Susan E. Rice, senior fellow in the 
Foreign Policy Studies and Global Economy and Development 
Programs, at the Brookings Institution--it's good to see Susan 
again, I've worked with her in another incarnation; and the 
Honorable Lawrence G. Rossin, senior international coordinator, 
Save Darfur Coalition. I thank you both for being here. And--
oh, I'm sorry, it's not--where's my list here? I'm about to 
leave off the third witness. Sorry. I beg your pardon, Doctor. 
Dr. J. Stephen Morrison, director of the Africa Program, Center 
for Strategic International Studies, Washington, DC. I thank 
you all. I apologize, Doctor. I didn't--couldn't find my second 
page here.
    If the witnesses will make their statements in the order in 
which they were called, we'd appreciate it.

STATEMENT OF HON. SUSAN E. RICE, SENIOR FELLOW, FOREIGN POLICY 
   STUDIES AND GLOBAL ECONOMY AND DEVELOPMENT PROGRAMS, THE 
             BROOKINGS INSTITUTION, WASHINGTON, DC

    Dr. Rice. Thank you, Mr. Chairman. It's a pleasure to be 
back before this committee.
    And I want to begin by thanking you and your colleagues for 
the opportunity to testify, but also, more importantly, for 
your leadership, on a bipartisan and bicameral basis, to call 
attention to the genocide in Darfur and to make your leadership 
felt in the effort to try to end this.
    I would like to submit my entire testimony for the record 
and summarize it here.
    The Chairman. Without objection, the entire statement will 
be made part of the record.
    Dr. Rice. In spite of repeated threats, the so-called plan 
B, the Government of Sudan, as you pointed out, and as your 
colleagues pointed out, continues to kill with impunity. 
Khartoum still has not accepted U.N. troops as part of a hybrid 
force. The sad truth is, the United States continues to be 
taunted, and our conditions continue to be flaunted, by the 
Sudanese Government. Plan B is long past its sell-by date, and 
it's getting staler by the day.
    Why do you suppose, as you asked, that the administration 
is equivocating, it is temporizing? Why would it, yet again, 
issue threats to the Sudanese regime, and then fail to follow 
through on them? Well, I think we got a clue here this morning. 
I think there's real equivocation inside the administration as 
to whether or not we are witnessing a continuing genocide. It 
took nearly 2 hours for Mr. Natsios to acknowledge, under 
pressure, that, in fact, genocide continues to occur in Darfur. 
If you go back and look at the President's State of the Union 
Address when he mentioned Darfur, the word ``genocide'' was 
conspicuously absent.
    A related explanation is that the administration views 
what's going on in Darfur primarily as another civil conflict 
in Africa, and one that requires, principally, a political 
solution. As you pointed out, it's obvious that there are rebel 
groups operating in Darfur, that these groups have attacked 
civilians and peacekeepers, and that the splintering and 
disunity among these groups hampers political negotiations. 
It's also obvious that a long-term solution in Darfur will 
require political accommodation and reconciliation.
    But negotiations cannot end a genocide. Genocide is not a 
mere counterinsurgency tactic. Genocide results from the 
conscious decision of one party to a conflict to seek to 
eliminate, in whole or part, another group. This is the choice 
that the Sudanese Government has made in the context of Darfur, 
and there are only two ways to end a genocide, either to apply 
powerful enough pressures or incentives to persuade the 
perpetrators of genocide to stop, which we have not done, or to 
protect those who are the potential victims of genocide, 
physically protect them. A negotiated solution would do 
neither, though it's necessary, ultimately, to resolve the 
underlying conflict.
    Another explanation is that the administration simply does 
not have a coherent Darfur policy. In fact, the U.S. approach 
to the genocide in Darfur can be characterized as 
simultaneously anemic and constipated. The coming and going of 
deadlines, the shifting of personnel assignments, are all 
indicative of the fact that we have no comprehensive strategy 
for stopping the killing.
    This week, Deputy Secretary Negroponte is traveling to 
Khartoum and Libya and Chad to take yet another stab at 
negotiations with the Sudanese junta. Undoubtedly, Ambassador 
Negroponte will discover what Secretary Rice and Bob Zoellick 
and Jendayi Frazer and Andrew Natsios and Kofi Annan and 
Governor Richardson have all discovered before him, Khartoum's 
word means little or nothing. The Sudanese Government cannot be 
trusted to keep its promises, nor to take concrete action to 
stop the killing. And yet, while U.S. officials relearn old 
lessons, Khartoum is using diplomacy as a foil to continue the 
genocide.
    One has to wonder how the administration can explain to the 
dead, the nearly dead, and the soon-to-be dead people of Darfur 
that, at the end of the day, even after we declare that 
genocide is occurring, even after we repeatedly insist that 
we're committed to stopping it, the United States continues to 
stand by while the killing persists. This genocide has endured 
not for 100 days, not for 1,000 days, but for 4 long years, 
and, as has been pointed out, it's destabilizing Chad and the 
Central African Republic. The whole region is being enveloped.
    What we are witnessing, Mr. Chairman, is, in fact, part of 
a 3-year pattern. The administration talks tough, and then does 
little more than provide generous humanitarian assistance. It 
blusters, and then, in the face of Sudanese intransigence or 
empty promises, the administration retreats.
    Last August, the United States got U.N. authorization for a 
robust chapter 7 force, 22,000 peacekeepers with a mandate to 
protect civilians. In September, the President appointed Mr. 
Natsios and promised tough consequences if Khartoum didn't 
accept the U.N. force mandated by the Security Council. But 
then, in November, Mr. Natsios joined the United Nations, the 
African Union, and European leaders in preemptively 
capitulating to Khartoum. To win Sudan's acquiescence, the 
United States and others jettisoned the robust U.N. force and 
embraced a fallback, a smaller, weaker Africa Union/United 
Nations hybrid force. And then, in December, with us leading 
the way, the Security Council backed down and embraced the 
hybrid.
    Let's be plain about what we have lost in the process. The 
hybrid would be 17,000 troops, as opposed to the 22,000 that 
the United Nations proposed. The mandate would come from the 
African Union, which Khartoum readily manipulates. It would 
draw its troops primarily from Africa, but, overstretched by 
deployments to hotspots all over the continent, Africa has very 
little peacekeeping capacity to spare. The hybrid would have 
U.N. funding, but it would suffer from many of the same dual 
key problems that plagued the United Nations and NATO in the 
Balkans in the 1990s. Unfortunately, this hybrid is an ill-
conceived, shortsighted, and, in fact, failed expedient to 
appease, yet again, the perpetrators of genocide.
    This is, by any measure, a collective shame, and it's 
interesting that the American people know it, and Congress 
knows it. By all accounts, nobody likes it.
    A December Newsweek poll, as well as a poll released last 
week by the Program on International Policy Attitudes at the 
University of Maryland, found that 65 percent of Americans--65 
percent of Americans--support sending U.S. troops as part of an 
international force to Darfur.
    Mr. Chairman, the time for fruitless negotiations has long 
since passed. They're simply buying time for Khartoum to 
continue the killing. If the administration were serious about 
halting this 4-year-old genocide and protecting civilians in 
Darfur, it would act now to show Khartoum that we're done 
talking and we're ready to turn the screws.
    We should take four steps:
    Step one: The President should issue an executive order 
now, implementing all of the financial measures in plan B. The 
administration should couple these unilateral sanctions with a 
sustained push for tough U.N. sanctions, including those that 
target Sudan's oil sector. And we should dare China, or any 
other permanent member of the Security Council, to accept the 
blame for vetoing effective action to halt a genocide.
    Step two: The Bush administration should state clearly that 
these financial penalties will not be lifted unless, and until, 
the Sudanese Government permanently and verifiably stops all 
air and ground attacks, and allows the full and unfettered 
deployment of the U.N. force authorized in U.N. Security 
Council Resolution 1706. It's time to tell Khartoum that it has 
a simple choice: Accept the U.N. force, as mandated in that 
resolution, or face escalating U.S. pressure.
    Step three: This Congress should swiftly adopt new 
legislation on Darfur. That legislation should authorize the 
President to stop the genocide in Darfur, including by imposing 
a no-fly zone, bombing aircraft, airfields, and the regime's 
military and intelligence assets. It should authorize funds to 
upgrade the airfield in Abeche, in Chad, with the agreement of 
the Chadian Government, in order to support potential NATO air 
operations, facilitate a U.N. deployment to Chad and Darfur, 
and for humanitarian relief purposes. The legislation should 
urge the administration to press for the deployment of U.N. 
peacekeepers to Chad and Central African Republic and their 
borders. It should impose capital market sanctions on companies 
investing in Sudan. It should freeze Sudanese Government assets 
and those of key military, government, and Janjaweed leaders 
and their families, and prohibit their travel to the United 
States. And the legislation, importantly, should require the 
administration to report, every 30 days, in classified and 
unclassified form, on the military, financial, and covert steps 
it's prepared to take to compel the Government of Sudan to 
accept, unconditionally, a robust force.
    Step four: If within 15 days of the issuance of the plan B 
executive order, the Government of Sudan has failed to meet 
these basic conditions, the Bush administration should be 
prepared to use force. The purpose of the use of force would be 
to compel Khartoum to accept the robust U.N. force and stop 
killing civilians.
    What I wrote 6 months ago with Anthony Lake and Congressman 
Donald Payne in the Washington Post, I'm afraid still applies 
today, many lives later. We said it's time, again, to get tough 
with Sudan. The United States should press for a chapter 7 U.N. 
resolution that issues Sudan an ultimatum: Accept the 
unconditional deployment of the U.N. force or face military 
consequences. The resolution would authorize enforcement by 
U.N. member states, collectively or individually. The United 
States, preferably with NATO involvement and African political 
support, would strike Sudanese airfields, aircraft, and other 
military assets. International military pressure would continue 
until Sudan relents. And then the U.N. force would deploy. If 
the United States fails to gain U.N. support, we should act 
without it, as we did in 1999 in the case of Kosovo, to 
confront a far lesser humanitarian crisis, when perhaps about 
10,000 people had already died, as opposed to the estimated 
450,000 who have died in Darfur.
    So, the real question--the moral question--is this: Will we 
use force to save Africans in Darfur, as we did to save 
Europeans in Kosovo?
    Now, I know, Mr. Chairman, that this is a controversial 
proposal. There are many good reasons that people have offered 
to shy away from the use of force.
    Some argue that using force in the current political 
context is untenable, particularly against another Islamic 
government. Some will reject it, even if the objective of the 
use of force is to save innocent Muslim lives.
    Others say, ``We can't possibly take on another military 
mission, we're overstretched.'' True. But what we're proposing 
would involve primarily the Air Force, which has relatively 
more capacity than other branches of our services.
    Others say that, without the consent of the United Nations 
or a relevant regional body, we'd be breaking international 
law. But recall that the Security Council, last year, codified 
a new international norm on the responsibility to protect, 
which committed member states to decisive action, including 
enforcement, when peaceful measures fail to halt genocide or 
crimes against humanity.
    Now, some advocates prefer the imposition of a no-fly zone. 
And I want to say that that is a very viable and legitimate 
option. Some seem to view it as a less aggressive option than 
bombing Sudanese assets. But let's be clear what a no-fly zone 
entails. Maintaining a no-fly zone would require an asset-
intensive, 24-hour-a-day, 7-day-a-week, open-ended military 
commitment in a logistically difficult context. To protect the 
no-fly area, the air CAP would have to disable or shoot down 
any aircraft that took off in the zone. It would mean shutting 
down Sudanese airfields in and near Darfur to all but 
humanitarian traffic. In short, it would require, very soon, 
many of the same steps that are necessary to conduct the air 
strikes we recommend, and then some. So, while I think it's a 
fine option, I'm not sure it's a lesser option.
    And, finally, humanitarian organizations have expressed the 
concern that air strikes could disrupt humanitarian operations 
or cause the Sudanese Government to intensify attacks on the 
ground against civilians in camps. Now, this is a very 
legitimate concern. But there are ways to mitigate these risks. 
The targets could be selected to avoid airfields used by 
humanitarian agencies in Darfur. To protect civilians at risk, 
the United States and other NATO countries could position a 
light quick-reaction force in Chad to deter and respond to any 
increased attacks on camps in Darfur or Chad. And, while the 
risks may be mitigated, we have to acknowledge that they can't 
be eliminated.
    Yet, we also have to acknowledge the daily cost of the 
status quo, of a feckless policy characterized by bluster and 
retreat. That cost has been, and will continue to be, thousands 
and thousands and thousands more lives each month, and other 
thousands more as we wait for 2 to 4 more weeks for Ban Ki-moon 
to exhaust his diplomacy. That is a cost--the other cost is a 
regime--the Khartoum regime--that has literally gotten away 
with murder while the United States merely remonstrates.
    I would submit, Mr. Chairman, Senator Lugar, that that cost 
is too high. Too many people have already died. Too many more 
are soon to die. It leaves one wondering when, if ever, the 
Bush administration will decide that enough is finally enough.
    Thank you.
    [The prepared statement of Dr. Rice follows:]

Prepared Statement of Hon. Susan E. Rice, Senior Fellow, Foreign Policy 
  Studies and Global Economy and Development Programs, The Brookings 
                      Institution, Washington, DC

    Mr. Chairman, distinguished members of the committee, thank you for 
the opportunity to testify on the vitally important issue of the 
escalating crisis in Darfur. Let me also take this opportunity to thank 
you, Mr. Chairman, and many of your colleagues in both Houses and on 
both sides of the aisle for your committed leadership in trying to halt 
the ongoing genocide in Darfur. I commend your efforts to enable all 
the people of Sudan to live in peace, free from persecution on the 
basis of their race, religion, or ethnicity. You have every reason to 
be proud of your record on this issue, and many of us are counting on 
you to continue to lead to save innocent lives.
                            where's plan b?
    I feel compelled to begin with a simple observation: Today is the 
11th of April, 2007. The genocide in Darfur has lasted 4 years and 
counting. An estimated 450,000 people are dead. More than 2.5 million 
have been displaced or rendered refugees. Every day, the situation 
worsens. One hundred and one days have come and gone since the 
expiration of the very public deadline the President's Special Envoy 
Andrew Natsios set at my very own Brookings Institution. Last year, on 
November 20, Natsios promised that harsh consequences would befall the 
Government of Sudan, if by January 1, 2007, it failed to meet two very 
clear conditions. First, Khartoum must accept unequivocally the full 
deployment of a 17,000 person United Nations-African Union ``hybrid'' 
force. And, second, it must stop killing innocent civilians.
    In spite of this threat--the so-called ``plan B''--the Government 
of Sudan continues to kill with impunity. Khartoum still has not 
accepted U.N. troops as part of a hybrid force. Bashir sent a letter 
late last December to Kofi Annan implying his acquiescence to U.N. 
troops--but offering no explicit acceptance. The next day Sudan's 
Ambassador to the United Nations ruled out any U.N. forces. Sudan keeps 
playing this bait and switch game to its advantage, and the United 
States keeps being played. And, still, no plan B.
    In early February, the Washington Post reported, and Natsios 
confirmed, a leaked story that the President had finally approved 
``plan B''--a three-stage punitive package that could begin with the 
United States blocking Sudan's oil revenue. This ``plan B'' should have 
been implemented swiftly, not leaked. This kind of leak gives Sudan 
advance warning, enabling it to try to evade sanctions.
    Still, it remains unclear what the ``three tiers'' of the 
administration's plan B are. In testimony in February before the House 
Committee on Foreign Affairs, Special Envoy Natsios revealed nothing of 
the substance or timing of plan B. One cannot help but wonder: Is there 
any beef behind the administration's repeated threats? We have no idea 
if the promised penalties will ever be implemented and, if so, whether 
they would be powerful enough to change Khartoum's calculus.
    The sad truth is: The United States continues to be taunted, and 
our conditions continue to be flaunted by the Sudanese Government. Plan 
B is long past its sell-by date and getting staler by the day.
    In January, a bipartisan group of 26 U.S. Senators wrote to 
President Bush saying ``We appreciate your administration's efforts at 
aggressive diplomacy and negotiation, but it seems clear that the 
Sudanese are not responding to such tactics.'' The Senators insisted 
``. . . the time has come to begin implementing more assertive 
measures.''
    In March, a bipartisan group of 31 Senators reiterated the call for 
action in another letter to President Bush urging that the 
administration ask the U.N. Security Council to impose sanctions on the 
Sudanese Government. Many members of this committee correctly argued 
that ``a threatened veto should not silence us'' and that we should 
``let a country stand before the community of nations and announce that 
it is vetoing the best effort we can muster to build the leverage 
necessary to end ongoing mass murder.'' Yet, to date, the Bush 
administration has failed to press for tough action against the 
Sudanese Government at the U.N. Security Council.
    Worse still are this administration's diversionary tactics--
recently asserting that Sudan had accepted, in principle, so-called 
Phase III--the full deployment of the hybrid force, including its U.N. 
elements. In fact, the Sudanese made no such clear commitment, not even 
in principle. The State Department's spokesman said some weeks ago that 
the administration will defer further consideration of any punitive 
measures until after the United Nations is ready to deploy all its 
forces for the hybrid mission. In other words, the new due date for 
consideration of plan B, may be months away at the earliest, and may 
occur only if the Sudanese block deployment of U.N. forces once they 
are fully ready to go.
    In testimony before the Senate in February, Secretary Rice went 
even further in ratcheting down the pressure on Khartoum. In response 
to you, Mr, Chairman, when you said ``I think we should use force now 
and we should impose [a no-fly zone],'' Secretary Rice took the option 
of unilateral U.S. military action off the table, noting its 
``considerable downsides.'' She made no mention of the ``considerable 
downsides'' of allowing genocide to continue unabated.
    Perhaps that is because the administration appears to have reversed 
itself and decided that genocide is not happening in Darfur. Quoted in 
the Georgetown Voice, Natsios told a student group that: ``The ongoing 
crisis in Darfur is no longer a genocide situation'' but that 
``genocide had previously occurred in Darfur.'' President Bush 
conspicuously failed to use the term ``genocide'' when speaking of 
Darfur in his latest State of the Union Address. Such language games 
shock the conscience, especially given recent escalating attacks on 
civilians and aid workers.
    Reflect on what's at stake. If any progress at all has been made on 
the subject of Darfur, it is that we in the United States have gotten 
past the debate about whether this is, or is not, a genocide. To 
regress, to reopen this issue, is to further slow-roll any action, to 
reduce any sense of urgency, and to allow more and more people to 
continue dying. Make no mistake: Darfur has been a genocide. It 
continues to be a genocide. And unless the United States leads the 
world in halting the killing, it will remain a genocide.
    Why do you suppose the administration is equivocating and 
temporizing? Why would it reopen old debates? Why would it, yet again, 
issue threats to the Sudanese regime and fail to follow through on 
them? What damage is done to our interests, to our credibility, to our 
already diminished international standing by the administration's 
seemingly empty threats?
    One possible explanation is that the administration accepts 
Khartoum's line that what is occurring in Darfur is a complex civil 
conflict that requires primarily a political solution. It is obvious 
that there are rebel groups operating in Darfur, that these groups have 
attacked civilians and peacekeepers, and that the splintering and 
disunity amongst these groups hampers political negotiations. It is 
also obvious that a long-term solution in Darfur will require political 
accommodation and reconciliation.
    However, negotiations cannot end a genocide: Genocide is not a mere 
counterinsurgency tactic. Genocide results from the conscious decision 
of one party to a conflict to seek to eliminate another distinct group 
in whole or in part. This is the choice the Sudanese Government made in 
the case of Darfur. There are only two ways to end a genocide: To apply 
powerful enough pressures or inducements to persuade the perpetrators 
of genocide to stop; or to protect those who are the potential victims 
of genocide. A negotiated solution would do neither, though it is 
necessary, ultimately, to resolve the underlying conflict.
    Yet, diplomacy takes time. Political negotiations require patience, 
coordinated pressure and energetic diplomacy married with the credible 
threat of powerful sanctions and the use of force. While the 
administration negotiates without credibly threatening more powerful 
action, Khartoum continues the killing at an alarming pace. America's 
principal priority in Darfur must be to stop the suffering and killing, 
and to do so quickly.
    Another explanation for the administration's dithering is that they 
simply do not have a coherent Darfur policy. In fact, the U.S. approach 
to the genocide in Darfur has been simultaneously anemic and 
constipated. The coming and going of deadlines and the shifting 
personnel assignments are indicative of the fact that we have no 
comprehensive strategy for stopping the killing.
    This week, Deputy Secretary Negroponte is traveling to Khartoum to 
take yet another stab at negotiations with the Sudanese junta. 
Undoubtedly, Ambassador Negroponte will learn for himself what Condi 
Rice, Robert Zoellick, Jendayi Frazer, Andrew Natsios, Kofi Annan, and 
Bill Richardson have discovered all before him: Khartoum's word means 
nothing. The Sudanese Government cannot be trusted to keep its promises 
nor to take concrete steps to end the killing. Yet, while U.S. 
officials relearn old lessons, Khartoum is using diplomacy as a foil to 
continue the genocide.
    How can the administration explain to the dead, the nearly dead, 
and the soon to be dead people of Darfur that, at the end of the day--
even after we declare that genocide is occurring, even after we insist 
repeatedly that we are committed to stopping it--the United States 
continues to stand by while killing persists. This genocide has endured 
now, not for 100 days, not for 1,000 days, but for 4 long years.
    In January, the United Nations reported that the situation in 
Darfur was deteriorating rapidly. December 2006 was the worst month in 
Darfur in over 2 years. This nadir followed 6 months of escalating 
violence--a period which coincided with Khartoum's bid to expel the 
African Union force, to block the U.N. deployment and to throw its 
killing machine into high gear. Rebel activity has also increased, and 
their violence is harming civilians and humanitarian agents. In those 6 
months: 30 humanitarian compounds suffered attacks; 12 aid workers were 
killed, and over 400 were forced to relocate. On December 18, four aid 
organizations were attacked at a massive refugee camp housing 130,000 
at Gereida in South Darfur. All humanitarian operations there ceased, 
and innocent people went weeks without food shipments. Sudanese 
aircraft have attacked rebel-held areas and killed many innocent 
civilians.
    At the same time, the fighting in Darfur is destabilizing 
neighboring Chad and Central African Republic. Khartoum has backed 
rebels that seek to overthrow these governments. Indeed, this past 
week, 65 people were killed and 70 wounded by Janjaweed militias in 
Chad. U.N. Under Secretary General for Humanitarian Affairs John Holmes 
reported last week that, since the fall of 2006, the number of 
displaced persons in eastern Chad has risen from 50,000 to 140,000; the 
number of displaced people in the northeast of the Central African 
Republic has grown from 50,000 to 212,000. The UNHCR is now reporting 
that refugees from Chad are actually spilling into Darfur. The security 
situation along these borders is so bad that the United Nations is 
reluctant to deploy forces there without an effective cease-fire.
    The administration has been slow to recognize the impending 
collapse in Chad and CAR. The administration's FY 2008 budget request 
includes a scant $100,000 of assistance for the Central African 
Republic, this is a decrease from FY 2006's meager $670,000 
appropriation. The requests for Chad are somewhat more robust--totaling 
$5.3 million, most of which is food aid; however neither country is 
likely to receive the money to avert worsening political, security, and 
humanitarian conditions. The U.N.'s John Holmes estimates that the 
United Nations will require $174 million for humanitarian assistance in 
Chad and $54 million in the Central African Republic. While this will 
require a global effort, the United States should be leading efforts to 
provide this money.
    As the humanitarian situation in these countries worsens, I begin 
to worry that, in the absence of swift action to stop the genocide in 
Darfur and stabilize the region, we may be forced to change the 
advocacy campaigns from ``Save Darfur'' to ``Save Central Africa.'' I 
commend Senator Feingold and others who introduced Senate Resolution 
76, which calls on the administration to press for a U.N. force on the 
Chadian side of the border and to ``develop, fund, and implement a 
comprehensive regional strategy in Africa to protect civilians, 
facilitate humanitarian operations, contain and reduce violence, and 
contribute to conditions for sustainable peace in eastern Chad, the 
Central African republic, and Darfur.'' As you recognize, the 
disastrous implications of another round of cancerous violence spilling 
from one country to another are too numerous to catalog here. At the 
same time, we cannot allow the search for a comprehensive political 
solution to a complex regional crisis to slow us from stopping the 
ongoing genocide in Darfur. Both efforts must proceed in tandem, but 
the stopping of mass murder must be the most urgent task.
                          bluster and retreat
    Instead, what we are witnessing is part of a 3-year pattern: The 
administration talks tough and then does little more than provide 
generous humanitarian assistance. It blusters and, then, in the face of 
Sudanese intransigence or empty promises, the administration retreats.
    When the rebels started fighting in Darfur in February 2003, the 
administration at first chose to ignore it. Despite the rampaging 
reprisals of Janjaweed killers and rapists, the torching of whole 
villages, the wanton bombing of innocent civilians and massive 
humanitarian suffering, the administration was slow to act. It seems to 
have calculated that pressing the Government of Sudan to halt its 
customary scorched earth tactics in Darfur ran counter to our interests 
in getting Khartoum's cooperation on counterterrorism, which began 
abruptly after September 11, 2001. Confronting the genocide, the 
administration calculated, might also jeopardize U.S. efforts to cajole 
the regime to sign a north-south peace agreement with the SPLM.
    But by 2004, the human toll was mounting. On the 10th anniversary 
of the Rwandan genocide, many noted the contrast between the hollow 
pledges in many capitals of ``never again'' and the dying in Darfur. 
With, a Presidential campaign underway, Congress and Democratic 
candidates went on the record characterizing the atrocities as 
genocide. This prompted the administration to decide, belatedly, that 
its comparative silence was deafening. Secretary Powell and Kofi Annan 
visited Darfur and obtained hollow promises from Bashir that his 
Government would disarm the Janjaweed, allow unfettered humanitarian 
access and permit an African Union force to deploy.
    Yet, predictably, the killing and dying continued. Over the summer 
of 2004, Secretary Powell ordered a comprehensive investigation of the 
atrocities, drawing upon hundreds of firsthand accounts from victims 
and witnesses. Faced with the evidence, Secretary Powell embraced the 
investigators conclusions: Genocide was taking place. To his credit, he 
testified that effect, and the President in September powerfully 
repeated that judgment before the U.N. General Assembly. But then, 
again, the administration did nothing effective to stop the killing.
    With Western encouragement, the African Union mounted its first 
ever peacekeeping mission--in Darfur. To seasoned analysts, this 
approach was clearly flawed from the start: The nascent AU could not 
hope to secure millions of people at risk in an area the size of 
France. Hobbled by a weak mandate, perpetual troop shortages, an 
uncertain funding stream, and little institutional backup at a brand 
new regional organization, the AU was bound to fall short, despite its 
best intentions. It was slow to deploy, but deploy it did--with U.S. 
and NATO logistical and financial support.
    The African Union has been the target of a lot of criticism for its 
shortcomings in Darfur. I think unfairly so. While the United States 
blusters, the African Union forces have been the only ones willing to 
take bullets to save Darfurians. Just this past month 5 Senegalese 
soldiers died guarding a water point in Darfur, this brought the total 
number of AU soldiers killed in Darfur since 2004 to 15. These 
courageous soldiers are part of a force that has deployed without 
adequate international support and under constant restrictions imposed 
by Khartoum. They have saved thousands of lives and we owe them our 
honor and gratitude. Their presence also provided the United States 
with a ready, if cynical, foil for declaring the genocide under 
control. It wasn't.
    By 2005, the AU finally fielded almost 7,000 troops. It pledged to 
add another 6,000 within a year. It couldn't. By then, it was obvious 
to all: The African Union was in over its head. Many experts, I among 
them, pled for NATO to step in, with U.S. support, to augment the AU 
force. Those calls went unheeded. Certain African leaders continued to 
insist on ``African solutions to African problems.'' It was a 
convenient conspiracy of absolution, which enabled Washington to claim 
that further U.S. action was not desired. The Africans were 
responsible. But genocide is not and never will be an African 
responsibility. It is a human responsibility, requiring the concerted 
efforts of all humanity to halt decisively. To date, we have not.
    In 2005, Secretary Rice visited Darfur, and Deputy Secretary 
Zoellick began took over the U.S. negotiating effort. In early 2006, 
the AU itself accepted reality and recommended that the U.N. subsume 
its force and take over its mission. In parallel, Mr. Zoellick was 
trying to nail a peace agreement before he left the State Department. 
His efforts culminated in May 2006, in the signing of the Darfur Peace 
Agreement (DPA).
    This deal was doomed before the ink on it was dry. It left out two 
key rebel groups. The one that signed did so under extreme duress--one 
day after its leader's brother was killed by the regime. Moreover, 
Khartoum made little in the way of power-sharing concessions to the 
rebels; there was no firm requirement that the Government accept a U.N. 
peacekeeping force. There were rewards secretly pledged for Khartoum 
like the lifting of U.S. sanctions and a White House visit, but no 
penalties for noncompliance. As many feared, the cease-fire collapsed 
almost immediately. The rebels fractured. The killing intensified, and 
the people of Darfur suffered more.
    After Zoellick left State, U.S. policy foundered. But, by late 
August 2006, it seemed back on track. The United States obtained U.N. 
authorization for a robust Chapter VII force for Darfur--22,000 
peacekeepers with a mandate to protect civilians. In September, 
President Bush and Secretary Rice visited the U.N. General Assembly. 
They appointed Andrew Natsios Special Envoy and promised tough 
consequences, if Khartoum did not accept the U.N. force mandated by 
U.N. Security Council Resolution 1706.
    Mr. Natsios went to work. By November in Addis Ababa, he had joined 
the United Nations, African Union, and European leaders in preemptively 
capitulating to Khartoum. In an effort to win Sudan's acquiescence, the 
United States and others jettisoned the robust U.N. force and embraced 
a fall-back: A smaller, weaker, AU-U.N. ``hybrid'' force. In December, 
the U.N. Security Council, with the United States leading the way, 
abandoned Resolution 1706 and endorsed the Addis agreement.
    This hybrid force is to be 17,000 troops versus the 22,000 called 
for in United Nations Resolution 1706. It would derive its mandate from 
the African Union, which Khartoum readily manipulates. It is to draw 
its troops principally from Africa. But overstretched by deployments to 
hotspots all over the continent, Africa has very little peacekeeping 
capacity to spare. The hybrid would enjoy U.N. funding but suffer from 
the same ``dual-key'' problems that plagued the United Nations and NATO 
in the Balkans in the 1990s.
    One of the greatest shortcomings of the hybrid force is that each 
and every aspect of it must be negotiated by all the parties involved. 
As negotiations persist, people in Darfur die. On March 29 at the Arab 
League Summit in Riyadh, U.N. Secretary General Ban Ki-Moon reportedly 
won Khartoum's acceptance in principle of phase two of the UN-AU 
deployment. On Monday, experts from the United Nations met with 
Sudanese officials and appear to have worked out terms for deploying 
the U.N. ``heavy support package,'' but not the hybrid force itself. 
Secretary Ban plans to meet with AU Chief Executive Alpha Oumar Konare 
on April 16 to discuss how to move forward. In the interim, innocent 
civilians remain at grave risk without adequate protection. While 
Secretary Ban's diplomatic efforts are laudable, they have far fallen 
short of delivering what is so urgently needed a robust international 
force, led by the United Nations that is capable of stopping the 
genocide in Darfur.
    In reality, the ``hybrid'' is an ill-conceived, short-sighted and 
failed expedient to appease, yet again, the perpetrators of genocide. 
How perverse is it that the United States is expending all of its 
diplomatic capital politely negotiating the terms of a hybrid force 
that falls well short of what is needed to halt the genocide?
    As the back and forth with Sudan persists, U.S.-imposed deadlines 
have come and gone. Khartoum continues to lead the international 
community through a diplomatic dance that defies definition. Darfurians 
continue to die. Chadians continue to die. The region is coming 
unglued.
    This is, by any measure, a collective shame. The American people 
know it. And, by all accounts, they don't much like it. A December 
Newsweek poll as well as a PIPA poll released last week found that 65 
percent of Americans support sending U.S. troops, as part of an 
international force, to Darfur.
                            the way forward
    The time for fruitless and feckless negotiations has long since 
passed. However well-intentioned the mediators, negotiations only serve 
Khartoum's interests--in diverting international attention and delaying 
meaningful international action. They buy Khartoum time to continue the 
killing.
    If the administration were serious about halting this 4-year-old 
genocide and protecting civilians in Darfur, it would act now to show 
Khartoum that we are done talking and are ready to turn the screws.
    We should take the following four steps:
    Step One: The President should issue an executive order 
implementing the financial measures in plan B immediately. The order 
should include safeguards to ensure that revenue flows to the 
Government of South Sudan remain unaffected. Given the leak of plan B, 
the President should act now or risk squandering the potentially 
significant impact of these measures. The administration should couple 
unilateral sanctions with a sustained push for tough U.N. sanctions, 
including those that target the oil sector. The United States should 
then dare China or another permanent member to accept the blame for 
vetoing effective action to halt a genocide.
    Step Two: The Bush administration should state clearly that these 
financial penalties will not be lifted unless and until the Sudanese 
Government permanently and verifiably stops all air and ground attacks 
and allows the full and unfettered deployment of the U.N. force 
authorized under UNSC Resolution 1706. The United States should declare 
the so-called ``hybrid'' force dead and take it off the negotiating 
table. The hybrid was an unfortunate concession to Khartoum, which 
Khartoum has been foolish enough not to embrace. It's time to tell 
Khartoum that it has a simple choice: Accept the U.N. force as mandated 
by Resolution 1706 or face escalating pressure from the United States.
    Step Three: The 110th Congress should swiftly adopt new legislation 
on Darfur. It should build upon a bill introduced in the last Congress 
by Representative Payne, which garnered the bipartisan support of over 
100 cosponsors. The new legislation should:

  <bullet> Authorize the President to stop the genocide in Darfur, 
        including by imposing a no-fly zone, bombing aircraft, 
        airfields and the regime's military and intelligence assets.
  <bullet> Authorize funds to upgrade Abeche Airfield in Chad, with the 
        agreement of the Government of Chad, in order to support 
        potential NATO air operations, to facilitate a U.N. deployment 
        to Chad and Darfur, and for humanitarian purposes.
  <bullet> Urge the administration to press for the deployment of U.N. 
        peacekeepers to the borders of Chad and the Central African 
        Republic to protect civilians and serve as advance elements for 
        the U.N. force in Darfur authorized under UNSCR 1706.
  <bullet> Impose capital market sanctions on companies investing in 
        Sudan.
  <bullet> Freeze the Sudanese Government assets and those of key 
        Sudanese military, government, and Janjaweed leaders and their 
        families. Prohibit their travel to the United States.
  <bullet> And, require the administration to report every 30 days (in 
        unclassified and classified form) on the financial, military, 
        and covert steps it is prepared to take to compel the GOS to 
        accept unconditionally a robust U.N. force and halt attacks on 
        civilians.

    Step Four: If within 15 days of the issuance of the ``plan B'' 
executive order, the Government of Sudan has failed to meet these 
conditions, the Bush administration should use force to compel Khartoum 
to admit a robust U.N. force and stop killing civilians.
    What I wrote with Anthony Lake and Donald Payne in the Washington 
Post on October 2, 2006, still applies 6 months, and thousands of lives 
later:

          History demonstrates there is one language Khartoum 
        understands: The credible threat or use of force. It's time 
        again to get tough with Sudan. The United States should press 
        for a Chapter VII U.N. resolution that issues Sudan an 
        ultimatum: Accept the unconditional deployment of the U.N. 
        force within 1 week, or face military consequences. The 
        resolution would authorize enforcement by U.N. member states, 
        collectively or individually. International military pressure 
        would continue until Sudan relents. The United States, 
        preferably with NATO involvement and African political support, 
        would strike Sudanese airfields, aircraft, and other military 
        assets. They could blockade Port Sudan, through which Sudan's 
        oil exports flow. Then, the U.N. force would deploy--by force, 
        if necessary, with U.S. and NATO backing.
          If the United States fails to gain U.N. support, we should 
        act without it as it did in 1999 in Kosovo--to confront a 
        lesser humanitarian crisis (perhaps 10,000 killed) and a much 
        more formidable adversary. The real question is this: Will we 
        use force to save Africans in Darfur as we did to save 
        Europeans in Kosovo?

    Not surprisingly, our proposal has been controversial.
    Some argue that it is unthinkable in the current context. True, the 
international climate is less forgiving than it was in 1999 when we 
acted in Kosovo. Iraq and torture scandals have left many abroad 
doubting our motives and legitimacy. Some will reject any future U.S. 
military action, especially against an Islamic regime, even if purely 
to halt genocide against Muslim civilians. Sudan has also threatened 
that al-Qaeda will attack non-African forces in Darfur--a possibility 
since Sudan long hosted bin Laden and his businesses. Yet, to allow 
another state to deter the United States by threatening terrorism would 
set a terrible precedent. It would also be cowardly and, in the face of 
genocide, immoral.
    Others argue the U.S. military cannot take on another mission. 
Indeed, our ground forces are stretched thin. But a bombing campaign or 
a naval blockade would tax the Air Force and Navy, which have 
relatively more capacity, and could utilize the 1,500 U.S. military 
personnel already in nearby Djibouti.
    Still others insist that, without the consent of the United Nations 
or a relevant regional body, we would be breaking international law. 
But the Security Council last year codified a new international norm 
prescribing ``the responsibility to protect.'' It commits U.N. members 
to decisive action, including enforcement, when peaceful measures fail 
to halt genocide or crimes against humanity.
    Some advocates prefer the imposition of a no-fly zone over Darfur. 
They seem to view it as a less aggressive option than bombing Sudanese 
assets. It is a fine option, but let's be clear what it likely entails. 
Rather than stand-off air strikes against defined targets, maintaining 
a no-fly zone would require an asset-intensive, 24 hours per day, 7 day 
per week, open-ended military commitment in a logistically difficult 
context. To protect the no-fly area, the air cap would have to disable 
or shoot down any aircraft that took off in the zone. It would mean 
shutting down Sudanese airfields in and near Darfur to all but 
humanitarian traffic. In short, it would soon require many of the same 
steps that are necessary to conduct the air strikes we recommend, plus 
much more.
    Finally, humanitarian organizations express concern that air 
strikes could disrupt humanitarian operations or cause the Government 
of Sudan to intensify ground attacks against civilians in camps. These 
are legitimate concerns.
    Yet, there are ways to mitigate these risks. Targets could be 
selected to avoid airfields used by humanitarian agencies operating in 
Darfur. To protect civilians at risk, the United States, France, or 
other NATO countries could position a light quick reaction force in 
nearby Chad to deter and respond to any increased attacks against camps 
in Darfur or Chad. While the risks may be mitigated, we must 
acknowledge they cannot be eliminated.
    Yet, we must also acknowledge the daily cost of the status quo--of 
a feckless policy characterized by bluster and retreat. That cost has 
been and will continue to be thousands and thousands and thousands more 
lives each month. That cost is an emboldened Khartoum government that 
continues to kill with impunity. That cost is a regime that literally 
has gotten away with murder, while the United States merely 
remonstrates.
    I would submit that this cost is too high. Too many have already 
died. Too many more are soon to die. When, if ever, will the Bush 
administration decide that enough is finally enough?

    The Chairman. Thank you very much.
    I'm embarrassed, I forget who I--excuse me--next, if you 
would, Dr. Rossin.

  STATEMENT OF HON. LAWRENCE G. ROSSIN, SENIOR INTERNATIONAL 
       COORDINATOR, SAVE DARFUR COALITION, WASHINGTON, DC

    Ambassador Rossin. Thank you very much, Mr. Chairman, for 
having invited me to testify today. And I want to thank you and 
Senator Lugar and all the members of the committee, as did 
Susan, for your determined oversight on Darfur.
    With your permission, I'll make brief oral remarks, and 
I'll submit my longer statement for the record.
    The Save Darfur Coalition groups over 180 faith-based, 
human-rights, and community organizations from all over the 
United States, from Indiana and everywhere. Together, we have 
worked for nearly 3 years toward one overriding goal: To end 
the genocide in Darfur. That commitment inspires my engagement. 
But I also speak today from professional experience as an 
American diplomat, a career ambassador, with a career in 
conflict resolution in Grenada, Haiti, Bosnia, Kosovo, Iraq, 
and Afghanistan, and as a former deputy head of U.N. 
peacekeeping missions in Kosovo and in Haiti.
    Regrettably, while our coalition has made great strides in 
building awareness and mobilizing activism--Susan just cited 
the polling evidence of that--our efforts has had very little 
effect on the ground, where it counts, for the people of 
Darfur. After 4 years, after 1,200 destroyed villages, after 
400,000 people dead, after 2.5 million internally displaced, 
after $1.4 million out of the reach of humanitarian assistance, 
and another 200,000-plus driven into Chad as refugees, the 
regime in Khartoum continues to pursue a scorched-earth 
campaign of death and displacement against the people of 
Darfur, and it enjoys near total impunity as it does that.
    Today, President al-Bashir is more adamant than ever. U.N. 
peacekeepers will not ever set boots on the ground in Darfur, 
and I'm very, very skeptical of this ``heavy support package'' 
deal that Mr. Natsios described to us today. The U.N. agencies 
continue to raise the alarm about their shrinking ability to 
maintain the aid that sustains those hundreds of thousands of 
Darfurians that are living in misery. Hardly a day goes by now 
without a reiterated warning of looming humanitarian collapse, 
repeated defiance from President al-Bashir and his officials, a 
new report of atrocity, another Janjaweed incursion in Chad.
    Diplomacy alone patently has failed. For 4 years, a 
seemingly endless parade of envoys has visited Khartoum, each 
carrying a message, rarely coordinated with others, many 
wielding threats, others wielding assurances of protection 
against those threats, some proffering rewards for good 
behavior. It's total incoherence, and it's completely 
ineffective.
    The Sudanese regime has used these visits and differences 
to buy time for its genocide. Envoys have been played off 
against each other while their threats have gone unfulfilled. 
The regime has concluded that it can act as it wishes, and who 
of us can argue otherwise, with the evidence to hand?
    Mr. Natsios really described, today, no substantive 
progress on any of the key issues that dog this issue. The past 
4 years are a graveyard of failed persuasive diplomacy, as much 
as they're a graveyard of 400,000 innocent Darfurians.
    We were really hopeful, Mr. Chairman, Senator Lugar, when 
we learned, from administration contacts, several weeks ago 
now, that the President had finally had it, and that some 
really tough new targeted sanctions, this plan B, were actually 
coming. We were told it was just a matter of scheduling the 
announcement. We were encouraged when, after having been 
stiffed again by President
al-Bashir a few weeks ago, Special Envoy Natsios told many of 
us, in conference calls, that these sanctions were imminent. We 
were even more pleased when we learned that one foreign 
ambassador had been told that the President had actually signed 
the documents.
    Frankly, Mr. Chairman, we thought that today's hearing 
would be taking place in the context of just announced plan B 
sanctions, and we would be discussing how to ensure their 
effective implementation. Everything we heard gave us cause to 
expect that. But not now.
    I just listened to Mr. Natsios's testimony, but I have to 
note that, only last week, he was quoted in the press as 
publicly rejecting Secretary General Ban's call for more time 
for deferral of mandatory sanctions so that his diplomacy could 
have more time. I heard him talk about the CODEL that went to 
Khartoum.
    But I think what we're seeing here is that the U.S. 
Government itself has decided, for its own reasons, to defer 
its own sanctions plan so that it, itself, can make yet another 
diplomatic try. We respect that effort. We don't question the 
sincerity of those undertaking it. But, after years of Sudanese 
evasion and genocide, we have to say we are profoundly 
disappointed by this.
    The people of Darfur need our strong support now. The stark 
mismatch between tough talk and weak action has to end now, 
before more die and more are displaced. We are very skeptical 
that the limited plan B sanctions that we've heard about would 
be enough to end the genocide, but at least they'd be 
something, and we'd like to see them announced now. And we'd 
urge that this committee ride the administration hard to get 
going.
    Experience from the Balkans, from Iran and North Korea, and 
even from Sudan itself on earlier issues before today, teach us 
that diplomacy must be coupled with strong coercive measures, 
enough to change calculations so that ending a policy of mass 
murder in Darfur becomes cheaper for Khartoum than pursuing 
that policy. Otherwise, this tragedy, Mr. Chairman, will surely 
worsen.
    Were we today discussing newly announced plan B sanctions, 
then I would be making the following points:
    Above all, the President--the President of the United 
States, President Bush himself--would have to exercise strong 
personal leadership to ensure full and prompt sanctions 
enforcement by the bureaucracy. It won't happen with anything 
less.
    Second, with regard to the unilateral U.S. sanctions, which 
we understand primarily would be aimed to choke off dollar-
denominated transactions that benefit the government, that 
would mean several things. The President himself would have to 
direct the Secretary of Treasury to have the Office of Foreign 
Assets Control beef up its staff devoted to Sudan sanctioned 
enforcement. There's hardly anybody doing it now. He would have 
to order the intelligence community actively to support the 
enforcement of those sanctions. There's no task force in the 
intelligence community on this now. He would have to instruct 
his Cabinet to create and empower interagency task forces to 
manage this enforcement. And he would have to appoint a Sudan 
sanctions enforcement chief, one that had a very, very short 
communications chain to him personally, to drive the 
interagency process, because it won't work otherwise.
    And, frankly, I just say, Mr. Chairman and Senator Lugar, I 
found it stunning to hear Mr. Natsios, in his testimony just 
now, talk about part of plan B being actually setting up 
mechanisms to enforcing--implement sanctions that have been on 
the books for more than 2 years now. That's ridiculous.
    For the multilateral U.N. measures, that would mean the 
President instructing his foreign policy team first to obtain a 
strong Security Council resolution mandating global sanctions, 
and then to build an international coalition for their 
enforcement, with a dedicated envoy to lead that process. 
That's what happened on Yugoslavia. That's what would be needed 
for Sudan. None of it exists now.
    Regrettably, Mr. Chairman, we find ourselves still at the 
stage of calling for meaningful measures at all. After the 
latest rounds of diplomacy have failed--I hope I'm too 
pessimistic, but somehow I doubt it--we must demand that such 
sanctions finally be imposed. Presuming your intense oversight 
to ensure vigorous enforcement of such sanctions, then time 
will be needed to assess their effectiveness. But, we would 
urge, not too much time. The people of Darfur cannot survive 
new months and months of, ``Now let's see what happens.''
    I also must stress, Mr. Chairman, that there are other 
measures available now to this administration. Plan B would 
have more prospect of success were the administration to heed 
your and our repeated calls for a full suite of coercive steps, 
including a no-fly zone and denying ships that carry Sudanese 
oil entry into U.S. ports, as the Darfur Peace and 
Accountability Act authorized last fall. We don't see why these 
and other measures are not being included in plan B from the 
outset, just as we don't see why plan B sanctions purportedly 
only target three persons, and, to boot, one of those being a 
rebel leader, or why the administration's overall global 
diplomacy regarding Darfur is so intermittent. As has been 
noted already, China, Egypt, the European Union, the Arab 
League, South Africa, the African Union, all of these players 
have key roles in this, and none of them are doing what they 
need to do right now.
    In fact, we just wrote to President Bush urging that he 
launch a sustained diplomatic coalition-building effort now. 
That's also long overdue.
    Administration support for the Durbin divestment bill would 
also have a strong impact.
    We urge that the administration prepare now to take these 
steps rapidly, should a first round of sharper sanctions not 
quickly end Khartoum's killing in Darfur. The only result that 
counts is lives saved or lost. And, shamefully, they've been 
lost, and that's been something that's been measured in the 
tens of thousands in Darfur.
    Action--tough, wide-ranging action, is needed now to match 
the President's deep concern and tough words if the people of 
Darfur are to obtain any relief from their epic suffering. The 
Save Darfur Coalition's hundreds of thousands of activists will 
press that demand ceaselessly until the genocide stops. In 
fact, they'll be gathering, in 2 weeks, in nearly 150 cities 
across our country, during Global Days for Darfur, to demand 
effective international protection for the people of Darfur and 
strong action from our administration.
    But it's this body which can, and must, ensure that the 
administration follows through on plan B, is prepared, fast, 
with a plan C, if necessary, and, in the end, does whatever it 
takes to make this new century's genocide--first genocide its 
last genocide.
    We urge you to press hard for that level of sustained 
administration engagement, and we thank you for the forthright 
approach, indeed, you took in the hearing today.
    And I thank you very much. And I look forward to your 
questions.
    [The prepared statement of Ambassador Rossin follows:]

  Prepared Statement of Hon. Lawrence G. Rossin, Senior International 
        Coordinator of the Save Darfur Coalition, Washington, DC

    Thank you, Chairman Biden, Senator Lugar, and members of the 
committee, for inviting me to testify today. With your permission, I 
will make brief oral remarks and submit a longer statement for the 
record.
    My name is Larry Rossin. I am the Senior International Coordinator 
for the Save Darfur Coalition, grouping over 180 faith-based, human 
rights, and community organizations which together have worked for 
nearly 3 years toward one overriding goal: To end the genocide in 
Darfur.
    Beginning in February 2003, the Sudanese Government-sponsored 
campaign of violence and forced starvation in Darfur has claimed as 
many as 400,000 dead, 2.5 million displaced, and an additional 1 
million still in their villages but severely affected. The U.S. 
Congress, two Secretaries of State, and President Bush have all labeled 
Darfur a genocide, the first time in U.S. history that a conflict has 
been so labeled while still ongoing. Congress and the President have 
followed up on their initial declarations by making countless speeches, 
passing numerous pieces of legislation, and devoting significant--
though still insufficient--funds for humanitarian aid and peacekeeping. 
For its part, the U.N. Security Council has issued a litany of 
resolutions, including Resolution 1706 which authorized 22,500 as-yet 
undeployed U.N. peacekeepers for Darfur, and two Secretaries General 
have declared resolving the crisis a top priority.
    Civil society in the United States and abroad has done its part as 
well, including the formation of a broad coalition of hundreds of 
local, national, and international faith-based, human rights, and 
community organizations, which have in turn organized thousands of 
events, involving millions of citizen-activists, and delivering in turn 
millions of urgent calls to the United States and other governments to 
take the actions necessary to end the genocide. Unfortunately, none of 
the above accomplishments have changed the basic truth that for the 
people of Darfur, life continues to grow more difficult and more 
dangerous.
    It is indeed remarkable that millions of innocents in Darfur, and 
parts of Chad and the Central African Republic, have survived for this 
long, in the face of such overwhelming conditions, and with so little 
positive change in the underlying dynamic of their dispossession and 
insecurity. As will be echoed at over 200 Darfur-themed events in over 
30 nations on April 29, 2007, time is running out for the people of 
Darfur.
    These innocent victims are essentially on life-support, their 
continued existence dependent on U.S. and international humanitarian 
aid and the presence of roughly 7,400 African Union peacekeepers. 
Despite the best efforts of the underfunded and undermanned African 
Union peacekeeping force, attacks have increased in recent months, 
leading to tens of thousands of new arrivals at refugee camps in Darfur 
and across the border in Chad.
    After a promised deescalation of violence failed to materialize 
following the signing of the stillborn Darfur Peace Agreement (DPA) on 
May 5, 2006, the situation in Darfur grew worse. The Government of 
Sudan began a military offensive in Darfur in late August 2006 which 
displaced tens of thousands of additional Darfurians, and the rebel 
groups, which had numbered just three at the time of the DPA's signing, 
have since splintered into more than a dozen factions, further 
complicating any potential political solution. The resulting increase 
in violence has put the humanitarian life-support system at great risk, 
and the nightmare scenario of a complete security collapse and the 
spike in the death rate that will surely follow now appears to be a 
very real possibility. U.N. officials have previously said that the 
death rate in Darfur could rise as high as 100,000 per month if 
security collapses, creating the sobering possibility that future 
horrors in Darfur may dwarf all we have seen up to now.
    On August 31, 2006, the U.N. Security Council passed Resolution 
1706, authorizing a robust peacekeeping force of 22,500 U.N. troops for 
Darfur with a strong mandate to protect civilians. While this was a 
crucial step, it will remain merely words on paper until there are U.N. 
boots on the ground. More than 7 months have passed and only a few 
dozen U.N. advisors have actually been deployed. If the United Nations 
fails to deploy a force to Darfur, it will be the first time in history 
that a U.N. force has completely failed to deploy after being 
authorized by the Security Council.
    Why then the delay in carrying out the Security Council's order? 
Because the U.N. force cannot deploy over Sudan's objections. Sudanese 
President Omar al-Bashir wants to preserve the status quo, and has been 
thwarting the international community's efforts to stop the killing at 
every turn. He's managed this by time and again promising to cooperate 
with international efforts to end the conflict in order to relieve 
mounting diplomatic and economic pressures, and then going back on his 
word and once again obstructing those efforts when the pressures have 
abated. This bait and switch pattern has allowed a genocidal dictator 
to consistently thwart the international community's efforts to end the 
conflict in Darfur and promote an inclusive peace process. In fact, he 
is doing so again right now.
    On November 17, 2006, the international community and the Sudanese 
government came together in Addis Ababa, Ethiopia, and agreed to allow 
a hybrid United Nations/African Union peacekeeping force to deploy to 
Darfur in three phases: A light package of advisors to help the AU 
peacekeeping force already there; a heavy package of 3,000 military and 
police logistics personnel to do the same; and then finally a large-
scale force comprised of at least 10,000 additional U.N. and AU troops. 
President al-Bashir immediately went to work on weakening the 
agreement, and thus far has allowed only phases I to deploy, demanding 
wholesale changes to phase II and flatly denying phase III.
    The international community must take stronger action to compel 
President al-Bashir's cooperation with international efforts to protect 
civilians in Darfur. U.S. Secretary of State Rice put it well when she 
said on September 27, 2006, that the Government of Sudan faces a choice 
between cooperation and confrontation. As evidenced by his words and 
actions since Secretary Rice's speech, President al-Bashir has chosen 
confrontation.
    Today, President al-Bashir is more adamant than ever in his resolve 
to oppose a full U.N. deployment, allowing him virtual carte blanche to 
stage attacks in Darfur directly with his troops and air force, or via 
his Janjaweed client militia.
    Mr. Chairman, this record is well-known. Hardly a news day goes by 
without some reiterated warning of looming humanitarian collapse, some 
repeated message of defiance from President al-Bashir and his 
officials, some new report of atrocity and societal disintegration in 
Darfur itself, some cross-border Janjaweed incursion into Chad.
    Equally apparent is that diplomacy alone has failed. It has been 
pursued for 4 years, by a seemingly endless parade of envoys and 
officials from all over the world--from Bob Zoellick and Jendayi Frazer 
to Hu Jintao and Thabo Mbeki, from Louis Michel to Andrew Natsios, from 
Alpha Oumar Konare to Kofi Annan, from Foreign Ministers of Africa and 
the Middle East to U.N. and AU mediators, and now Ban Ki-moon and 
Deputy Secretary Negroponte. Each has carried a separate message, too 
rarely consistent or coordinated with that of her or his predecessor or 
successor; many have wielded threats, others assurances of protection 
against those threats, some have proffered promises of reward for good 
behavior.
                    incoherence and ineffectiveness
    The Sudanese regime is sophisticated, having long since learned to 
play one envoy off against another. Meanwhile the international 
community's threats and promises have gone mostly unfulfilled, whether 
made on a unilateral basis or enshrined in national law or Security 
Council resolution. The past 4 years are a graveyard of failed 
persuasive diplomacy as much as they are of 400,000 Darfurians. 
Administration talk, at the end of 2006, of enacting tough ``plan B'' 
measures against Sudan by January 1, 2007, if it did not cooperate on 
U.N. peacekeeper deployment seemed but the latest example of tough 
words unmatched, in the crunch, by action.
    We were therefore encouraged when, weeks ago now, we heard that the 
President and his officials had finally had it, and that some really 
tough new targeted economic sanctions--``plan B''--were actually 
coming--just a matter of scheduling the announcement. We were doubly 
hopeful when, stiffed again by al-Bashir, Special Envoy Natsios further 
stated last month that these sanctions were imminent. We were even more 
excited when we heard that a foreign Ambassador had been told the 
President had actually signed the documents.
    Well, frankly, Mr. Chairman, we thought that today's hearing would 
be taking place in the context of just-announced ``plan B'' sanctions, 
and we would be discussing their effective implementation. Every thing 
we heard, until late last week, gave cause for that expectation.
    But that has, obviously, not come to pass. After rejecting the U.N. 
Secretary General's recent call for deferral of Security Council debate 
of mandatory U.N. sanctions so that his diplomacy could have more 
time--the nth iteration of that failed sequence that has cost lives in 
Darfur--the U.S. Government, to our surprise, suddenly appears to have 
deferred its own sanctions plan, so that it can make yet another 
diplomatic try. We respect the effort, Mr. Chairman, and do not 
question the motive; but after years of Sudan's evasions and genocide, 
we cannot help but be astonished and disappointed by this further 
delay.
                      lives are at stake every day
    As our coalition has argued in private communication and public 
messaging, here and overseas, the people of Darfur need strong support 
now. Talk alone has failed, whether tough or diplomatic. The stark 
mismatch between tough talk and weak or no action has to end, now, 
before more die and more are displaced. Al-Bashir is not the first 
stubborn dictator to pursue calculated policies of murder that we have 
encountered. He will not be the last. Experience shows--we know it from 
the Balkans, from Iran and North Korea, from Sudan itself before 
today--if diplomacy is to work, it must be coupled to strong coercive 
measures, enough to change calculations, so that ending the killing 
becomes cheaper for Khartoum than pursuing it, as is clearly not the 
case now.
    Mr. Chairman, were we discussing today newly announced ``plan B'' 
sanctions targeted on Sudan's leadership, I would have made the 
following points:

  <bullet> If enforced fully, the envisaged ``plan B'' sanctions would 
        be an important first step to end the violence and suffering in 
        Darfur, although probably not enough to stop the genocide.
  <bullet> If, on the other hand, ``plan B'' were not fully implemented 
        and enforced--including both its unilateral U.S. elements and 
        its multilateral U.N. elements--Khartoum's murderous campaign 
        would only be reinforced.
  <bullet> We would urge the President and his administration, 
        therefore, to take all necessary steps to fully implement and 
        enforce ``plan B'' without delay.
  <bullet> For the expected unilateral U.S. sanctions focused on 
        stopping transactions directly benefiting the Sudanese 
        Government, that would mean the President directing Treasury's 
        Office of Foreign Assets Control to increase dramatically the 
        number of man-hours allocated to Sudan sanctions enforcement; 
        directing the intelligence community to provide all information 
        necessary to investigate and enforce those sanctions, and the 
        resources to develop that information; directing his Cabinet to 
        create and obey interagency task forces effective in ensuring 
        enforcement of the sanctions; and, appointing a high-ranking 
        Sudan sanctions enforcement lead, with Presidential authority, 
        to oversee the interagency process. Comparable focused 
        leadership from the top was the key to success of Yugoslav 
        sanctions.
  <bullet> For the multilateral U.N. measures, that would mean the 
        President and his administration directing his foreign policy 
        leadership--

    <all> First, to take all steps needed to obtain a Security Council 
            resolution mandating global sanctions,
    <all> And then, to build an international coalition for their 
            enforcement, with a dedicated Envoy to lead that process. 
            Although we do not understand it will, such a resolution 
            should enact tough targeted sanctions against individuals 
            and entities complicit in the genocide; expand the existing 
            arms embargo to include the Sudan Government; and ideally 
            create the no-fly zone called for in Resolution 1591.

    Regrettably, Mr. Chairman, we find ourselves still at the stage of 
calling for meaningful measures at all, rather than discussing their 
effective implementation. However, if the latest rounds of diplomacy 
fail--I hope I am proven too pessimistic, but history gives me reason 
to doubt it--we do hope that such sanctions will at long last be 
imposed, so that this discussion can have meaning.
    If and when that stage is reached, and presuming that the 
President's personal determination and this Congress's assertive 
oversight ensure that the sanctions are enforced systematically, we can 
then take some time to assess their effectiveness. But, if you will 
forgive me a brief jump forward, we would urge: Not too much time. 
People die and are driven from their homes every day in Darfur; 
humanitarian collapse is an insistent threat. We cannot afford, if and 
when such limited sanctions go into effect, to have new months and 
months of ``now let's see what happens.''
    Additionally, there are more measures available to this 
administration than its stalled ``plan B'' as envisaged. Heeding 
Congress's and our coalition's repeated calls to announce additional 
coercive steps--such as leading the international community in imposing 
a no-fly zone, and denying ships linked to Sudan entry to U.S. ports--
would make ``plan B'' stronger. We don't see why they are not being 
included from the outset, just as we don't see why ``plan B'' sanctions 
would reportedly only target three persons when we know the U.K. 
recommended more, or why the administration's overall global diplomacy 
regarding Darfur is so weak and sporadic. In fact, we have just written 
to the President urging him to launch serious, sustained diplomatic 
coalition-building efforts which have proven successful in the form of 
contact groups in past crises.
    In any case, we certainly urge that the U.S. Government prepare to 
take these and other additional measures should the long-overdue first 
round of tougher targeted sanctions fail quickly to reverse Khartoum's 
killing, blockage of credible peacekeepers, and constant disruption of 
efforts to renew an inclusive peace process. The success or failure of 
``plan B'' should largely be measured by whether or not it swiftly 
compels the cooperation of the Sudanese Government on these fronts. The 
ultimate gauge of its effectiveness will be lives saved or lost, a 
measure that is marked off by the thousands in Darfur.
    Action from the administration is needed to match the President's 
concern and tough words, if the people of Darfur are to derive any 
relief from their epic suffering. With American leadership, the full 
weight of the international community must be brought to bear on 
Khartoum's leadership and its business partners to end their 
obstruction of international efforts to end the crisis in Darfur.
    The Save Darfur Coalition will pursue these goals ceaselessly, by 
the means we have, until the genocide is ended. But it is this body 
which can and must ensure the administration follows through on its 
``plan B,'' is prepared with a ``plan C'' if necessary, and in the end, 
does what it takes to make this new century's first genocide its last.
    Enacting, implementing, and fully enforcing strong plan B measures 
is not the only piece of the puzzle, however. Another essential element 
to ending the genocide in Darfur and creating a stable and secure 
environment for civilians there is a consistent and adequate supply of 
funding for peacekeeping operations. The United States has been by far 
the most generous international donor to security programs in Darfur, 
providing hundreds of millions of dollars for the African Union forces 
there and allocating nearly $100 million for an eventual U.N. force. 
Despite this seeming generosity, U.S. funding for peacekeeping in 
Darfur has been inconsistent and this lack of predictability appears to 
be a contributing factor to the low level of effectiveness of the 
African Union Force in Darfur.
    While only a successful peace process can finally end the genocide, 
the United States must do all it can to ensure the presence of a 
credible peacekeeping force with dependable, adequate resources and a 
robust civilian-protection mandate as the peace process hopefully moves 
forward. This peacekeeping force, whether African Union, United 
Nations, or a hybrid, will require consistent and adequate U.S. funding 
and leadership to be effective in its mission.
    Unfortunately, to date, the rhetoric surrounding the genocide has 
not been matched by a consistent commitment to request adequate funding 
in a transparent and predictable way to get the peacekeeping job done 
in Darfur. Since at least 2005, funding for peacekeeping in Darfur has 
been inconsistent and in some instances uncertain until the last 
minute. This lack of predictability impacts the existing peacekeeping 
mission in Darfur and sends a strong message to the Government of 
Sudan, our allies, and most importantly, the people of Darfur, 
emboldening the perpetrators and draining the hope of the survivors.
    Perhaps the most troubling aspect of the U.S. Government's failure 
to provide consistent and predictable funding for peacekeepers is that 
it is one of the only issues impacting civilians in Darfur over which 
the United States Government has direct control. We cannot control the 
actions or responses of the Government of Sudan. We cannot control the 
activities of the Janjaweed or rebel forces in Darfur. We cannot 
control the response of our allies in this effort. But the 
administration and Congress collectively have complete control of the 
allocation of U.S. funding to combat the genocide.
    As far as I can tell, Congress has provided every dollar ever 
formally requested by the administration for Darfur peacekeeping and 
has generously added to those requests in several instances. Based on 
that fact, I believe that the inescapable conclusion is that the 
administration has consistently underestimated the need for funding for 
security in Darfur and has not made consistent and predictable requests 
through the regular appropriations process to meet future security 
needs in Darfur.
    Let me give a specific example. The administration's fiscal year 
2008 budget request to Congress contains no request for bilateral 
peacekeeping for Darfur through the Peacekeeping Operations Account. 
This decision is based on the assumption that peacekeeping 
responsibilities in Darfur will transition to a U.N. or hybrid United 
Nations/African Union force by the beginning of the fiscal year, 
October 1, 2007. Putting aside the optimistic nature of this 
assumption, it should then be safe to assume that if the administration 
plans to fund Darfur security through the United Nations in fiscal year 
2008. In turn, it follows that the budget should include an ample 
funding request for a U.S. contribution to the projected U.N. force in 
Darfur. This is not, however, the case.
    The Partnership for Effective Peacekeeping estimates that to meet 
the peacekeeping needs in Sudan--both for the U.N. force in South Sudan 
(UNMIS) and for a Darfur mission--the U.S. contribution should be $675 
million in fiscal year 2008 to the U.N. peacekeeping apparatus. 
Instead, the total administration request is $391 million, just $10 
million more than the previous year, leaving a shortfall for security 
in Sudan of about $284 million. Taking into account the $98 million 
already provided by Congress for a U.N. force in Darfur, we can 
estimate that the shortfall in the administration's request for Darfur 
security for fiscal year 2008 is approximately $186 million.
    Presumably, Congress will again work to adequately fund this 
pressing need, but this will be an unnecessarily difficult task given 
the expected tight budget for international affairs and the many 
pressing priorities. I say unnecessarily because funding Darfur 
security would be immeasurably easier if the administration would 
simply request needed funding through the regular appropriations 
process.
    The administration did request $150 million for bilateral 
peacekeeping in the fiscal year 2007 supplemental request, currently 
being considered by Congress. This is very helpful and welcome and 
appears to be adequate for the remainder of this fiscal year. If there 
is essentially no additional bilateral or multilateral funding being 
requested by the administration for Darfur Security for FY08, however, 
then in a few short months the source of U.S. funding for Darfur 
security will again be uncertain and we may yet again be looking for 
additional supplemental funding to bridge the Darfur peacekeeping gap.
    To this end, I would encourage the administration to submit a 
budget amendment to Congress for fiscal year 2008 requesting an 
additional $186 million for Darfur security through the African Union. 
I would also encourage the Senate and House to give the administration 
the authority to transfer any or all of those funds to the U.N. 
Peacekeeping account if deployment of a U.N. or hybrid force supersedes 
the need for bilateral funding.
    Additional to funding concerns, I hope that this committee will 
help ensure that the Senate passes legislation protecting States' 
rights to divest their pension funds and other holdings of businesses 
whose trade with the Sudanese Government negatively affects the people 
of Darfur. Senator Durbin has introduced, and several members of the 
committee have cosponsored, S. 831, a bill which would do just that. 
The prompt passage of S. 831, which is currently awaiting action in the 
Senate Banking Committee, will ensure that States are not barred from 
doing their part to fight the genocide in Darfur. I also encourage this 
committee to urge Senate leadership to schedule a swift vote for S. 
Res. 76, the resolution regarding the regionalization of the Darfur 
conflict into Chad and the Central African Republic which was 
introduced by Senator Feingold and recently reported by the committee 
to the full Senate for consideration.
    While there is no silver bullet or easy answer for Darfur, real 
progress can be made if substantive action is taken on the issues we've 
discussed today.

    The Chairman. Thank you very much.
    Dr. Morrison.

STATEMENT OF DR. J. STEPHEN MORRISON, DIRECTOR, AFRICA PROGRAM, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Morrison. Chairman Biden, Senator Lugar, thank you for 
taking the lead, organizing today's hearings, and I'm grateful 
for the opportunity to be here to speak.
    I'll organize my remarks around a few brief points. I 
believe our single goal--single dominant and defensible goal--
still remains to seek a political settlement to end Darfur's 
internal war. We need to achieve this through concerted 
international means. We need to achieve a political settlement 
within Darfur that will replace Darfur's violent internal war 
with an interim cease-fire, a new form of governance under fair 
and just terms, backed by reliable and verifiable guarantees. 
And I believe there are no feasible alternatives. We need a 
strategy that is grounded in realism and patience. It is going 
to take 3 to 5 years to negotiate a way forward in Darfur. 
There are no quick fixes, there are no quick military options. 
Military options are a utopian diversion, in terms of grand 
interventions that are going to suddenly change the situation. 
We require a multilateral approach. We cannot act effectively 
without allies. We need the Security Council Perm Rep members. 
We need European allies, and we need African allies. And we 
need support within the Arab League.
    In the current context of the war on Iraq, our standing in 
the world is severely compromised. To imagine that we're going 
to mobilize any array of support around anything other than a 
steady, pragmatic, negotiated peace settlement is simply 
unrealistic.
    I am in support of continuing to keep our eye on the prize. 
The prize is a negotiated political settlement. Using various 
forms of sanctions, targeted sanctions, on Khartoum, as many 
that--of those sanctions that are, today, on the table, to 
service that goal can make a lot of sense if it is tied 
strategically toward getting to a settlement. Sanctions need to 
be put in force against Khartoum. They need to be put in force 
against the spoiler nonsignatory combatants in Darfur, who, as 
we've heard, are continuing to carry out atrocities.
    Diplomacy has to have primacy in this effort. We have no 
choice. There are no close--there are no quick fixes to this. 
We need to give primacy to our diplomatic efforts to renew a 
Darfur political negotiation. We have an agreement, in the form 
of the Annan plan. We have renewed leadership, in the form of 
Jan Eliasson and Salim Salim. We have renewed leadership within 
the U.S. Government, in the form of Andrew Natsios and John 
Negroponte. We should be focusing that effort around what is 
realistic to achieve in moving forward a negotiated political 
negotiation and settlement for Darfur that builds off of the 
May 2006 Darfur Peace Agreement.
    Sustained high-level U.S. leadership has been, for several 
years, a strategic element in achieving results in Sudan. The 
north-south peace accord, the Comprehensive Peace Agreement of 
January 2005, only came about over a 3- to 5-year period 
through sustained U.S. engagement. Senator John Danforth made 
crucial contributions. Similarly, Deputy Secretary of State 
Robert Zoellick, in his role, made pivotal contributions in 
getting to the Darfur Peace Agreement of last May. They're hard 
lessons to the pattern of U.S. engagement. It has not been 
continuous, it has not been sustained, there have been breaks 
and lack of continuity, and we've--as we've seen with the May 
Darfur Peace Agreement, which, because of a lack of 
followthrough, fell apart.
    I want to mention, also, while we're talking about the 
centrality of U.S. political leadership at a high level, that 
what is happening in Somalia does not help us. I know this 
hearing is not about Somalia, but our partnering with the 
Ethiopians in a counterterrorism campaign in Somalia, which is 
now beginning to turn very ugly for us, is widely seen within 
the region as anti-Islamic. It's now--we're now under 
allegations--perhaps true, perhaps false--of associating 
ourselves with a policy of renditions and war crimes. But we 
have provided the region--we've provided Khartoum, 
inadvertently, with a new angle for arguing about the lack of 
moral standing of the United States in putting a focus back on 
Darfur. And it's also widening the crisis within the Horn and 
focusing a broad--focusing--requiring a focus on a broader 
level.
    There are scattered and uncoordinated international efforts 
today with respect to Darfur. I mentioned, earlier, the United 
Nations-
African Union effort, led by Jan Eliasson and Salim Salim, 
offers the single best hope for moving this--for moving forward 
in this regard, for a renewed political process. It can be 
backed by sanctions, or the threat of sanctions.
    I want to touch, briefly, on the sensitive issue of 
genocide, because that has been the dominant concern of this 
hearing. In the United States, there seems to be a broad 
consensus that what is happening in Darfur constitutes a 
continuous genocide. That view is not necessarily shared among 
our key allies in Europe, in Africa, in the Middle East. It is 
not necessarily shared by those who are operational on the 
ground in Darfur. This is a problem. We have not won the 
opinion argument, internationally, around this issue. And it's 
a problem. And it gets back to the point that unilateralism 
will not work in Sudan. Multilateralism will work. Talking 
about genocide may not be the lead argument in getting people 
to cooperate in a joint effort. Talking about a negotiated 
peace settlement maybe.
    On the question of Chinese influence, I agree that there 
has been a subtle shift in China's approach to Sudan, a greater 
willingness to raise the issue with senior Sudanese leaders, 
and that there is an emerging consensus with the United States 
on implementing the three-phrase Annan plan as the best way 
forward. I agree that the Chinese are more public, and they are 
willing to dispatch, as they just did with Zhai Jun, the 
assistant secretary, to dispatch senior-level officials to 
Darfur, and to have them saying important things publicly that 
reinforce our position.
    I also believe that, if we move toward sanctions, we're 
going to have to be very careful in how we execute them. If, 
for example, we begin to impose unilateral smart sanctions 
under plan B, focused on select individuals and commercial 
entities, and these measures do not directly target Chinese 
economic interests, it's conceivable that these pressures could 
be raised through sanctions, while action in collaboration with 
China continues. However, if we, somewhere, somehow, along the 
line, step into an active campaign of vilifying China, 
threatening their strategic interests, or threatening, as many 
are proposing now, a boycott of the 2008 Olympics, we can 
pretty well rely on losing their cooperation in the Security 
Council and their cooperation in Khartoum, and, as we've seen 
recently, in Darfur. There are many specific things that can be 
tabled further with the Chinese as measures that they can move 
forward in this period.
    Two last points:
    Don't forget how important the humanitarian channels are. 
Two and a half million people, 13,000 humanitarian workers, 
billions invested. This is a U.S.--predominantly a U.S. 
achievement of leadership. This is a population that is highly 
vulnerable, both the humanitarian workers and those in the 
camps, the civilians that are imperiled and remain in the 
camps, and remain 100-percent dependent upon international 
handouts. We cannot treat this reality in a frivolous manner. 
We have to acknowledge that if we take a misstep and kick the 
pins out from underneath this operation, it will be 
catastrophic.
    We also can't forget what is going on in the Comprehensive 
Peace Agreement between the north and the south, which has been 
overshadowed and overlooked in this period. I would argue that 
the south is in a period of governance-drift and increased 
interethnic tensions and violence. It has ingested over $1 
billion of oil earnings. It's not clear to what purposes these 
are being placed. This is a nation-building exercise that the 
United States has embraced. It's a peace agreement that is 
unfolding that we bore central responsibility for. We need to 
pay higher attention to this if--in order to ensure that things 
go well.
    Thank you.
    [The prepared statement of Dr. Morrison follows:]

    Prepared Statement of Dr. J. Stephen Morrison, Director, Africa 
Program, Center for Strategic and International Studies, Washington, DC

    Chairman Biden and Senator Lugar, I thank you for taking the lead 
in organizing today's hearing, and am grateful for the chance to 
contribute to this timely discussion of the U.S. approach to the Darfur 
crisis.
    I wish to concentrate my remarks upon a few select points.
1. Our single most important and defensible goal should be a political 
        settlement to end Darfur's internal war
    It is important to be very clear on this core goal of U.S. policy 
in Darfur. At times that goal is not clearly stated or understood.
    Realistically, our core aim must be to achieve through concerted 
international means a political settlement that will replace Darfur's 
violent internal war with an interim cease-fire, and create a new form 
of governance in Darfur under fair and just terms, backed by reliable 
and verifiable guarantees. There are no feasible alternatives. We 
cannot ignore Sudan, nor are we in a position to change its government 
or to directly enforce our will.
    The goal of ending Darfur's war is contained in the Annan plan 
agreed to by the parties in Addis Ababa in November 2006. It makes an 
enduring peace settlement the key to offering a credible hope that 
Darfur's displaced and imperiled civilians can return to a safer, more 
stable and self-sustaining life. It offers a framework for coordinated 
international action.
    Efforts to end impunity and bring to justice those the U.S. 
Government has accused of perpetrating genocide should be carefully 
disentangled from the core goal of ending Darfur's war.
    Ending impunity in the immediate term will be difficult to 
reconcile with winning agreement to a negotiated peace settlement, 
including deployment of the African Union/United Nations hybrid force 
which Khartoum will continue to fear will be an instrument to arrest 
suspects in high-level positions of government. Ending impunity in 
Sudan can and should be realized in the medium to long term through 
action by the International Criminal Court. But more creativity is 
needed in the U.N. Security Council to find the means to phase ICC 
action so that it is not in conflict with efforts to end Darfur's war.
2. Diplomacy should be the centerpiece of the U.S. strategy
    Success will not come from acting alone in an urgent search for 
quick fixes. Nor will it come through an overweening unilateral 
reliance on threatened punitive measures which are untied to clear 
diplomatic goals and which may distance us from our critical allies.
    We should give primacy to diplomatic efforts to renew Darfur 
political negotiations, based on revisions to the May 2006 Darfur Peace 
Agreement. Such a negotiated settlement is the only route to ending 
violence against civilians. Smart sanctions and a strengthened African 
Union/United Nations operation are important instruments of pressure 
and means to protect civilians, but by themselves, in the absence of a 
political settlement, they will not stop the violence in Darfur. 
Progress requires realism, a predominant reliance on diplomacy backed 
at critical moments by focused, tough action, an accurate and timely 
assessment of facts on the ground, and patience and stamina.
    Sanctions can be effective, if enforced in a strategic and balanced 
fashion to move the Government of Sudan and its violent proxies, the 
Janjaweed militias, and the nonsignatory Darfur insurgents back to the 
negotiating table.
    The nonsignatory spoilers continue to fragment, resist reentry into 
serious political negotiations, derive lethal and logistical support 
from Chad, Eritrea, and likely Libya, and carry out high levels of 
violence against civilians. Khartoum is able to take full advantage of 
this confusion by playing rebel groups off of one another and co-opting 
them individually.
    In this next phase, we need a smarter strategy for unifying and 
focusing the rebels on a realistic set of negotiating goals, at the 
same time that higher targeted pressures are directed at Khartoum. That 
requires enhancing the incentives to the scattered rebel groups to 
unite, and taking steps to reduce cross-border materiel support.
3. Sustained high-level U.S. leadership remains strategically important 
        to achieving any results in Sudan
    If we take our guidance from the negotiated conclusion to Sudan's 
north-south war, signed in January 2005, we can safely predict that 
progress will only be achieved over a 3- to 5-year period, driven by a 
sustained international diplomatic effort.
    From 2001 through the end of 2004, Senator John Danforth, first as 
Special Envoy to Sudan and later as U.S. Ambassador to the United 
Nations, made crucial contributions to securing the peace between 
Sudan's north and south. While serving as Deputy Secretary of State, 
Robert Zoellick was similarly pivotal in moving the parties to the 
Darfur Peace Agreement.
    Both these instances also generated a hard lesson: When there is a 
break in high-level engagement, a lack of continuity and follow-
through, progress achieved can soon begin to unravel. We've seen that 
most poignantly in the failure thus far to implement the terms of the 
May 2006 Darfur Peace Agreement.
    In this present phase, there is fortunately renewed high-level U.S. 
engagement.
    The current Special Envoy, Andrew Natsios, has been very active 
since the latter part of 2006 in persuading the Chinese to begin to 
apply more pressure upon Khartoum, and in reviving a strategy to renew 
Darfur peace negotiation, led by U.N. Envoy Jan Eliasson and the 
African Union's statesman Salim Salim. He has gained access and 
credibility in Khartoum, among Darfur rebels, and in his dealings with 
the U.N. Secretary General and his deputies, the Chinese, British, and 
other members of the U.N. Security Council, and the African Union. No 
less important, Deputy Secretary of State John Negroponte will visit 
Sudan this week and be in a better position to help break the deadlock 
over political negotiations and the expansion into Phase II of the 
African Union/United Nations peace operation.
4. U.S. leadership should support a unified, robust international 
        effort
    Actions by both Andrew Natsios and John Negroponte can be vital to 
moving Khartoum and the Darfur rebels beyond recalcitrance. They can 
also be vital in overcoming scattered and uncoordinated international 
efforts.
    Regional states are vying with different initiatives to convince 
rebel leaders to come behind a common agenda. The United Nations/
African Union effort, spearheaded by Jan Eliasson and Salim Salim, 
offers the single best hope for a unified effort to promote a renewed 
political process and move international efforts beyond the present 
disarray. Every effort should be made by the United States, the U.N. 
Security Council, and others to strengthen this initiative and 
eliminate competition.
    Building a robust international effort requires better monitoring 
of on-the-ground developments and a better shared estimate of current 
trend lines. At present there is no reliable, independent metric on 
civilian fatalities and armed violence by the Government of Sudan, its 
proxy militias, and the rising number of scattered insurgent groups. 
The result is continued confusion and controversy over the actual 
levels of violence, by which parties, and how accurately to 
characterize trend lines: e.g. whether what is unfolding in Darfur 
constitutes genocide, ethnic cleansing, war crimes, crimes against 
humanity, or random violence at the hands of brigands. Downstream, this 
uncertainty complicates efforts to judge whether individual agencies or 
movements are increasing or decreasing violence against civilians.
    Atrocities are committed by all sides, but different parties are at 
different times responsive to pressures to honor cease-fires. Claims 
are made frequently by advocacy groups, many based in the United 
States, that genocide at the hands of the GOS and the Janjaweed militia 
persists. At the same time, confidential sources within the 
humanitarian community that is operational inside Darfur often claim 
that fatalities are far below levels that would constitute genocide but 
above the 1,000 fatalities per annum level that signals an ongoing 
internal war. At present, it is difficult to square these divergent 
estimates.
    A unified international effort needs also to place Darfur in the 
context of a widening set of interlocking conflicts in the Horn of 
Africa, encompassing Chad, the Central African Republic, northern 
Uganda, and Somalia and Ethiopia. In important ways, the Horn has crept 
back toward the dark era of the 1980s when there were multiple tit-for-
tat cross-border proxy wars that fed the Horn's endemic instability. 
One important implication for Darfur: There needs to be a higher 
priority attached to building effective firewalls, potentially through 
small focused U.N. border operations as well as through intensified 
diplomatic initiatives, that can separate Darfur's internal war from 
the surrounding region.
5. The United States should continue to give priority to leveraging 
        Chinese influence
    Notwithstanding China's important economic ties with Sudan and 
public adherence to the principle of noninterference, the last year has 
seen a subtle shift in China's approach to Sudan, a greater willingness 
to raise the issue of Darfur with senior Sudanese leaders, and an 
emerging consensus with the United States that implementation of the 
three-phase Annan plan is the best way forward to achieving peace and 
stability in Darfur. This shift has been driven in part by China's wish 
to promote itself as an ethical global power, in part by discussions 
with other African leaders invested in seeing the Darfur issue 
resolved, and in part by the threat of increasing international 
pressures and tensions. While the United States and China will continue 
to differ on respective assessments of the situation in Darfur and on 
appropriate tactics in its resolution, the United States should seek to 
build on China's emerging openness to play a constructive role in 
ending the crisis in Darfur.
    International sanctions on Sudan could take different forms, and it 
is difficult to predict with precision how different sanctions might 
impact Chinese behavior and the ongoing dialog between the United 
States and China on Darfur.
    If, for example, the United States were to begin soon to impose 
unilateral ``smart'' sanctions, under ``plan B,'' focused on select 
individuals and commercial entities, and these measures did not 
directly or indirectly target Chinese economic interests, it is 
conceivable that pressures upon Khartoum could be raised through 
sanctions while action was taken to preserve the existing United 
States-Chinese consensus and pursue more robust United States-Chinese 
collaborative pressures upon Khartoum.
    If, on the other end of the spectrum, actions were taken that 
overtly vilify China, directly target its economic stakes in Sudan, and 
threaten broader interests such as the 2008 Olympics, that would risk 
undermining the present United States-China dialog.
    In between these two scenarios are intermediate options where 
sanctions might be put in place that do directly impact Chinese 
economic interests in Sudan and where the impact on Chinese behavior 
and the United States-China dialog might be mixed.
    Looking forward, we should continue to give high priority in our 
evolving dialog with China in seeking greater Chinese commitments that 
support in concrete terms the consensus on Darfur that has been forged 
between the United States and China. The Chinese can and should press 
for deployment of special Chinese military units to strengthen the 
African Union/United Nations force. China can and should use its 
leadership and public voice in the U.N. Security Council to hold 
Khartoum to account. China can and should further adjust its economic 
policies and instruments to signal that it is systematically distancing 
itself from Khartoum and deliberately lowering the priority of Sudan in 
its overall expansive engagement in Africa.
6. Higher attention is needed to protect fragile humanitarian channels
    The United States has been the lead donor in creating on a crash 
basis an elaborate humanitarian operation in Darfur that sustains the 
lives of over 2.5 million and today relies on the courage and 
commitment of over 13,000 humanitarian workers. Since 2003, the United 
States has invested $2.7 billion in humanitarian support to Darfur. 
Programs now reach over 90 percent of those in need of assistance. This 
achievement, and its continued fragility, are often lost in the heated 
debate over Darfur.
    High-value humanitarian commodities increasingly invite assault 
from the full range of armed actors inside Darfur: Violent attacks upon 
humanitarian convoys and workers, widespread theft of vehicles, and 
administrative harassment by the GOS. This is a dangerous trend.
    If humanitarian operations become significantly more insecure, they 
will be at risk of a major sudden retrenchment which would have dire 
consequences for Darfur's vulnerable displaced population, the 
viability of the international humanitarian infrastructure, and the 
Darfur region's overall stability.
    John Holmes, the new U.N. Under Secretary for Humanitarian Affairs, 
recently visited Sudan and negotiated with the GOS new terms for 
humanitarian access. Sustained followup will be needed to ensure 
compliance.

    The Chairman. Thank you very much.
    Dr. Morrison, can you recall whether any of our allies 
thought that what Slobodan Milosevic was doing was genocide? I 
don't recall any of them thinking it was genocide. Matter of 
fact, I was in, I think, every capital in Europe, and I was 
told by each of them, particularly the British, that this was a 
civil war, it wasn't genocide. Am I missing something here? I 
mean, can you think of any time where Europe has declared 
genocide in play recently? Any nation. Pick one for me.
    Dr. Morrison. I mean, this is a question of whether you 
feel that European opinion leaders or intellectuals are more--
less----
    The Chairman. No; it's not anything. I'm asking a simple 
question. It's a simple question. You made the point----
    Dr. Morrison. I don't think I'm really qualified to answer 
the question----
    The Chairman. Sure you are. You know whether or not----
    Dr. Morrison [continuing]. With respect to----
    The Chairman. You're a very bright guy----
    Dr. Morrison [continuing]. Kosovo----
    The Chairman [continuing]. You're very well informed. Can 
you recall any government, during the late eighties, early 
nineties, in Europe, saying what Slobodan Milosevic was engaged 
in was genocide? Name me one. Now, you were around as long as I 
am. This is your full-time day job. You know, I mean, you know, 
you do it all day. Can you think of a--the point I'm making is 
that you point out that there is not a consensus that there's 
genocide going on in Darfur, among our allies and others, as if 
that carries any weight, other than whether or not we'll get 
their cooperation. You offer it as it might go to the facts as 
whether or not genocide has occurred. I'm just giving you the 
last recent example of genocide. I remember, for 3 years, if 
not being the lone voice, one of the lone voices out there 
saying genocide is being conducted by a guy named Slobodan 
Milosevic out of Belgrade, and I remember being lectured by the 
British, the French, the Germans, everyone, ``No, it was not 
genocide,'' including many here in this country.
    And so, I guess all I'm saying is, the fact that our 
friends don't recognize what's going on is genocide doesn't 
lend any credibility or weight, to me, that there is or is not 
genocide. I just wondered if you had heard anybody reference 
genocide.
    And I would respectfully suggest one of the reasons why our 
European friends and others don't want to recognize this as 
genocide is that it is a trump card. Once a nation engages in 
genocide--a government--there is an implicit understanding that 
they have forfeited their sovereignty. There's no legal 
understanding of that. There should be, in my view. But there 
is no legal understanding of that, under international law. But 
that changes the whole dynamic.
    The reason why guys like me have been pushing for 4 years 
to say this is genocide is to create that exact atmosphere, to 
make it impossible for people to argue--not impossible--
difficult for them to argue that somehow Khartoum has 
legitimacy. I believe they have no legitimacy. I believe they 
have forfeited their sovereignty because of their concerted 
engagement in a policy of genocide. That's just me.
    So, I just--I find the argument that none others say this 
is genocide--I don't remember anybody else in 1989, 1990, 1991, 
1992, 1993, 1994, saying genocide existed in the Balkans, in 
Bosnia. That's the only point I want to make.
    I used to have a friend----
    Dr. Morrison. Mr. Chairman, may I make----
    The Chairman. Please.
    Dr. Morrison. May I just make----
    The Chairman. I'd invite----
    Dr. Morrison [continuing]. One comment?
    The Chairman [continuing]. Your comment.
    Dr. Morrison. I mean, the--what I'm trying to put a focus 
on is the practical political problem of attempting to enlist 
support for the kind of actions you're talking about.
    The Chairman. Well, I'm not asking for support. I think the 
only way you're going to get support is act. The only way we 
got support in the Balkans is, we acted, we shamed the French 
Government into acting. Their public thought, in overwhelming 
numbers, it was genocide. The French Government said it was 
not. I remember, my detailed discussion with the President and 
then-Secretary of State in the Oval Office, and asking, ``Well, 
if we act, who will follow?''; said, ``They will follow, 
because they cannot fail to follow.'' Do you think that anybody 
in the European populations think what's not going on is 
genocide, notwithstanding what their governments think?
    So, I guess what I'm saying to you is, we come at this from 
a different perspective. I agree with Mr. Rossin, when he said 
that he--I don't know his exact quote--he said that diplomacy 
without stiff sanctions to back it up has--is not likely to 
work. I don't know that he ever--I don't know that he used the 
phrase ``never work,'' but is not likely to work. And so, I 
approach this from a completely different perspective than you. 
I respect your point of view. You're a very learned fellow. But 
I just think that if you start off with the proposition that 
Khartoum has no interest in a political settlement--it has no 
interest--what is their interest in a political settlement?--
and then you would argue, ``Well, if they have an interest in 
the political--they have no interest, then you have to sanction 
them.'' Well, what sanctions are going to be sufficient enough 
for them to conclude that changing a fundamental policy is in 
their interest?
    And you point out: We lack moral standing. I agree. This 
administration has squandered our ability to be able to lead 
the world in a positive direction. But if we lack moral 
standing in the use of force, we clearly lack it in diplomacy. 
I mean, if we lack it one place, we lack it both places. Matter 
of fact, the only place we're--at any rate, I apologize for--I 
just--we just start off with a fundamentally different premise, 
and I think in 5 years there'll be another 500,000 or million 
people dead, maybe more.
    And I would say, to Susan--excuse me--I would say to the 
Honorable--that, you know, it is true, there weren't that many 
who had died in Kosovo, but 300,000 had already died in the 
Balkans--300,000. So, I don't want to--you know, I happen to 
agree with you about Darfur. But I think these comparisons--
I'd--we acted, in Bosnia, under much less--much less 
consequence to the people. There was a gigantic consequence in 
our failure to act. It ended up with 300,000 women and children 
being dead. And when we acted--when we acted, finally, thank 
God, in Kosovo, there were 295,000 women and children in the 
mountains waiting for the winter to come, about to be starved 
to death. And so, I think they're--in that sense, they're 
comparable. What is not comparable is Presidential leadership, 
in my view.
    But my time is up. I'm 33 seconds beyond it. I don't want 
to, in any way, curtail any response to what I had to say, but 
let me yield to my friend, and then invite any response you'd 
have to anything I said.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Let me just say that I've really come to this question 
period without wanting to argue with any of the witnesses, and 
I think this has been a very important educational experience, 
for each Senator and for those who are with us in the audience 
today, to consider a number of options, some of which have been 
argued, but, I think, none so persuasively.
    I appreciate, in a personal way, the reunion with Susan 
Rice. I think her service was remarkable in a previous 
administration, and we once, Mr. Chairman, served on a 
selection committee for Rhodes Scholars, and I learned of her 
brilliance and analytical ability at that time.
    But let me just say that, as I listened to courses we might 
take--for example, you mentioned, Dr. Morrison, that we've 
embarked on nation-building. And--maybe--but this worries me. 
Not that we should not do this. I'm one who has argued, for 
some time, along with the chairman, that nation-building is 
probably very important. We've even argued with the State 
Department to try to employ persons, in some numbers, who might 
be helpful in this respect, given the number of failed states, 
broken nations around the world. But we're not really at that 
point, as a government. Our capabilities are still very 
limited.
    So, for instance, when the chairman conducted hearings 
prior to the invasion of Iraq, and we tried to think through 
what it would mean if Saddam fell, if the Government of Iraq 
was no longer functional, the amount of testimony we had was 
pretty sparse on the part of the administration and with regard 
to the rest of the intellectual community, not measured--better 
informed. This is very tough stuff, but important.
    And the reason I pursued the questions I did with Andrew 
Natsios, is that, at the end of the day, we're trying to think, 
obviously, not only how to save people from being killed, but 
how they're going to live successfully, how 2\1/2\ million 
people are going to regain stature, their livestock, their 
lands. And we have, at least with Sudan, if we were to look at 
it from the nation-building standpoint, a revenue stream of 
oil, which is sometimes not available even after humanitarian 
crises are solved.
    Now, in this particular case, it seems to me there is a 
further thought, and that is, with 13,000 humanitarian workers, 
which you've mentioned are on the ground, their safety is of 
substantial importance for us. I've listened carefully to Dr. 
Rice and her comments--but to get into a military action at 
this point, enticing as this might be, would perhaps stimulate 
countermeasures--counteractivity against those humanitarian 
workers. So, the question is: How do we protect the process of 
feeding 2\1/2\ million people while military action occurs? 
Now, you could argue that the military action is very limited, 
that the bombing of airfields or strikes against aircraft, the 
knocking out of various equipment, really just shows more that 
we're serious, I suspect, rather than to overthrow the 
Government of Sudan. But I'm not certain what the consequences 
are of that. It may be important to do, ultimately. This is one 
option I would want to walk around a good bit before we have 
commitment of military force on the part of the United States, 
and especially unilaterally.
    Now, mention has been made that our forces are stretched, 
at this point. Well, this could lead to another debate about 
Iraq, whether we should have devoted as much there, with all 
the crises that go on in the world. An important point. But the 
fact is, even as we speak today, the problems of recruitment 
for our Armed Forces, the issue of re-upping Reserves who would 
not expected to be called back, is crucial. Now, maybe you 
believe we can segregate the Air Force from all of this. I'm 
not certain it ever works that neatly.
    So, these ruminations that I have, listening to all of 
this, lead me to--still to believe that probably the diplomatic 
track is the important one; that if the sanctions are 
especially brilliant, they may be helpful. It turns out, I 
think, in the North Korean situation, that sanctions imposed by 
the U.S. Treasury with regard to the Macao Bank were peculiarly 
effective in ways that a whole raft of sanctions against North 
Koreans for years were not particularly effective.
    Now, there's not equivalence between those two states, nor 
specifically what we're looking for. But I would want to think 
through, with all of you, as the expert panel, what combination 
is likely to be effective, and how do we avoid, as you've 
suggested, alienating the Chinese--who have been very effective 
with us in the North Korean negotiations; also, potentially, 
with the Europeans, an effective combination of states and 
activities, if we are able to bring about such a coalition, 
with regard to Darfur and Sudan.
    So, let me just simply ask this question. What kind of 
preparation do you believe our Government must have before we 
can be effective, in terms of a Sudan? Leave aside whether we 
build it or not. What can, in fact, offer the possibilities of 
economic security for its population, north and south, and 
interact with the rest of the world? If we become involved in 
that question, it seems to me, we may have a business plan that 
works so that, finally, we come to the end of the day with some 
long- and short-term humanitarian benefit for everybody. Now, 
does anybody want to comment about any of this?
    Yes, sir.
    Ambassador Rossin. Thank you, Senator. That's a complicated 
package, obviously, and I'd just like to make a couple of 
observations, because I think there is an answer to it.
    I think, first of all, the points you've raised raise 
questions of prioritization. And, as you noted, we have all 
these people out there living in these extremely dire situation 
in camps, lots and lots of people beyond the reach of any 
humanitarian assistance at all, and no real security for any of 
the people inside or outside the camps. We have the situation 
where, never mind the threat of military action, even the kind 
of diplomacy that goes on now that occasionally may have some 
little saber-rattling--never fulfilled, but some saber-rattling 
associated with it, reportedly has consequences, in terms of 
Sudanese obstruction of, and attacks on, humanitarian workers 
in the field. So, that situation is very tenuous, in any case.
    But I think our certain--certainly, our view would be that 
the first priority has to be to save the people of Darfur 
before we can really talk about either a political settlement 
that will be sustainable in the long run or, indeed, economic 
reconstruction for their return home, and so forth. They've got 
to be alive in order to do those things. And right now, that's 
an issue that's up in the air.
    There is a real challenge here in balancing the 
humanitarian imperative of keeping these people alive now, and 
the diplomatic imperative of moving to a situation where they 
won't need to be refugees anymore, and where they can go home 
and live in a self-sustaining peace. I don't think any of us 
has a clear answer to that, how you balance that off.
    I would also submit, however, that, in our contacts with 
the administration officials, and, indeed, in our contacts with 
foreign government officials, we haven't found them devoting 
particular attention to trying to resolve that conflict 
themselves. And I think that that's their duty. They have to 
really walk and chew gum on this issue, and they have not been 
doing either of those things, in our assessment.
    The diplomatic track--sanctions, plan B, no-fly zone, 
whatever you want to call these things--may have some important 
immediate effects, but really no-fly zone or other actions that 
would help secure the people of Darfur from violence. But all 
of that stuff really does need to lead back to plan A, which is 
a diplomatic process that leads us away from a Sudan that is 
killing its own people and that should be, anyway, a pariah in 
the international community. And we think that it's possible to 
do that with more intensive diplomacy, with more leadership on 
the part of our Government, working in partnership with other 
governments, to build a coherent and a sustained diplomatic 
approach toward Sudan. This was done when Sudan was harboring 
terrorists in the 1990s. It was done in order to reach the 
solution in south Sudan. We're just not seeing it happening 
here on Darfur. We're puzzled why. We're puzzled why plan B 
keeps getting kicked down the road, and all the other things 
that were discussed in this hearing.
    I think that what needs to be done, in essence, Senator, is 
to identify the pieces of a formula for a long-term 
reconstruction of Darfur, the pieces of a coherent Sudan policy 
that balances off considerations of progress in the south 
against the needs of Darfur, and then, finally, preparation, 
which will take time to identify both the resources and the 
strategy, for a reconstruction in Sudan, as a whole--not just 
Darfur, but south Sudan. But first, people have to be kept 
alive, and the genocide has to be ended.
    Thank you.
    Senator Lugar. Dr. Rice.
    Dr. Rice. Thank you, Senator Lugar. Thank you for your kind 
words, in particular.
    And I'd like to respond to your very important and complex 
question. I also want to address, briefly, Senator Biden's 
point.
    And just to say, Senator Biden, I certainly agree with you, 
we did the right thing, be it belatedly, in Bosnia. The toll 
there was enormous. And I don't mean to suggest that we didn't. 
I absolutely agree. All I'm suggesting is, we did the right 
thing there, and it's past time to do the right thing in 
Darfur.
    I think, as Ambassador Rossin pointed out, it's important 
to recall we're dealing with multiple complex crises 
simultaneously in Sudan. We have the nation-building endeavor 
of implementing the north-south Comprehensive Peace Agreement, 
which is falling behind. We have genocide overlaid on a civil 
conflict in Darfur. We have another conflict, in fact, in the 
east of Sudan. We have a repressive regime that is a serious 
abuser of human rights. And we have a wider regional 
conflagration.
    So, ultimately, ideally, we'd be addressing all of those 
things. But I think Ambassador Rossin makes a critical point, 
that we have to prioritize, and that stopping the genocide and 
the threat to civilians is the first priority.
    I want to be clear. I didn't come to the conclusion that we 
ought to use military force, even limited strikes, casually or 
quickly. I, like you, Senator Biden, am not crazy about killing 
people. But I do think that at a certain point we have to ask 
when enough is enough.
    This genocide, as many have pointed out, has been going on 
4 long years. For the first year, the United States essentially 
ignored it, because we had other priorities, we didn't want to 
upset the applecart with Khartoum. And then, frankly, it was 
Congress that made it impossible for the administration to 
continue to ignore it. And you all recall well what happened in 
2004 with Congress leading the way, calling it genocide, the 
administration eventually agreeing, and the President and 
Secretary Powell making that declaration.
    In the interim, we have pursued negotiations as the 
principal vehicle of trying to end the genocide. Three years 
later, we're still essentially at square one. We don't have a 
sustained negotiated settlement. The genocide continues. And we 
have issued threat after threat after threat, and never 
implemented it. So, as Senator Menendez suggested, we're really 
sending the message to the Sudanese Government that, ``We're 
going to blow smoke in your face and scream and yell, but, at 
the end of the day, we're not going to do anything.'' And if 
that's the message that this government takes, then there's 
nothing to persuade it not to continue the genocide.
    And so, as you suggested, yes; in part, the rationale for 
our proposal is to show the Sudanese Government that we are, in 
fact, finally serious.
    This is not a major military power that we're talking 
about, the Government of Khartoum. It is not even the Milosevic 
government, which was rather formidable, and which we took care 
of rather handily. This is an overstretched, torn-in-three-
directions, still-third-rate military. And what is lacking from 
us is a demonstration, a credible demonstration, of resolve. If 
you know the history of U.S. dealings with Sudan--and, indeed, 
Sudan itself, as I know you both do--you'll recall that the 
Sundanese Government responds almost only when the credible 
threat or the use of force is applied, or meaningful economic 
pressure.
    And that's why I advocate, and wish it had happened 
earlier, the full implementation of all the aspects of plan B 
as quickly as possible. Let's hope that works. Second, the 
issuance of an ultimatum, preferably from the Security Council, 
that signals to Khartoum that, in fact, the game is up, and, if 
they don't admit a U.N. force unconditionally, then they face 
the threat of the use of force. And then, finally, a limited 
and targeted use of force, with the aim of, as we did very 
effectively in Kosovo, keeping the pressure on the regime to 
admit a credible international force to protect civilians.
    Senator Lugar. Thank you.
    The Chairman. I have one question, if I may. Ambassador 
Rossin, you talked about the mechanisms that need to be set up 
even to implement plan B. Do you have any indication as to how 
far down the road the administration is in equipping the 
administration to actually implement plan B, if it were signed 
by the President tomorrow?
    Ambassador Rossin. The short answer to your question, 
Senator Biden, is no; I have no actual information. However, we 
did a lot of research on these issues, once we heard what plan 
B was likely to entail, in order to understand better what it 
does take, building on the experience from Yugoslavia 
sanctions, for example, at the end of the nineties. And all of 
the pieces that were described to us that made the Yugoslavia 
sanctions as effective as they were, do not appear to be in 
place at all. We're told that they may be being set up now, but 
I didn't get very much assurance of that, I have to say, from 
Mr. Natsios's testimony today. Neither--certainly, there's not 
adequate staff resources being utilized, being made available 
for this issue right now in the Office of Foreign Assets 
Control. We know that; we've talked to people there. We know 
that there is no task force on Sudan, on Darfur, in the 
intelligence community, which would be required to identify, 
substantiate, meet the legal standards for, and then enforce, 
sanctions against Sudanese entities that might be designated. 
That's something that's not in existence now in the intel 
community.
    There clearly is no very, very senior sanctions czar in 
existence now, nor do we know of one being considered for 
appointment, on the order of the Vice President's National 
Security Advisor, Leon Fuerth, who filled that role on the 
Yugoslavia sanctions at the end of the 1990s, somebody who was 
very close, very short communication chain to the President, 
and, when the bureaucracy, as they always do on these things, 
started making it difficult on very technical and very labor-
intensive issues, could go in there and really knock heads and 
say, ``Get to work. The President has given a direction. You 
work for the President. Stop quibbling.''
    Finally, of course, sanctions, to be effective, do need to 
be, or at least to the extent possible they need to be, 
multilateralized and international. And, again, here I've spent 
a lot of time over the last 2 months in Europe--in Germany, in 
Brussels, in Paris, in the United Kingdom--talking about, and 
pushing for, EU sanctions action. And not only has there been 
no such action, and there's none pending, the quotes that Mr. 
Natsios gave, I'm familiar with, because I was in Germany when 
they were made by Angela Merkel, and they were only as a result 
of pressure from EU cultural leaders and others at the time of 
the EU 50th anniversary event.
    There's no currently existing, nor do we hear anything 
about the appointment of, somebody on the order of Ambassador 
Victor Comras, who, again, during the Yugoslavia sanctions in 
the nineties and early 2000, was, with a large staff, 
constantly on the road, constantly harassing countries to 
enforce the sanctions on the Danube, to, you know, do all of 
the really, really difficult detail work that's needed to make 
sanctions effective.
    So, the short answer, Senator, is no.
    The Chairman. And I know there's no way you can answer with 
any great specificity, but if, tomorrow, the President turned 
to you and said, ``Set these mechanisms up,'' how long would it 
take?
    Ambassador Rossin. I think if the President said to do it, 
and put somebody in direct charge of it, and said, ``I want 
this done,'' I think it could be done in a matter of a couple 
of weeks. The resources are there. In many cases, it's a 
question of allocating resources. If you don't have a Sudan 
task force in the intelligence community, well, you take people 
from other less-priority issues, and you assign them to a Sudan 
task force. Same thing in Treasury; you appointed yourself an 
envoy. It doesn't take that long to do it, if you're 
determined.
    The Chairman. Dr. Morrison, leaving military option off the 
table, and a more aggressively diplomacy, do you agree with the 
Ambassador, in terms of the lack of a mechanism in place to 
aggressively engage in diplomacy with the potential use of 
economic sanctions?
    Dr. Morrison. It's--you mean with reference to other 
powers, or----
    The Chairman. No; with reference to us. With reference to 
the United States, not only acting on its own, but seeking 
multilateral support for the actions that are contemplated in 
plan B. In other words, how prepared are they, if it--if, 
tomorrow, the President turned to Ambassador Natsios, and says, 
``Go. I'm signing the order,'' how prepared for this vigorous 
diplomacy that you very skillfully argue for--how prepared are 
we to implement it?
    Dr. Morrison. I can--I share Larry's general sense about 
this, that much more can, and should, be done to lay the 
groundwork for the embrace and advance and multilateralization 
of these. It's a little hard to get very precise, because so 
much of the preparations have been done in quiet and out of--
you know, out of sight. And so, I haven't been--I haven't been 
privy to much of the prior discussions. I think some of the 
hesitation in introduction has to do with the lack of buy-in on 
the other side, in the sense that it--you might find yourself 
alone, or too alone, or too visibly or conspicuously alone. And 
so, there's been a tendency, under those circumstances, to be 
very cautious and to begin to break them into incremental steps 
that perhaps would be more digestible.
    The Chairman. From the standpoint of EU members, what 
incentive--other than a moral incentive, what incentive is 
there to engage in, and participate in, multilateral sanctions? 
Is there any economic or political or military or strategy 
interest that major EU countries think is at stake for them if 
the situation in Sudan continues, and Darfur continues, as it 
has the last 4 years?
    Dr. Morrison. If we're talking about Sudan, specifically, I 
think--you know, Susan's point, earlier, that this is--this is 
not a major economic or military or political power we're 
talking about. The implications for trade are--and investment 
exposure--are relatively modest. Like all of these--like 
ourselves and every European government, they're going to look 
at this in terms of the implications downstream in other 
settings.
    The Chairman. And what are those?
    Dr. Morrison. And----
    The Chairman. What are some of those implications 
downstream in other settings for European countries?
    Dr. Morrison. Well, I think that the--the fact that the--
these kinds of sanctions have been used to reasonable effect on 
North Korea, and are being implemented in Iran, gives a 
credibility and----
    The Chairman. Yeah, but there's a lot at stake there.
    Dr. Morrison [continuing]. And----
    The Chairman. I mean, there's the----
    Dr. Morrison [continuing]. And----
    The Chairman [continuing]. Possibility of a nuclearized 
Korean Peninsula, a nuclear Japan, and a response from China. 
What similar kinds----
    Dr. Morrison. Yes; but what I'm getting at is that it's 
proven that these can be--these can have some impact on the 
target--the target of the sanctions, without having huge costs 
that are----
    The Chairman. Yeah.
    Dr. Morrison [continuing]. That are sideline costs. That's 
what I'm----
    The Chairman. I understand. Yeah. That's a valid point.
    Yes, Susan.
    Dr. Rice. Senator, in part to answer your question, the 
French, at least, have a significant stake in the stability of 
Chad and the Central African Republic. They have French forces 
based in Chad. And when this thing blows up, as it has 
intermittently, it's been French forces that have had to 
backstop the Chadian Government to prevent the Sudanese rebels 
from reaching N'Djamena. So, when you look at the issue in its 
regional context, you begin to see many implications for 
various of the interests of the European countries.
    The Chairman. Last question. Susan, the point made by 
Senator Lugar is self-evidently valid, that this is pretty 
complicated. And, to use his phrase, it warrants walking around 
the problem a little longer. You've walked around it for a 
while. If, in fact--is there any--do you have any reason to 
believe that if, in fact, we move through the three phases 
you're talking about before we get to unilateral use of force, 
or even multilateral use of force, is there any reason to 
believe that in the circumstance of the use of force--targeted, 
as you point out--that there would be the ability of any 
significant portion of the 13,000 aid workers to be able to 
continue to function in that region, or do you--or do you take 
it as a given that, for all intents and purposes, unless the 
military action generated a response from Khartoum that was 
favorable, in terms of changing their position, that it would 
be a price that would have to be paid? How do you calculate it?
    Dr. Rice. I think, whether we're talking about the 
imposition of a no-fly zone or targeted military strikes----
    The Chairman. Targeted military strikes.
    Dr. Rice [continuing]. That--either one--in either 
circumstance, because they're--in practical terms, amount to 
more or less the same thing. There are--there's obviously, as 
you suggest, a significant risk to humanitarian operations. I 
think there are ways, as I suggested in my testimony, to 
mitigate those risks. First and foremost, to try to spare 
aircraft and airfield that are integral to the humanitarian 
operations, having a quick-reaction capacity on the other side 
to protect civilians at risk. But, in fact, we would need to 
assume that there would likely be an interruption or diminution 
in humanitarian activity. And that's a legitimate reason for 
concern.
    The question then becomes, though--and we faced this 
dilemma, in effect, in the Balkans; you referred to British 
troops being at risk, and, therefore, them being used as an 
excuse not to pursue more robust action to stop the genocide, 
in the case of Bosnia--we face the same thing. There is an 
understandable and laudable desire on the part of the 
humanitarian community to continue to deliver life-saving 
assistance. But is our plan to do that in perpetuity, while the 
killing continues, or, in effect, putting Band-Aids on the 
victims of the genocide, or is it necessary, at a certain 
point, to try to stop it? I've come to the conclusion, 
gradually and reluctantly, that it is not only necessary to 
stop it, but more robust action than we've taken to date will 
be required to stop it. I don't rule out the possibility that 
serious economic pressure, if it were sharp and severe and 
swift, not incremental, as Mr. Natsios laid out, has the 
potential to get Khartoum's attention and begin to change their 
calculus. But, if it fails, then we face that dilemma of 
whether we continue to let this go on forever, and feed the 
victims, or whether we, in fact, try to stop it. And then, as 
Senator Lugar suggested, get into the complex and important 
work of trying to put the entire region back together again, 
with the involvement of our European partners and others.
    The Chairman. Well, I thank you. I thank you all. This is--
all three of you have made a significant contribution to our 
deliberation, and I appreciate it very much. I think we're 
going to be asking your assistance again. I doubt whether this 
is going to go away.
    I thank you very much.
    The hearing is adjourned.
    [Whereupon, at 12:45 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
